<html>
<title> - VALUE OF DHS'S VULNERABILITY ASSESSMENTS IN PROTECTING OUR NATION'S CRITICAL INFRASTRUCTURE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
  VALUE OF DHS'S VULNERABILITY ASSESSMENTS IN PROTECTING OUR NATION'S 
                        CRITICAL INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                        PROTECTION, AND SECURITY
                              TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2016

                               __________

                           Serial No. 114-81

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       
       
       
                                     
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
      
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-264 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
     
      

                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                    John Ratcliffe, Texas, Chairman
Peter T. King, New York              Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             Loretta Sanchez, California
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Curt Clawson, Florida                James R. Langevin, Rhode Island
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Brett DeWitt, Subcommittee Staff Director
                    Katie Rashid, Subcommittee Clerk
       Christopher Schepis, Minority Subcommittee Staff Director
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               Witnesses

Mr. Chris P. Currie, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Mr. Andy Ozment, Assistant Secretary, Office of Cybersecurity and 
  Communications, National Protection and Programs Directorate, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    17
  Joint Prepared Statement.......................................    19
Ms. Caitlin Durkovich, Assistant Secretary, Office of 
  Infrastructure Protection, National Protection and Programs 
  Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    25
  Joint Prepared Statement.......................................    19
Mr. Marcus L. Brown, Homeland Security Advisor, Director of the 
  Office of Homeland Security, Commonwealth of Pennsylvania:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

                                Appendix

Questions From Chairman John Ratcliffe for Chris P. Currie.......    43
Questions From Chairman John Ratcliffe for Andy Ozment...........    45
Questions From Ranking Member Cedric L. Richmond for Andy Ozment.    52
Questions From Chairman John Ratcliffe for Caitlin Durkovich.....    54
Questions From Chairman John Ratcliffe for Marcus Brown..........    60


  VALUE OF DHS'S VULNERABILITY ASSESSMENTS IN PROTECTING OUR NATION'S 
                        CRITICAL INFRASTRUCTURE

                              ----------                              


                         Tuesday, July 12, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 311, Cannon House Office Building, Hon. John Ratcliffe 
(Chairman of the subcommittee) presiding.
    Present: Representatives Ratcliffe, Perry, Donovan, 
Richmond, Sanchez, and Langevin.
    Also present: Representative Payne.
    Mr. Ratcliffe. The Committee on Homeland Security 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order.
    The subcommittee is meeting today to examine how the 
Department of Homeland Security is fulfilling its important 
mission of protecting our Nation's critical infrastructure.
    We look forward to examining DHS's capabilities and 
conducting physical and cybersecurity vulnerability 
assessments. The critical systems that are essential and 
central to our daily lives are targeted every day by 
terrorists, nation-States, and criminals. Taxpayer funds used 
to protect these systems must be invested wisely, and must add 
value for owners and operators.
    Because threats to critical infrastructure are numerous and 
diverse, we are interested in learning about the strategy that 
DHS efforts is being guided by in this area. I want to thank 
our panel of experts for joining us so Congress can better 
understand the work being done in this area and the value of 
DHS's vulnerability assessments in training.
    For 12 years, the primary mission of the Office of 
Infrastructure Protection's Protective Security Advisor Program 
has been the protection of our critical infrastructure. 
Protective Security Advisors, or PSAs, are regionally based in 
alignment with the 10 FEMA regions. PSAs execute their primary 
mission through the planning, coordination, and performance of 
security survey assessments and outreach activities to those 
critical infrastructure owners and operators that elect to 
participate in these voluntary programs.
    PSAs also support National Special Security Events, Special 
Event Activity Rating or SEAR level 1 and level 2 events and 
response to incidents. The mission I have just described is 
enormous. Because it is voluntary in nature, its success really 
hinges on stakeholder buy-in. Such buy-in requires strategic 
outreach and real value added for owners and operators of 
critical infrastructure.
    I'm interested in hearing what strategy is guiding this 
important program and what metrics DHS is using to track and 
increase such value.
    In 2014, DHS established the Critical Infrastructure Cyber 
Community Voluntary Program to help organizations address and 
improve their cybersecurity risk management. Additionally, DHS 
created the Cybersecurity Advisor Program, or CSA Program, to 
provide cybersecurity expertise and voluntary cybersecurity 
programs to critical infrastructure owners and operators.
    While the CSA Program is still in its infancy compared to 
the 12-year-old PSA Program, the CSA mission of assisting our 
Nation's critical infrastructure owners and operators in 
strengthening their cyber hygiene is critically important. With 
the passage of the Cybersecurity Act of 2015 last December, we 
have to ensure the CSA Program is also guided by a strategic 
plan and is well-positioned to effectively lead DHS's cyber 
engagement efforts for critical infrastructure.
    Last month, this committee unanimously passed the 
Cybersecurity and Infrastructure Protection Agency Act of 2016 
to elevate the functions of our Nation's cybersecurity and 
critical infrastructure protection into an operational 
component within DHS. The legislation recognizes the unique 
expertise required of both cyber and physical aspects of the 
agency's mission while also stressing the importance of 
enhanced collaboration and coordination between the cyber and 
physical missions.
    The Government Accountability Office has reported 
extensively on DHS's vulnerability assessment programs for 
critical infrastructure and identified challenges within DHS in 
2013, in 2014, and, again, in 2015. These reports included a 
number of recommendations to increase the use, and to enhance 
the participation, of stakeholders in these vulnerability 
assessments.
    One particular area of concern found in the report was 
Federal fatigue, which results from a perceived weariness among 
the private sector who might be repeatedly approached or 
required by multiple Federal agencies to engage in risk 
assessments. Federal fatigue is particularly alarming as the 
PSA and CSA assessment programs at DHS depend entirely on 
voluntarily participation.
    Just last week, a review of the DHS's website for critical 
infrastructure vulnerability assessments found conflicting and 
somewhat outdated information. While errors like these may 
appear to be insignificant, it's important to remember that 
these programs are voluntary. If DHS can't handle basic 
promotion and marketing of its programs, then I have concerns 
about the likelihood of private-sector participation going 
forward.
    The subcommittee believes both the CSA and PSA Programs can 
be of great value for the protection of our Nation's critical 
infrastructure, but a clear strategy, effective stakeholder 
outreach, and metrics of success are essential. It is the hope 
of the subcommittee that this hearing will clarify how DHS is 
working to address these issues.
    Further, given the relative infancy of the CSA Program, the 
subcommittee hopes to learn more about CS&C's plan to expand 
this program and would hope that the lessons learned from the 
PSA Program are, in fact, being incorporated.
    This subcommittee is responsible not only for the oversight 
of DHS's functions, but also for ensuring that it has the tools 
and necessary authorities to successfully meet its objectives. 
In that spirit, we welcome input as to how we can assist you in 
this critical mission.
    [The statement of Mr. Ratcliffe follows:]
                  Statement of Chairman John Ratcliffe
    The subcommittee meets today to examine how the Department of 
Homeland Security is fulfilling its important mission of protecting our 
Nation's critical infrastructure by conducting vulnerability 
assessments. Everyday terrorists, nation states and criminals are 
targeting the critical systems that run our everyday lives. I want to 
thank our panel of experts for joining us today so Congress can better 
understand the work being done in this area and the value of DHS's 
vulnerability assessments and training.
    For 12 years, the Office of Infrastructure Protection's Protective 
Security Advisor Program's primary mission has been the protection of 
critical infrastructure. Protective Security Advisors (PSAs) are 
regionally based in alignment with the 10 FEMA regions. PSAs execute 
their primary mission through the planning, coordination, and 
performance of security surveys, assessments, and outreach activities 
to those critical infrastructure owners and operators that elect to 
participate in these voluntary programs. PSAs also support National 
Special Security Events, Special Event Activity Rating (SEAR) Level I 
and II events and respond to incidents. I am curious to hear today what 
strategy is guiding this vitally important program for homeland 
security and what metrics are being used to measure the value it has 
brought to the owners and operators of critical infrastructure.
    In 2014, DHS established the Critical Infrastructure Cyber 
Community Voluntary Program to help organizations address and improve 
their cybersecurity risk management. Additionally, DHS created the 
Cybersecurity Advisor Program, or CSA Program, to provide cybersecurity 
expertise and voluntary cybersecurity programs to critical 
infrastructure owners and operators. While the CSA Program is still in 
its infancy compared to the 12-year-old PSA Program, the CSA mission of 
assisting our Nation's critical infrastructure owners and operators in 
raising their cyber hygiene is critically important. With the passage 
of the Cybersecurity Act of 2015 last December, we must ensure the CSA 
program is also guided by a strategic plan and is well-positioned to 
effectively lead DHS's cyber engagement efforts for critical 
infrastructure.
    Last month, this committee passed unanimously the Cybersecurity and 
Infrastructure Protection Agency Act of 2016 (CIPA), to elevate the 
functions of our Nation's cybersecurity and critical infrastructure 
protection into an operational component within DHS. The legislation 
recognizes the unique expertise required of both the cyber and physical 
aspects of the agency's mission while also stressing the importance of 
enhanced collaboration and coordination between the cyber and physical 
missions.
    The Government Accountability Office has reported extensively on 
DHS vulnerability assessment programs for critical infrastructure and 
identified challenges within DHS in 2013, 2014, and 2015. These reports 
included number of recommendations to increase the use and enhance the 
participation in these vulnerability assessments. One particular area 
of concern found in the report was ``Federal fatigue'' which results 
from a perceived weariness among the private sector who might be 
repeatedly approached or required by multiple Federal agencies to 
engage in risk assessments. ``Federal fatigue'' is particularly 
alarming as these DHS programs depend on voluntary participation.
    Just last week, a review of the DHS's website for critical 
infrastructure vulnerability assessments found conflicting and outdated 
programs. While errors like these appear insignificant, it's important 
to remember that these programs are voluntary in nature, and if DHS 
cannot clearly and effectively promote and market the value of these 
programs, private-sector entities are unlikely to participate and seek 
assistance.
    The subcommittee believes that both the CSA and PSA programs can be 
of great value for the protection of our Nation's critical 
infrastructure, but it's vital that there be effective management of 
them.
    It is the hope of this subcommittee that this hearing will bring 
some clarity on how DHS has resolved some of these out-standing issues. 
Further, given the relative infancy of the CSA program, the 
subcommittee hopes to learn more about CS&C's plan to expand this 
program and would hope that lessons learned from the PSA Program are 
being incorporated. This subcommittee is responsible not only for the 
oversight of DHS's functions but also for ensuring that it has the 
tools and necessary authorities to successfully meet its objectives. In 
that spirit, we welcome input as to how we can assist in this critical 
mission.

    Mr. Ratcliffe. The Chair now recognizes the Ranking 
Minority Member of our subcommittee, the gentleman from 
Louisiana, Mr. Richmond, for his opening statement.
    Mr. Richmond. Thank you, Mr. Chairman. Thank you for 
holding this hearing to examine how the Department conducts 
vulnerability assessments for our Nation's critical 
infrastructure.
    Whether it's going about our daily lives, running a 
business, or a local government, we all rely on the security of 
resiliency of our critical infrastructure. As we have seen 
after disasters like Katrina, Rita, Sandy, or the recent 
devastation in West Virginia, the ability to recover quickly is 
crucial.
    In my district, as in many districts across the country, 
multiple DHS components and a range of other agencies conduct 
vulnerability assessments--The Coast Guard and the ports in my 
district, TSA and airports and for pipelines and transportation 
corridors, and DOE and FERC for electrical grid 
vulnerabilities. Risk assessment involves integrating threats, 
vulnerabilities, and consequence information and then deciding 
which protective measures--measure to take based on an agreed 
upon risk reduction and recovery strategy.
    Within DHS, the National Infrastructure Protection Program, 
or NIPP, outlines how Government and the privately-owned 
critical infrastructure community can work together to manage 
risk and achieve physical and cybersecurity resiliency. It is 
important to remember that these are voluntary, nonregulatory 
assessments, and they represent the foundation of the NIPP 
risk-based programs designed to prevent, deter, and mitigate 
the risk of a terrorist attack or a natural disaster.
    The DHS protective security advisors, or PSAs, and 
cybersecurity advisors, CSAs, conduct these assessments and 
focus on coordination, training, and building existing 
relationships with State, local, Tribal, territorial, and 
private-sector partners.
    This year, President Obama requested additional funds to 
expand the PSA and CSA Programs in hopes of melding physical 
security with cybersecurity and in line with the Secretary's 
DHS Unity of Effort initiative.
    The critical infrastructure vulnerability assessments 
present DHS and the current NPPD directorate with one of their 
most complex challenges. As GAO has suggested in their 
testimony, it is not clear that the directorate has had a 
consistent and systematic approach for identifying Nationally 
critical assets, assessing the risk they pose, and using that 
information for cost-effective allocation of resources.
    Thank you, Mr. Chairman. I look forward to the testimony 
and yield back.
    [The statement of Mr. Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                             July 12, 2016
    Mr. Chairman, thank you for holding this hearing to examine how the 
Department conducts vulnerability assessments for our Nation's critical 
infrastructure.
    Whether it's going about our daily lives, running a business, or a 
local government, we all rely on the security and resiliency of our 
critical infrastructure. As we have seen after disasters like Katrina, 
Rita, Sandy, or the recent devastation in West Virginia, the ability to 
recover quickly is crucial.
    In my district, as in many districts across the country, multiple 
DHS components, and a range of other agencies conduct vulnerability 
assessments--the Coast Guard in the ports in my district, the TSA in 
airports and for pipelines and transportation corridors, and DOE and 
FERC for electric grid vulnerabilities.
    Risk assessment involves integrating threats, vulnerabilities, and 
consequence information, and then deciding which protective measures to 
take based on an agreed-upon risk reduction and recovery strategy.
    Within DHS, the National Infrastructure Protection Plan (or NIPP) 
outlines how Government and the privately-owned critical infrastructure 
community can work together to manage risks and achieve physical and 
cyber security and resiliency.
    It is important to remember that these are voluntary, non-
regulatory assessments, and they represent the foundation of the NIPP 
risk-based programs designed to prevent, deter, and mitigate the risk 
of a terrorist attack, or natural disaster.
    The DHS Protective Security Advisors (or PSAs), and Cybersecurity 
Advisors (or CSAs), conduct these assessments and focus on 
coordination, training, and building existing relationships with State, 
local, Tribal, territorial, and private-sector partners.
    This year, President Obama requested additional funds to expand the 
PSA and the CSA programs, in hopes of melding physical security with 
cybersecurity, and in line with the Secretary's DHS Unity of Effort 
initiative.
    Critical infrastructure vulnerability assessments present DHS and 
the current NPPD Directorate with one of their most complex challenges 
and, as GAO has suggested in their testimony, it is not clear that the 
Directorate has had a consistent and systematic approach for 
identifying Nationally-critical assets, assessing the risks they pose, 
and using that information for cost-effective allocation of resources.
    Thank you Mr. Chairman, I look forward to the testimony today and 
yield back.

    Mr. Ratcliffe. I thank the gentleman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    We are pleased to have with us today a very distinguished 
panel of witnesses on this critically important topic.
    With us today, Mr. Christopher Currie, is the director for 
homeland security and justice at the Government Accountability 
Office. Thanks for being with us.
    Dr. Andy Ozment is the assistant secretary for the Office 
of Cybersecurity and Communications within the National 
Protection and Programs Directorate at the Department of 
Homeland Security. Andy, good to have you back with this 
subcommittee.
    Ms. Caitlin Durkovich is the assistant secretary for the 
Office of Infrastructure Protection within the National 
Protection and Programs Directorate at the Department of 
Homeland Security. Ms. Durkovich, again, it's great to have you 
back in front of this committee as well.
    Finally, Mr. Marcus Brown, is the homeland security advisor 
and director for the Office of Homeland Security at the 
Commonwealth of Pennsylvania.
    Welcome to Washington, DC. Thanks for being here at this 
committee hearing.
    I now would like to ask all the witnesses to stand and 
raise your right hand so I can swear you in to testify.
    [Witnesses sworn.]
    Mr. Ratcliffe. Let the record reflect that the witnesses 
have answered in the affirmative. You all may be seated. The 
witnesses' full written statements will appear in the record.
    The Chair now recognizes Mr. Currie for 5 minutes for his 
opening statement.

 STATEMENT OF CHRIS P. CURRIE, DIRECTOR, HOMELAND SECURITY AND 
     JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairman Ratcliffe, Ranking Member 
Richmond, Congressman Donovan. Thank you for having me here 
today.
    Today, I would like to talk about DHS's important but 
equally difficult mission of assessing vulnerabilities across 
all 16 critical infrastructure sectors. This is a challenge for 
many reasons, as you know.
    Each sector is very different but many are also 
interconnected. Also, some sectors are heavily regulated and 
not--and very accustomed to Federal oversight, others are not. 
Voluntary collaboration is absolutely critical, as you both 
mentioned in your opening statements. Most infrastructure is 
owned and operated by the private sector or State and local 
governments.
    DHS needs to collect information to assess Nation-wide 
risks. But, they must also earn the trust of these partners by 
using the information effectively and protecting it, too.
    Sharing and trust are also increased when DHS returns the 
favor and gives information back to owners and operators they 
can use.
    In late 2014, we evaluated 10 different DHS vulnerability 
assessment tools across all 16 sectors. We found that from 2010 
to 2013, DHS was involved in almost 13,000 assessments of 
different assets or systems. These varied from multi-day onsite 
assessments of chemical facilities to voluntary on-line surveys 
used by shopping malls and other commercial facilities. We also 
found that these assessment tools overlapped across sectors and 
collected different information and levels of detail.
    For example, some of the 10 assessment tools collected 
information on vulnerabilities to all hazards like earthquakes 
and hurricanes while others didn't. We also found that asset 
names and addresses were recorded differently across 
assessments, and this simple difference made it difficult for 
DHS officials and us, for that matter, to analyze whether 
assessments duplicated one another across sectors.
    DHS also lacked mechanisms at the time for sharing 
assessment data across its own components like NPPD, TSA, Coast 
Guard, as well as with other Federal departments. For example, 
non-DHS agencies like EPA also provide self-assessments to 
facilities to assess their risk, like waste water treatment 
facilities, for example. However, DHS did not have mechanisms 
in place to better integrate those assessments and avoid 
potential duplication.
    So we made a number of recommendations in that particular 
report. First was that DHS identified the most important areas 
and the detail necessary to integrate assessment efforts, first 
of all.
    Second of all, we recommended that DHS consistently collect 
and maintain assessment data and share it across components and 
other Federal departments. This could help them better identify 
duplication or on the other end gaps in the coverage that these 
assessments do.
    DHS agreed with all of our recommendations, and I want to 
give them credit, because they have taken action to address 
them. For example, it's established working groups among 
components and other departments. It's also considering actual 
guidance within the Department to better coordinate assessment 
efforts, and begun to inventory what other departments are 
doing. While this is progress, there's still much more work 
needed to institutionalize these efforts into DHS policies that 
components must follow.
    Strengthening how DHS manages and coordinates its 
assessments won't just benefit DHS but also the infrastructure 
owners and operators that must use these assessments. When 
surveyed, they told us--and you mentioned this, Mr. Chairman, 
and DHS officials told us, too--that there is Federal fatigue 
or weariness in conducting numerous assessments. To this end, 
we have recommended that DHS could really do more to understand 
why asset owners and operators decline to participate in 
voluntary assessments. We also found that DHS should more 
quickly provide assessment results back to owners and 
operators, which could encourage trust and participation.
    To be clear, DHS has made much progress in this area since 
our report. For example, they are now using web-based systems 
to more quickly deliver results and have cut down on these 
delays.
    Last, better coordination among components and agencies and 
sharing of data, as I discussed before, could also help reduce 
burden on operators. For example, if a DHS protective security 
adviser has access to all Federal assessment data on a 
particular facility, they have a head start in assessing that 
facility as well as information to build credibility with the 
owner or the operator.
    This concludes my statement. I look forward to the Q&A.
    [The prepared statement of Mr. Currie follows:]
                 Prepared Statement of Chris P. Currie
                             July 12, 2016
                             gao highlights
    Highlights of GAO-16-791T, a testimony before the Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security Technologies, 
Committee on Homeland Security, House of Representatives.
Why GAO Did This Study
    Protecting the security of CI is a top priority for the Nation. CI 
includes assets and systems, whether physical or cyber, that are so 
vital to the United States that their destruction would have a 
debilitating impact on, among other things, National security, or the 
economy. Multiple Federal entities, including DHS, are involved in 
assessing CI vulnerabilities, and assessment fatigue could impede DHS's 
ability to garner the participation of CI owners and operators in its 
voluntary assessment activities.
    This testimony summarizes past GAO findings on progress made and 
improvements needed in DHS's vulnerability assessments, such as 
addressing potential duplication and gaps in these efforts.
    This statement is based on products GAO issued from May 2012 
through October 2015 and recommendation follow-up conducted through 
March 2016. GAO reviewed applicable laws, regulations, directives, and 
policies from selected programs. GAO interviewed officials responsible 
for administering these programs and assessed related data. GAO 
interviewed and surveyed a range of stakeholders, including Federal 
officials, and CI owners and operators.
What GAO Recommends
    GAO made recommendations to DHS in prior reports to strengthen its 
assessment efforts. DHS agreed with these recommendations and reported 
actions or plans to address them. GAO will continue to monitor DHS 
efforts to address these recommendations.
critical infrastructure protection.--dhs has made progress in enhancing 
 critical infrastructure assessments, but additional improvements are 
                                 needed
What GAO Found
    GAO's prior work has shown the Department of Homeland Security 
(DHS) has made progress in addressing barriers to conducting voluntary 
assessments but guidance is needed for DHS's critical infrastructure 
(CI) vulnerability assessments activities and to address potential 
duplication and gaps. For example:
    Determining why some industry partners do not participate in 
        voluntary assessments.--In May 2012, GAO reported that various 
        factors influence whether CI owners and operators participate 
        in voluntary assessments that DHS uses to identify security 
        gaps and potential vulnerabilities, but that DHS did not 
        systematically collect data on reasons why some owners and 
        operators of high-priority CI declined to participate. GAO 
        concluded that collecting data on the reason for declinations 
        could help DHS take steps to enhance the overall security and 
        resilience of high-priority CI crucial to National security, 
        public health and safety, and the economy, and made a 
        recommendation to that effect. DHS concurred and has taken 
        steps to address the recommendation, including developing a 
        tracking system in October 2013 to capture declinations.
    Establishing guidance for areas of vulnerability covered by 
        assessments.--In September 2014, GAO reported that the 
        vulnerability assessment tools and methods DHS offices and 
        components use vary with respect to the areas of 
        vulnerability--such as perimeter security--assessed depending 
        on which DHS office or component conducts or requires the 
        assessment. As a result it was not clear what areas DHS 
        believes should be included in its assessments. GAO recommended 
        that DHS review its vulnerability assessments to identify the 
        most important areas of vulnerability to be assessed, and 
        establish guidance, among other things. DHS agreed and 
        established a working group in August 2015 to address this 
        recommendation. As of March 2016 these efforts were on-going 
        with a status update expected in the summer of 2016.
  <bullet> Addressing the potential for duplication, overlap, or gaps 
        between and among the various efforts.--In September 2014, GAO 
        found overlapping assessment activities and reported that DHS 
        lacks a Department-wide process to facilitate coordination 
        among the various offices and components that conduct 
        vulnerability assessments or require assessments on the part of 
        owners and operators. This could hinder the ability to identify 
        gaps or potential duplication in DHS assessments. GAO 
        identified opportunities for DHS to coordinate with other 
        Federal partners to share information regarding assessments. In 
        response to GAO recommendations, DHS began a process of 
        identifying the appropriate level of guidance to eliminate gaps 
        or duplication in methods and to coordinate vulnerability 
        assessments throughout the Department. GAO also recommended 
        that DHS identify key CI security-related assessment tools and 
        methods used or offered by other Federal agencies, analyze them 
        to determine the areas they capture, and develop and provide 
        guidance for what areas should be included in vulnerability 
        assessments of CI that can be used by DHS and other CI partners 
        in an integrated and coordinated manner. DHS agreed, and as of 
        March 2016, established a working group to address GAO 
        recommendations.
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
subcommittee: Thank you for the opportunity to discuss the Department 
of Homeland Security's (DHS) efforts to assess critical infrastructure 
vulnerabilities. Critical infrastructure (CI) includes assets and 
systems, whether physical or cyber, that are so vital to the United 
States that their incapacity or destruction would have a debilitating 
impact on, among other things, National security or the economy.\1\
---------------------------------------------------------------------------
    \1\ See 42 U.S.C.  5195c(e).
---------------------------------------------------------------------------
    Protecting the security of our critical infrastructure is a top 
priority for the Nation. For example, in 2013, the President issued 
Presidential Policy Directive/PPD-21: Critical Infrastructure Security 
and Resilience to increase the overall security and resilience of U.S. 
critical infrastructure.\2\ In addition, in 2013, DHS issued an update 
to its National Infrastructure Protection Plan (NIPP),\3\ which 
provides the overarching approach for integrating the Nation's critical 
infrastructure security and resilience activities into a single 
National effort.\4\ A fundamental component of DHS's efforts to protect 
and secure our Nation's infrastructure is its reliance on voluntary 
collaboration between private-sector owners and operators of critical 
infrastructure and their Government counterparts. The NIPP outlines the 
roles and responsibilities of DHS with regard to critical 
infrastructure protection and resilience and sector-specific agencies 
(SSA)--Federal departments and agencies responsible for critical 
infrastructure protection and resilience activities in 16 critical 
infrastructure sectors. Sectors include the commercial facilities, 
energy, and transportation sectors. Appendix I lists the 16 CI sectors 
and their SSAs.
---------------------------------------------------------------------------
    \2\ Presidential Policy Directive-21--Critical Infrastructure 
Security and Resilience (Washington, DC: Feb. 12, 2013).
    \3\ See DHS, NIPP 2013, Partnering for Critical Infrastructure 
Security and Resilience (Washington, DC: December 2013), which is an 
update to previous versions of the NIPP.
    \4\ According to DHS, in this context, resilience is the ability to 
adapt to changing conditions, and prepare for, withstand, and rapidly 
recover from disruptions. See DHS, Risk Steering Committee, DHS Risk 
Lexicon (Washington, DC: September 2010).
---------------------------------------------------------------------------
    Over the last several years, DHS has taken actions to assess 
vulnerabilities at CI facilities and within groups of related 
infrastructure, regions, and systems. According to DHS, a vulnerability 
assessment is a process for identifying physical features or 
operational attributes that render an entity, asset, system, network, 
or geographic area open to exploitation or susceptible to a given 
hazard that has the potential to harm life, information, operations, 
the environment, or property.\5\
---------------------------------------------------------------------------
    \5\ According to the NIPP, vulnerabilities may be associated with 
physical (e.g., no barriers or alarm systems), cyber (e.g., lack of a 
firewall), or human (e.g., untrained guards) factors. A vulnerability 
assessment can be a stand-alone process or part of a full risk 
assessment and involves the evaluation of specific threats to the 
asset, system, or network under review to identify areas of weakness 
that could result in consequences of concern. For the purposes of this 
testimony, we use the term ``tools and methods'' when referring to 
specific survey questionnaires or tools that DHS offices and components 
and other Federal agencies use in conducting vulnerability assessments 
or in offering self-assessments to CI owners and operators. These tools 
and methods contain various areas that can be assessed for 
vulnerabilities, such as perimeter security, entry controls, and 
cybersecurity, among others.
---------------------------------------------------------------------------
    We reported in September 2014 that DHS offices and components had 
conducted or required thousands of vulnerability assessments of CI from 
October 2010 to September 2013, some of which are voluntary, and that 
DHS needed to enhance integration and coordination of these efforts.\6\ 
Specifically, DHS officials representing the National Protection and 
Programs Directorate (NPPD), Transportation Security Administration 
(TSA), and the Coast Guard conducted more than 5,300 assessments using 
6 different voluntary assessment tools and methods covering various 
types of assets and systems.\7\ During the same time period, as many as 
7,600 asset owners and operators were required to perform self-
assessments to comply with Coast Guard requirements pursuant to 
Maritime Transportation Security Act (MTSA)\8\ and NPPD's 
Infrastructure Security Compliance Division (ISCD) requirements 
pursuant to Chemical Facility Anti-Terrorism Standards (CFATS).\9\
---------------------------------------------------------------------------
    \6\ GAO, Critical Infrastructure Protection: DHS Action Needed to 
Enhance Integration and Coordination of Vulnerability Assessment 
Efforts, GAO-14-507 (Washington, DC: Sept. 15, 2014).
    \7\ During the early stages of our review, NPPD, TSA, and Coast 
Guard officials identified various assessment tools and methods. We 
further analyzed these 10 assessment tools and methods because based on 
our preliminary work, these tools and methods contained two or more 
areas assessed for vulnerability, such as perimeter security, or the 
presence of a security force. Tools and methods include the 
Infrastructure Survey Tool (IST), Site Assistance Visit (SAV), Chemical 
Security Assessment Tool Security Vulnerability Assessment (CSAT SAV), 
and Modified Infrastructure Survey Tool (MIST) from NPPD; the Baseline 
Assessment for Security Enhancements (BASE). Freight Rail Risk Analysis 
Tool, Pipeline Security Critical Facility Security Reviews (CFSR) and 
Joint Vulnerability Assessment (JVA) from TSA; and Port Security 
Assessments and Maritime Transportation Security Act (MTSA)-regulated 
facility vulnerability assessments performed by the Coast Guard.
    \8\ See Pub L. No. 107-295, 116 Stat. 2064 (2002).
    \9\ See 6 C.F.R. pt. 27; Department of Homeland Security 
Appropriations Act, 2007. Pub. L. No. 109-295, tit. V.  550, 120 Stat. 
1355, 1388-89 (2006).
---------------------------------------------------------------------------
    My testimony today describes: (1) Progress made by DHS in 
addressing barriers to conducting voluntary assessments and sharing 
information, and (2) the extent to which DHS provided guidance for 
DHS's CI vulnerability assessment activities and to address potential 
duplication and gaps in assessment efforts. This statement is based on 
products we issued from May 2012 to October 2015 on factors to consider 
when reorganizing, and recommendation follow-up activities conducted 
through March 2016 related to multiple aspects of DHS's efforts to 
assess critical infrastructure and provide information to CI owners and 
operators to help them enhance the security of their facilities.\10\ To 
perform the work for our previous reports, among other things, we 
reviewed applicable laws, regulations, and directives as well as 
policies and procedures for selected programs to protect critical 
infrastructure. We interviewed DHS officials responsible for 
administering these programs and obtained and assessed data on the 
conduct and management of DHS's security-related programs. We also 
interviewed and surveyed a range of other stakeholders, including 
Federal officials, industry owners and operators, and CI experts. 
Further details on the scope and methodology for the previously-issued 
reports are available within each of the published products. In 
addition, after the issuance of our reports and through March 2016 we 
contacted DHS to obtain updated information and documentation, as 
appropriate, on the status of recommendations we made as part of our 
on-going recommendation follow-up activities.
---------------------------------------------------------------------------
    \10\ GAO, National Protection and Programs Directorate: Factors to 
Consider When Reorganizing, GAO-16-140T (Washington, DC: Oct. 7, 2015); 
Critical Infrastructure Protection: Observations on Key Factors in 
DHS's Implementation of Its Partnership Approach, GAO-14-464T 
(Washington, DC: Mar. 26, 2014); Critical Infrastructure Protection: 
DHS Could Strengthen the Management of the Regional Resiliency 
Assessment Program, GAO-13-616 (Washington, DC: July 30, 2013); GAO-14-
507; Critical Infrastructure Protection: DHS List of Priority Assets 
Needs to Be Validated and Reported to Congress, GAO-13-296 (Washington, 
DC: Mar. 25, 2013); and Critical Infrastructure Protection: DHS Could 
Better Manage Security Surveys and Vulnerability Assessments, GAO-12-
378 (Washington, DC: May 31, 2012).
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe the 
evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
                               background
    Federal law and policy have established roles and responsibilities 
for Federal agencies to coordinate with industry in enhancing the 
security and resilience of critical Government and industry 
infrastructures. According to the Homeland Security Act of 2002, as 
amended, DHS is to, among other things, carry out comprehensive 
vulnerability assessments of CI; integrate relevant information, 
analyses, and assessments from within DHS and from CI partners; and use 
the information collected to identify priorities for protective and 
support measures. Assessments include areas that can be assessed for 
vulnerability (hereinafter referred to as ``areas''), such as perimeter 
security, the presence of a security force, or vulnerabilities to 
intentional acts, including acts of terrorism. Presidential Policy 
Directive/PPD-21 directs DHS to, among other things, provide strategic 
guidance, promote a National unity of effort, and coordinate the 
overall Federal effort to promote the security and resilience of the 
Nation's CI. Related to PPD-21, the NIPP calls for the CI community and 
associated stakeholders to carry out an integrated approach to: (1) 
Identify, deter, detect, disrupt, and prepare for threats and hazards 
(all hazards); (2) reduce vulnerabilities of critical assets, systems, 
and networks; and (3) mitigate the potential consequence to CI to 
incidents or events that do occur. According to the NIPP, CI partners 
are to identify risk in a coordinated and comprehensive manner across 
the CI community; minimize duplication; consider interdependencies; 
and, as appropriate, share information within the CI community.
    Within DHS, NPPD is responsible for working with public and 
industry infrastructure partners and leads the coordinated National 
effort to mitigate risk to the Nation's infrastructure through the 
development and implementation of the infrastructure security program. 
NPPD's Office of Infrastructure Protection (IP) has overall 
responsibility for coordinating implementation of the NIPP across the 
16 CI sectors, including providing guidance to SSAs and CI owners and 
operators on protective measures to assist in enhancing the security of 
infrastructure and helping CI-sector partners develop the capabilities 
to mitigate vulnerabilities and identifiable risks to the assets.\11\ 
The NIPP also designates other Federal agencies, as well as some 
offices and components within DHS, as SSAs that are responsible for, 
among other things, coordinating with DHS and other Federal departments 
and agencies and CI owners and operators to identify vulnerabilities, 
and to help mitigate incidents, as appropriate. DHS offices and 
components or asset owners and operators have used various assessment 
tools and methods, some of which are voluntary, while others are 
required by law or regulation, to gather information about certain 
aspects of CI. For example, Protective Security Coordination Division 
(PSCD), within NPPD, relies on Protective Security Advisors (PSA)\12\ 
to offer and conduct voluntary vulnerability assessments to owners and 
operators of CI to help identify potential security actions; 
Infrastructure Security Compliance Division, within NPPD, requires 
regulated chemical facilities to complete a security vulnerability 
assessment pursuant to CFATS; TSA conducts various assessments of 
airports, pipelines, and rail and transit systems;\13\ and Coast Guard 
requires facilities it regulates under the Maritime Transportation 
Security Act of 2002 (MTSA) to complete assessments as part of their 
security planning process.\14\ In addition, SSAs external to DHS also 
offer vulnerability assessment tools and methods to owners or operators 
of CI and these assessments include areas such as resilience management 
or perimeter security. For example, the Environmental Protection 
Agency, the SSA for the water sector, provides a self-assessment tool 
for the conduct of voluntary security-related assessments at water and 
wastewater facilities.
---------------------------------------------------------------------------
    \11\ A delegation memo to the Under Secretary for NPPD delineates 
the directorate's roles and responsibilities.
    \12\ As of July 2016, DHS has deployed 89 PSAs in all 50 States, 
Puerto Rico, and the Nation's capital region to, among other things, 
conduct outreach with State and local partners and asset owners and 
operators who participate in DHS's voluntary CI protection and 
resiliency efforts.
    \13\ See, e.g., 49 U.S.C.  44904; Pub. L. No. 104-264,  310, 110 
Stat. 3213, 3253 (1996).
    \14\ See Pub L. No. 107-295, 116 Stat. 2064 (2002); 33 C.F.R.  
105.300-.310.
---------------------------------------------------------------------------
 progress made addressing barriers to conducting voluntary assessments 
                        and sharing information
    DHS took steps to address barriers to conducting critical 
infrastructure vulnerability assessments and sharing information, in 
response to findings from our previous work. Specifically, DHS has made 
progress in the following areas:
    Determining why some industry partners do not participate in 
voluntary assessments.--DHS supports the development of the National 
risk picture by conducting vulnerability assessments and security 
surveys to identify security gaps and potential vulnerabilities in the 
Nation's high-priority critical infrastructure.\15\ In a May 2012 
report, we assessed the extent to which DHS had taken action to conduct 
security surveys using its Infrastructure Survey Tool (IST) and 
vulnerability assessments among high-priority infrastructure, shared 
the results of these surveys and assessments with asset owners or 
operators, and assessed their effectiveness.\16\
---------------------------------------------------------------------------
    \15\ DHS vulnerability assessments are conducted during site visits 
at individual assets and are used to identify security gaps and provide 
options for consideration to mitigate these identified gaps. DHS 
security surveys are intended to gather information on an asset's 
current security posture and overall security awareness. Security 
surveys and vulnerability assessments are generally asset-specific and 
are conducted at the request of asset owners and operators.
    \16\ GAO-12-378.
---------------------------------------------------------------------------
    We found that various factors influence whether industry owners and 
operators of assets participate in these voluntary programs, but that 
DHS did not systematically collect data on reasons why some owners and 
operators of high-priority assets declined to participate in security 
surveys or vulnerability assessments. We concluded that collecting data 
on the reason for declinations could help DHS take steps to enhance the 
overall protection and resilience of those high-priority critical 
infrastructure assets crucial to National security, public health and 
safety, and the economy. We recommended, and DHS concurred, that DHS 
design and implement a mechanism for systematically assessing why 
owners and operators of high-priority assets decline to participate.
    In response to our recommendations, in October 2013 DHS developed 
and implemented a tracking system to capture and account for 
declinations. In addition, in August 2014 DHS established a policy to 
conduct quarterly reviews to, among other things, track these and other 
survey and assessment programs and identify gaps and requirements for 
priorities and help DHS better understand what barriers owners and 
operators of critical infrastructure face in making improvements to the 
security of their assets.
    Sharing of assessment results at the asset level in a timely 
manner.--DHS security surveys and vulnerability assessments can provide 
valuable insights into the strengths and weaknesses of assets and can 
help asset owners and operators that participate in these programs make 
decisions about investments to enhance security and resilience. In our 
May 2012 report, we found that, among other things, DHS shared the 
results of security surveys and vulnerability assessments with asset 
owners or operators.\17\ However, we also found that the usefulness of 
security survey and vulnerability assessment results could be enhanced 
by the timely delivery of these products to the owners and operators. 
We reported that the inability to deliver these products in a timely 
manner could undermine the relationship DHS was attempting to develop 
with these industry partners. Specifically, we reported that, based on 
DHS data from fiscal year 2011, DHS was late meeting the 30-day time 
frame for delivering the results of its security surveys required by 
DHS guidance 60 percent of the time. DHS officials acknowledged the 
late delivery of survey and assessment results and said they were 
working to improve processes and protocols. However, DHS had not 
established a plan with time frames and milestones for managing this 
effort. We recommended, and DHS concurred, that it develop time frames 
and specific milestones for managing its efforts to ensure the timely 
delivery of the results of security surveys and vulnerability 
assessments to asset owners and operators. In response to our 
recommendation, DHS established time frames and milestones to ensure 
the timely delivery of assessment results of the surveys and 
assessments to CI owners and operators. In addition, in February 2013, 
DHS transitioned to a web-based delivery system, which, according to 
DHS, has since resulted in a significant drop in overdue deliveries.
---------------------------------------------------------------------------
    \17\ GAO-12-378.
---------------------------------------------------------------------------
    Sharing certain information with critical infrastructure partners 
at the regional level.--Our work has shown that over the past several 
years, DHS has recognized the importance of and taken actions to 
examine critical infrastructure asset vulnerabilities, threats, and 
potential consequences across regions. In a July 2013 report, we 
examined DHS's management of its Regional Resiliency Assessment Program 
(RRAP)--a voluntary program intended to assess regional resilience of 
critical infrastructure by analyzing a region's ability to adapt to 
changing conditions, and prepare for, withstand, and rapidly recover 
from disruptions--and found that DHS has been working with States to 
improve the process for conducting RRAP projects, including more 
clearly defining the scope of these projects.\18\ We also reported that 
DHS shares the project results of each RRAP project report, including 
vulnerabilities identified, with the primary stakeholders--officials 
representing the State where the RRAP was conducted--and that each 
report is generally available to SSAs and protective security advisors 
within DHS.\19\
---------------------------------------------------------------------------
    \18\ GAO-13-616.
    \19\ A protective security advisor is a DHS field representative. 
Among other things, they conduct RRAP projects.
---------------------------------------------------------------------------
    Sharing information with sector-specific agencies and State and 
local governments.--Federal SSAs and State and local governments are 
key partners that can provide specific expertise and perspectives in 
Federal efforts to identify and protect critical infrastructure. In a 
March 2013 report, we reviewed DHS's management of the National 
Critical Infrastructure Prioritization Program (NCIPP), and how DHS 
worked with States and SSAs to develop the high-priority CI list.\20\ 
The program identifies a list of Nationally-significant critical 
infrastructure each year that is used to, among other things, 
prioritize voluntary vulnerability assessments conducted by PSAs on 
high-priority critical infrastructure. We reported that DHS had taken 
actions to improve its outreach to SSAs and States in an effort to 
address challenges associated with providing input on nominations and 
changes to the NCIPP list. However, we also found that most State 
officials we contacted continued to experience challenges with 
nominating assets to the NCIPP list using the consequence-based 
criteria developed by DHS. Among other actions, we recommended that DHS 
commission an independent, external peer review of the NCIPP with clear 
project objectives. In November 2013, DHS commissioned a panel that 
reviewed the NCIPP process, guidance documentation, and process phases 
to provide an evaluation of the extent to which the process is 
comprehensive, reproducible, and defensible. The panel made 24 
observations about the NCIPP; however, panel members expressed 
different views regarding the classification of the NCIPP list, and 
views on whether private-sector owners of the assets, systems, and 
clusters should be notified of inclusion on the list. As of August 
2014, DHS officials reported that they are exploring options to 
streamline the process and limit the delay of dissemination among those 
who have a need to know.
---------------------------------------------------------------------------
    \20\ GAO-13-296.
---------------------------------------------------------------------------
  guidance and coordination to address potential duplication and gaps 
           needed for ci vulnerability assessment activities
    Our previous work identified a need for DHS vulnerability 
assessment guidance and coordination. Specifically, we found:
    Establishing guidance for areas of vulnerability covered by 
assessments.--In a September 2014 report examining, among other things, 
the extent to which DHS is positioned to integrate vulnerability 
assessments to identify priorities, we found that the vulnerability 
assessment tools and methods DHS offices and components use vary with 
respect to the areas assessed depending on which DHS office or 
component conducts or requires the assessment.\21\ As a result, it was 
not clear what areas DHS believes should be included in a comprehensive 
vulnerability assessment. Moreover, we found that DHS had not issued 
guidance to ensure that the areas it deems most important are captured 
in assessments conducted or required by its offices and components. Our 
analysis of 10 vulnerability assessment tools and methods showed that 
DHS vulnerability assessments consistently included some areas that 
were assessed for vulnerability but included other areas that were not 
consistently assessed. Our analysis showed that all 10 of the DHS 
assessment tools and methods we analyzed included areas such as 
``vulnerabilities from intentional acts''--such as terrorism--and 
``perimeter security'' in the assessment. However, 8 of the 10 
assessment tools and methods did not include areas such as 
``vulnerabilities to all hazards'' such as hurricanes or earthquakes 
while the other 2 did. These differences in areas assessed among the 
various assessment tools and methods could complicate or hinder DHS's 
ability to integrate relevant assessments in order to identify 
priorities for protective and support measures.
---------------------------------------------------------------------------
    \21\ GAO-14-507.
---------------------------------------------------------------------------
    We found that the assessments conducted or required by DHS offices 
and components also varied greatly in their length and the detail of 
information to be collected. For example, within NPPD, PSCD used its 
IST to assess high-priority facilities that voluntarily participate and 
this tool was used across the spectrum of CI sectors. The IST, which 
contains more than 100 questions and 1,500 variables, is used to gather 
information on the security posture of CI, and the results of the IST 
can inform owners and operators of potential vulnerabilities facing 
their asset or system. In another example from NPPD, ISCD required 
owners and operators of facilities that possess, store, or manufacture 
certain chemicals under CFATS to provide data on their facilities using 
an on-line tool so that ISCD can assess the risk posed by covered 
facilities. This tool, ISCD's Chemical Security Assessment Tool 
Security Vulnerability Assessment contained more than 100 questions 
based on how owners respond to an initial set of questions. Within DHS, 
TSA's Office of Security Operations offered or conducted a number of 
assessments, such as a 205-question assessment of transit systems 
called the Baseline Assessment for Security Enhancements that contained 
areas to be assessed for vulnerability, and TSA's 17-question Freight 
Rail Risk Analysis Tool was used to assess rail bridges.
    In addition to differences in what areas were included, there were 
also differences in the detail of information collected for individual 
areas, making it difficult to determine the extent to which the 
information collected was comparable and what assumptions and/or 
judgments were used while gathering assessment data. We also observed 
that components used different questions for the same areas assessed. 
These variations, among others we identified, could impede DHS's 
ability to integrate relevant information and use it to identify 
priorities for protective and support measures regarding terrorist and 
other threats to homeland security. For example, we found that while 
some components asked open-ended questions such as ``describe security 
personnel,'' others included drop-down menus or lists of responses to 
be selected.
    We recommended that DHS review its vulnerability assessments to 
identify the most important areas to be assessed, and determine the 
areas and level of detail that are necessary to integrate assessments 
and enable comparisons, and establish guidance, among other things. DHS 
agreed with our recommendation, and established a working group in 
August 2015 to address this recommendation and others we made. As of 
March 2016 these efforts are on-going and DHS intends to provide an 
update in the summer of 2016.
    Establishing guidance on common data standards to help reduce 
assessment fatigue and improve information sharing.--As we reported in 
September 2014, Federal assessment fatigue could impede DHS's ability 
to garner the participation of CI owners and operators in its voluntary 
assessment activities. During our review of vulnerability assessments, 
the Coast Guard, PSCD, and TSA field personnel we contacted reported 
observing what they called Federal fatigue, or a perceived weariness 
among CI owners and operators who had been repeatedly approached or 
required by multiple Federal agencies and DHS offices and components to 
participate in or complete assessments. One official who handles 
security issues for an association representing owners and operators of 
CI expressed concerns at the time about his members' level of fatigue. 
Specifically, he shared observations that DHS offices and components do 
not appear to effectively coordinate with one another on assessment-
related activities to share or use information and data that have 
already been gathered by one of them. The official also noted that, 
from the association's perspective, the requests and invitations to 
participate in assessments have exceeded what is necessary to develop 
relevant and useful information, and information is being collected in 
a way that is not the best use of the owners' and operators' time. As 
figure 1 illustrates, depending on a given asset or facility's 
operations, infrastructure, and location, an owner or operator could be 
asked or required to participate in multiple separate vulnerability 
assessments.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    DHS officials expressed concern at the time that this ``fatigue'' 
may diminish future cooperation from asset owners and operators. We 
recommended in September 2014 that DHS develop an approach for 
consistently collecting and maintaining data from assessments conducted 
across DHS to facilitate the identification of potential duplication 
and gaps in coverage. Having common data standards would better 
position DHS offices and components to minimize the aforementioned 
fatigue, and the resulting declines in CI owner and operator 
participation, by making it easier for DHS offices and components to 
use each other's data to determine what CI assets or facilities may 
have been already visited or assessed by another office or component. 
They could then plan their assessment efforts and outreach accordingly 
to minimize the potential for making multiple visits to the same assets 
or facilities. DHS agreed with our recommendation, and as of March 2016 
DHS had established a working group to address the recommendations from 
our report and planned to provide us with a status update in the summer 
of 2016.
    Addressing the potential for duplication, overlap, or gaps between 
and among the various efforts.--As with the sharing of common 
assessment data, we found in our 2014 review of vulnerability 
assessments that DHS also lacks a Department-wide process to facilitate 
coordination among the various offices and components that conduct 
vulnerability assessments or require assessments on the part of owners 
and operators.\22\ This could hinder the ability to identify gaps or 
potential duplication in DHS assessments. For example, among 10 
different types of DHS vulnerability assessments we compared, we found 
that DHS assessment activities were overlapping across some of the 
sectors, but not others. Given the overlap of DHS's assessments among 
many of the 16 sectors, we attempted to compare data to determine 
whether DHS had conducted or required vulnerability assessments at the 
same critical infrastructure within those sectors. However, we were 
unable to conduct this comparison because of differences in the way 
data about these activities were captured and maintained.\23\ Officials 
representing DHS acknowledged at the time they encountered challenges 
with the consistency of assessment data and stated that DHS-wide 
interoperability standards did not exist for them to follow in 
recording their assessment activities that would facilitate consistency 
and enable comparisons among the different data sets.
---------------------------------------------------------------------------
    \22\ GAO-14-507.
    \23\ Data sets used by DHS offices and components did not share 
common formats or defined data standards. For example, infrastructure 
names and addresses generally were not entered in a standardized way or 
were not available in some cases in a way that would allow us to 
identify matches across data sets. See GAO-14-507.
---------------------------------------------------------------------------
    The NIPP calls for standardized processes to promote integration 
and coordination of information sharing through, among other things, 
jointly-developed standard operating procedures. However, DHS officials 
stated at the time that they generally relied on field-based personnel 
to inform their counterparts at other offices and components about 
planned assessment activities and share information as needed on what 
assets may have already been assessed. For example, PSAs may inform and 
invite CI partners to participate in these assessments, if the owner 
and operator of the asset agrees. PSAs may also alert their DHS 
counterparts depending on assets covered and their areas of 
responsibility. However, we found that absent these field-based 
coordination or sharing activities, it was unclear whether all 
facilities in a particular geographic area or sector were covered. For 
example, after CFATS took effect, in 2007, ISCD officials asked PSCD to 
stop having PSAs conduct voluntary assessments at CFATS-regulated 
chemical facilities to reduce potential confusion about DHS authority 
over chemical facility security and to avoid overlapping assessments. 
In response, PSCD reduced the number of voluntary vulnerability 
assessments conducted in the chemical sector. However, one former ISCD 
official noted that without direct and continuous coordination between 
PSCD and ISCD on what facilities are being assessed or regulated by 
each division, this could create a gap in assessment coverage between 
CFATS-regulated facilities and facilities that could have participated 
in PSCD assessments given that the number of CFATS-regulated facilities 
can fluctuate over time.\24\
---------------------------------------------------------------------------
    \24\ The number of facilities actively regulated under the Chemical 
Facility Anti-Terrorism Standards requirements can fluctuate over time 
because of facilities changing their regulated operations or the types 
and quantities of chemicals handled, new facilities being built, or 
older facilities being decommissioned, for example.
---------------------------------------------------------------------------
    Without processes for DHS offices and components to share data and 
coordinate with each other in their CI vulnerability assessment 
activities, DHS cannot provide reasonable assurance that it can 
identify potential duplication, overlap, or gaps in coverage that could 
ultimately affect DHS's ability to work with its partners to enhance 
National CI security and resilience, consistent with the NIPP. We 
recommended in September 2014 that DHS develop an approach to ensure 
that vulnerability data gathered on CI be consistently collected and 
maintained across DHS to facilitate the identification of potential 
duplication and gaps in CI coverage. As of March 2016, DHS has begun a 
process of identifying the appropriate level of guidance to eliminate 
gaps or duplication in methods and to coordinate vulnerability 
assessments throughout the Department.
    We also recommended that DHS identify key CI security-related 
assessment tools and methods used or offered by SSAs and other Federal 
agencies, analyze them to determine the areas of vulnerability they 
capture, and develop and provide guidance for what areas should be 
included in vulnerability assessments of CI that can be used by DHS and 
other CI partners in an integrated and coordinated manner. DHS 
concurred with our recommendations and stated that it planned to take a 
variety of actions to address the issues we identified, including 
conducting an inventory survey of the security-related assessment tools 
and methods used by SSAs to address CI vulnerabilities. As of March 
2016, DHS has established a working group, consisting of members from 
multiple departments and agencies, to enhance the integration and 
coordination of vulnerability assessment efforts. These efforts are on-
going and we will continue to monitor DHS's progress in implementing 
these recommendations.
    In addition to efforts to address our recommendations, DHS is in 
the process of reorganizing NPPD to ensure that it is appropriately 
positioned to carry out its critical mission of cyber and 
infrastructure security. Key priorities of this effort are to include 
greater unity of effort across the organization and enhanced 
operational activity to leverage the expertise, skills, information, 
and relationships throughout DHS. The NPPD reorganization presents DHS 
with an opportunity to engage stakeholders in decision making and may 
achieve greater efficiency or effectiveness by reducing programmatic 
duplication, overlap, and fragmentation. It also presents DHS with an 
opportunity to mitigate potential duplication or gaps by consistently 
capturing and maintaining data from overlapping vulnerability 
assessments of CI and improving data sharing and coordination among the 
offices and components involved with these assessments.
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
sub-committee, this completes my prepared statement. I would be happy 
to respond to any questions you may have at this time.
              Appendix I: Critical Infrastructure Sectors
    This appendix provides information on the 16 critical 
infrastructure (CI) sectors and the Federal agencies responsible for 
sector security. The National Infrastructure Protection Plan (NIPP) 
outlines the roles and responsibilities of the Department of Homeland 
Security (DHS) and its partners--including other Federal agencies. 
Within the NIPP framework, DHS is responsible for leading and 
coordinating the overall National effort to enhance security via 16 
critical infrastructure sectors. Consistent with the NIPP, Presidential 
Decision Directive/PPD-21 assigned responsibility for the critical 
infrastructure sectors to sector-specific agencies (SSAs).* As an SSA, 
DHS has direct responsibility for leading, integrating, and 
coordinating efforts of sector partners to protect 10 of the 16 
critical infrastructure sectors. Seven other Federal agencies have sole 
or coordinated responsibility for the remaining 6 sectors. Table 1 
lists the SSAs and their sectors.
---------------------------------------------------------------------------
    * Issued on February 12, 2013, Presidential Policy Directive/PPD-
21, Critical Infrastructure Security and Resilience, purports to refine 
and clarify critical infrastructure-related functions, roles, and 
responsibilities across the Federal Government, and enhance overall 
coordination and collaboration, among other things. Pursuant to 
Homeland Security Presidential Directive/HSPD-7 and the National 
Infrastructure Protection Plan, DHS had established 18 critical 
infrastructure sectors. PPD-21 subsequently revoked HSPD-7, and 
incorporated 2 of the sectors into existing sectors, thereby reducing 
the number of critical infrastructure sectors from 18 to 16. Plans 
developed pursuant to HSPD-7, however, remain in effect until 
specifically revoked or superseded.

  TABLE 1: CRITICAL INFRASTRUCTURE SECTORS AND SECTOR-SPECIFIC AGENCIES
                                  (SSA)
------------------------------------------------------------------------
     Critical Infrastructure Sector                 SSA(s) \1\
------------------------------------------------------------------------
Food and agriculture...................  Department of Agriculture \2\
                                          and the Department of Health
                                          and Human Services \3\
Defense industrial base \4\............  Department of Defense
Energy \5\.............................  Department of Energy
Government facilities..................  Department of Homeland Security
                                          and the General Services
                                          Administration
Health care and public health..........  Department of Health and Human
                                          Services
Financial services.....................  Department of the Treasury
Transportation systems.................  Department of Homeland Security
                                          and the Department of
                                          Transportation \6\
Water and wastewater systems \7\.......  Environmental Protection Agency
Commercial facilities..................  Department of Homeland Security
Critical manufacturing.................  Office of Infrastructure
                                          Protection \8\
Emergency services.....................  ...............................
Nuclear reactors, materials, and waste.  ...............................
Dams...................................  ...............................
Chemical...............................  ...............................
Information technology.................  ...............................
Communications.........................  Office of Cyber Security and
                                          Communications \9\
------------------------------------------------------------------------
Source: Presidential Policy Directive/PPD-21/GAO-16-791T.
\1\ Presidential Policy Directive/PPD-21, released in February 2013,
  identifies 16 critical infrastructure sectors and designates
  associated Federal SSAs. In some cases co-SSAs are designated where
  those departments share the roles and responsibilities of the SSA.
\2\ The Department of Agriculture is responsible for agriculture and
  food (meat, poultry, and egg products).
\3\ The Food and Drug Administration is the Department of Health and
  Human Services component responsible for food other than meat,
  poultry, and egg products and serves as the co-SSA.
\4\ Nothing in the NIPP impairs or otherwise affects the authority of
  the Secretary of Defense over the Department of Defense, including the
  chain of command for military forces from the President as Commander-
  in-Chief, to the Secretary of Defense, to the commanders of military
  forces, or military command-and-control procedures.
\5\ The energy sector includes the production, refining, storage, and
  distribution of oil, gas, and electric power, except for commercial
  nuclear power facilities.
\6\ Presidential Policy Directive/PPD-21 establishes the Department of
  Transportation as co-SSA with the Department of Homeland Security
  (DHS) for the transportation systems sector. Within DHS, the U.S.
  Coast Guard and the Transportation Security Administration are the
  responsible components.
\7\ The water sector includes drinking water.
\8\ The Office of Infrastructure Protection is the DHS component
  responsible for the commercial facilities; critical manufacturing;
  emergency services; nuclear reactors, materials, and waste; dams; and
  chemical sectors.
\9\ The Office of Cyber Security and Communications is the DHS component
  responsible for the information technology and communications sectors.

    Mr. Ratcliffe. Thank you, Mr. Currie.
    The Chair now recognizes Dr. Ozment for 5 minutes for his 
opening statement.

   STATEMENT OF ANDY OZMENT, ASSISTANT SECRETARY, OFFICE OF 
   CYBERSECURITY AND COMMUNICATIONS, NATIONAL PROTECTION AND 
   PROGRAMS DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Ozment. Thank you.
    Chairman Ratcliffe, Ranking Member Richmond, and Members of 
the committee, thank you for the opportunity to appear before 
you today.
    My organization within NPPD has three sets of cybersecurity 
customers; Federal civilian agencies, private-sector companies, 
and State, local, Tribal, and territorial governments.
    Today, I will focus on the Cybersecurity Advisors Program, 
or CSA Program. Our CSA's focus is on the latter two customers, 
private-sector companies and State and local governments. The 
CSA Program is modeled after the Protective Security Advisor, 
or PSA Program that you will hear from my colleague, Assistant 
Secretary Durkovich.
    Although the CSA Program does reflect several differences 
to account for its focus on cybersecurity. Importantly, the CSA 
Program, as you noted, Chairman, is more nascent than the PSA 
Program. While there are over 100 PSAs, as of last weekend, 
there were only 5 regionally-deployed Cybersecurity Advisors. I 
say last weekend, because yesterday, our sixth CSA started 
work, a nice milestone for us.
    Our customers have demonstrated a significant demand for 
the resources and support provided by our CSAs. For this 
reason, we expect to deploy 13 CSAs in the field by the end of 
this fiscal year. The President's 2017 budget requests a total 
of 24 field-deployed CSAs. As you know, the vast majority of 
our Nation's critical infrastructure is owned and operated by 
the private sector or by State and local governments. To 
protect that infrastructure, we must help those owners and 
operators improve their cybersecurity.
    Now, people who work in Washington, DC, are sometimes 
criticized for thinking that only of Washington, DC. Our Nation 
cannot afford for NPPD to think that way. We must work across 
the United States helping private-sector and State and local 
government customers where they live.
    For critical infrastructure owned by small businesses, 
there's often no other way to reach them. Our Cybersecurity 
Advisors are thus NPPD's deployed cyber work force who live 
across the United States helping critical infrastructure where 
it is located and where the owners and operators live. Our 
Cybersecurity Advisors have 4 areas in which they support our 
customers. They help our customers adopt best practices, they 
share information, respond to incidents, and support special 
National security and other events. I'll speak to each of those 
in turn.
    First, we help our customers adopt cybersecurity and best 
practices as exemplified by the NIST cybersecurity framework. 
We do that by advising them on risk management. One of the more 
concrete and visible ways we advise on risk management is by 
performing risk assessments.
    We offer a wide range of cyber risk assessments starting at 
the most strategic level and then going down into more 
technical areas depending on what a company or other customer 
needs.
    For example, our most strategic cyber risk assessment is a 
questionnaire that could take a full day, working with many 
different leaders within an organization to complete to get a 
full picture of their risk management methodology.
    With our current work force, we average about 80 
assessments a year. A few months after the assessments, we 
survey the companies to see, did the company or State and local 
organization make a major change based on the assessment?
    So far, 96 percent of the respondees to our post-assessment 
survey have made at least one major security improvement as a 
consequence of our assessment.
    CSAs also link critical infrastructure owners and operators 
to more technical hands-on assessment teams based in the NCCIC. 
For example, the NCCIC can actually try to break into a 
company, that is, we can try to hack them. I'll emphasize that 
we do this only at the invitation of the company.
    Second, CSAs connect companies to our information-sharing 
activities. For example, the Cybersecurity Information Sharing 
Act of 2015 has passed, and CSAs are helping us to recruit 
companies to share machine-to-machine data at real time, in our 
automated indicator sharing program. Let me thank you and the 
committee, again, for your help in passing that very important 
legislation.
    Third, CSAs can provide support to our customers who 
experience a cybersecurity incident. When an incident occurs, 
our customers can work with CSAs to obtain incident response 
and to coordinate resources and information coming out of the 
NCCIC.
    Finally, CSAs provide support to officials responsible for 
planning and leading special events, sometimes known as 
National security events. Examples of special events supported 
by the CSAs include major sporting events such as the Super 
Bowl and major league baseball all-star game and upcoming 
conventions.
    These are the 4 major lines of effort by which CSAs support 
customers--best practices and risk assessments, information 
sharing, incident response, and special events. But CSAs have 
an additional role, which is to aid and inform our National 
efforts. For example, a local perspective could be critical to 
identify which infrastructure matters the most. CSAs use their 
local knowledge to identify the most critical infrastructure in 
a given region.
    Increasingly, they are also asked to bring their expertise 
into close collaboration as trusted advisers, planners, and 
emergency management executives who report to the State 
Homeland Security Advisor. Ultimately, CSAs are also the voice 
of individual companies in the development of National plans 
and programs.
    CSAs provide a local point of connection to help their 
customers manage their cyber risk and brings their insight into 
this National conversation. Although we only have 6 CSAs in the 
field today, I ask your support in passing the fiscal year 
President's budget to bring us to a total of 24 CSAs in the 
field.
    Thank you again for the opportunity to appear before you 
today, and I look forward to your questions.
    [The joint prepared statement of Mr. Ozment and Ms. 
Durkovich follows:]
     Joint Prepared Statement of Andy Ozment and Caitlin Durkovich
                             July 12, 2016
                            i. introduction
    Chairman Ratcliffe, Ranking Member Richmond, thank you for the 
opportunity to appear before you today to discuss the crucial role that 
Protective Security Advisors (PSAs) and Cybersecurity Advisors (CSAs) 
serve in furthering the U.S. Department of Homeland Security's (DHS) 
mission to enhance the security and resilience of the Nation's critical 
infrastructure in an all-hazards environment. We appreciate Congress' 
draft legislation that would stand up the National Protection and 
Programs Directorate (NPPD) as an operational component focused on 
cyber and infrastructure protection and further our holistic risk 
management approach.
    PSAs and CSAs both support NPPD's operational mission by assisting 
State, local, territorial, and Tribal (SLTT) governments and private-
sector customers in understanding and mitigating threats, 
vulnerabilities, and consequences affecting the provision of essential 
functions, goods, and services. PSAs and CSAs achieve this end through 
information sharing, capacity building, and direct assistance. The 
risks that our stakeholders face are cyber and physical, natural and 
man-made. Some risks blur the distinction between cyber and physical, 
such as space weather or electromagnetic pulse, while others combine 
aspects of cyber and physical risk: Cyber attacks causing physical 
impacts, natural disasters impacting communication networks, or man-
made attacks on lifeline critical infrastructure. The proposed 
realignment, which was included in NPPD's draft reorganization 
proposal, will further the ability of our cybersecurity experts and 
physical security experts to work side-by-side, ensuring that risks to 
critical infrastructure are fully assessed and effectively mitigated 
and directly supporting our ability to address an emerging risk 
environment in which cyber and physical boundaries are increasingly 
meaningless.
                          ii. risk management
    DHS has an all-hazards mission for protecting the homeland. This 
means that we must plan for and prioritize a range of risks from 
natural disasters to terrorism to cyber attacks. Our mission includes 
recurring, persistent, and relatively well-understood hazards such as 
hurricanes and earthquakes, as well as threats and hazards such as 
solar storms where we must continue to understand the likelihood and 
consequences of a possible event. For this reason, DHS approaches 
threats and hazards based on an all-hazards analysis of risk and due 
caution in the face of inherent uncertainty. This risk-informed 
approach guides our planning efforts and the development of new or 
enhanced capabilities to address emerging hazards and threats.
    Risk is comprised of three variables: Threats that exploit 
vulnerabilities to cause undesirable consequences. In other words, risk 
is a function of threat, vulnerability, and consequence. DHS recognizes 
that risk cannot be eliminated and therefore must be managed through 
proven practices including timely information sharing. Risk management 
practices include risk acceptance as well as risk mitigation. Risk 
management can also include risk transfer, such as contractual 
provisions or insurance coverage. But ultimately, risk cannot be 
eliminated: There will be incidents, so we must also focus on the 
resiliency of our infrastructure under all conditions.
                         iii. threat landscape
    NPPD is particularly focused on two threats that are particularly 
salient in the current risk environment: Terrorism and cyber attacks. 
Terrorist attacks such as those in France in 2015, Belgium in 2016, and 
the tragic attacks in Istanbul and Orlando just last month highlight 
the continuing threat. These attacks underscore the persistence of our 
adversaries and the vulnerability of public gathering sites.
    Terrorist tactics and techniques have transitioned from complicated 
attacks such as 9/11 to simple acts of violence using readily-available 
weapons such as a gun, knife, hatchet, or car. The threats we face 
today are thus more decentralized than a decade ago and reflect, as 
Secretary Johnson has said, a new phase of global terrorism. We have 
moved from a world of directed attacks to one of inspired attacks. 
Inspired attacks are harder for intelligence and law enforcement 
communities to detect, can occur with little or no notice, and create a 
more complex homeland security challenge.
    The threat landscape in cyber space is also changing. Threat actors 
in cyber space have highly diverse motivations. Some seek to achieve a 
political or social aim. Others seek financial benefit and are 
developing new means to monetize cyber intrusions, as exemplified by 
the recent wave of ``ransomware'' attacks. Other adversaries attempt to 
use strong-arm tactics to advance a goal, such as destroying systems 
and data to convey a political message, or target sensitive Government 
and private-sector systems to steal critical information for espionage 
purposes.
    Perhaps most importantly, the past year saw the use of a cyber 
attack to achieve a significant disruption of civilian critical 
infrastructure. In December, several Ukrainian power companies 
experienced a cyber attack that resulted in power outages lasting 
around 6 hours that impacted over 200,000 customers. The cyber attack 
was well-planned, well-coordinated, and used destructive malware to 
delay recovery efforts. This attack should be a warning to our Nation. 
Our adversaries have the cyber capabilities to harm our National 
security, economic security, public health, and safety. This threat 
environment requires DHS to place renewed focus on providing our 
customers with risk management tools, information, and support to 
protect against cyber attacks and mitigate the consequences when a 
compromise occurs.
          iv. critical infrastructure security and resilience
    These trends in the threat landscape require NPPD, as directed by 
the National Infrastructure Protection Plan (NIPP), to approach risk 
management from both a top-down and bottom-up perspective. The majority 
of the Nation's critical infrastructure is owned and operated by the 
private sector or by State, local, Tribal, and territorial (SLTT) 
governments. As a result, it is important that Government and industry 
work together to mitigate threats, vulnerabilities, and consequences.
    We use a top-down approach as we work closely with and across 
critical infrastructure sectors to understand and address sector- and 
economy-wide risks. We use a bottom-up approach to develop a trusted 
relationship with owners and operators of the Nation's critical 
infrastructure: For example, a single power plant. PSAs and CSAs are 
the core of our bottom-up approach and serve as the focal point of 
support to individual critical infrastructure owners and operators. As 
our stakeholders make challenging decisions about how to manage their 
own risk, field-based PSAs and CSAs provide advice and connect 
operators to security capabilities offered across the U.S. Government.
    Our PSAs and CSAs operate within a statutory, policy, and doctrinal 
framework of voluntary partnerships. They conduct vulnerability and 
consequence assessments, provide information on emerging threats and 
hazards, and offer tools and training to help critical infrastructure 
owners and operators and SLTT partners understand and address risks. 
Finally, they provide on-site critical infrastructure subject-matter 
expertise during special events and incident responses.
    The PSAs have been valuable advisors to local law enforcement. 
During last year's events in Baltimore, the local PSA received a 
request from Baltimore Gas and Electric (BGE) to facilitate National 
Guard Troops at their Spring Gardens facility, fearing that the private 
security at the main gate may not be able to prevent protestors from 
entering the plant. The Baltimore PSA advised the Baltimore Police 
Department Incident Commander of the request and subsequently, the 
Maryland Army National Guard provided troops near the main entrance, 
and no incidents took place. This direct, community-based security 
support is precisely the public service that PSAs provide, as 
highlighted by the recent tragic attacks in Orlando, and the still 
unfolding events in Dallas last week.
                    v. psa and csa value proposition
    The Department's approach to critical infrastructure security and 
resilience is predicated on public-private partnerships. Such 
partnerships depend on the formation of trusted relationships between 
public and private-sector partners. These trusted partnerships are most 
effectively formed through regular and meaningful interactions among 
Federal agencies, private-sector owners and operators, and SLTT 
governments. In turn, such interactions are most effectively enabled by 
regionally-based Federal representatives. The PSAs and CSAs serve as 
these regional representatives to establish and mature the 
relationships with critical infrastructure owners and operators and 
SLTT governments that are foundational to our voluntary approach to 
risk management.
    In existence since 2004, the PSA program is a mature initiative 
that presently fields 102 regionally-based personnel. The President's 
fiscal year budget requests further growth to 119 regionally-based PSAs 
to meet demand. As field-based representatives, the PSAs work closely 
with private-sector companies and with State Homeland Security 
Advisers. SLTT stakeholders from every region served by the PSA 
programs have consistently identified PSAs as a highly-valued source of 
support for their critical infrastructure protection responsibilities. 
While PSAs focus principally on physical security, they are beginning 
to provide customers with targeted information based on the existing 
NPPD portfolio of cybersecurity services to maximize the breadth of 
outreach for both cyber and physical risk management activities.
    The CSA program is modeled after the PSA program, although it 
reflects several differences to account for its focus on cybersecurity. 
More nascent than the PSA program, there are currently 5 regionally-
deployed CSAs. By the end of this fiscal year, we expect to deploy 13 
total CSAs in the field. The President's fiscal year budget requests a 
total strength of 24 CSAs. CSAs provide NPPD's most effective mechanism 
to reach small and medium businesses that may lack the resources to 
participate in other cybersecurity programs, offer cybersecurity risk 
assessments to our stakeholders, and provide the Department with 
invaluable insight into National risk trends that are applicable to the 
development of new capabilities. CSAs' primary points of contact are 
private-sector and SLTT government chief information officers and chief 
information security officers.
                            vi. psa program
    The PSA program's primary mission is to proactively engage with 
Federal and SLTT government mission partners and members of the 
private-sector stakeholder community to protect critical 
infrastructure. The PSAs have five mission areas that directly support 
the protection of critical infrastructure:
    1. Conduct Assessments to Foster Risk Management Best Practices;
    2. Threat and Hazard Outreach;
    3. Support to National Special Security Events (NSSEs) and Special 
        Event Activity Rating (SEAR) Events;
    4. Incident Response; and
    5. Coordinate and Support Risk Mitigation Training--particularly 
        active-shooter and bombing prevention training.
1. Conduct Assessments to Foster Risk Management Best Practices
    One of the central ways that PSAs support critical infrastructure 
owners and operators is by planning, coordinating, and conducting 
voluntary, non-regulatory security surveys and assessments on critical 
infrastructure assets and facilities within their respective regions, 
ranging from houses of worship to major league sports stadiums. Our 
PSAs offer a range of assessment capabilities including Infrastructure 
Survey Tool (IST) security surveys, Assist Visits, Infrastructure 
Visualization Platform imagery captures and broader assessments 
conducted through the Regional Resiliency Assessment Program (RRAP).
    The resulting survey information is provided to owners and 
operators and highlights areas of potential concern, recommendations to 
mitigate identified vulnerabilities, and options to view the impact of 
potential enhancements to protection and resilience measures. Over 85 
percent of the assessed facilities indicate that they will use the 
feedback from the PSA to guide their security or resilience 
enhancements.
    The increasingly tight coupling and interconnection between cyber 
and physical systems has required PSA's to begin to conducting joint 
assessments of cyber and physical security. A principal example of such 
joint assessment was an RRAP conducted on a Data Center Cluster in 
Ashburn, VA that assessed cyber and physical risks to a key information 
technology facility. PSAs serve as a conduit for accessing other DHS 
cybersecurity resources, and are able to connect stakeholders to 
resources for encouraging cyber hygiene and information assurance 
practices. When additional or local cyber expertise is needed, PSAs can 
connect partners to CSAs.
2. Information Sharing
    In the past 3 years, the PSA program has conducted multiple 
outreach activities focusing on specific communities of interest and 
sectors such as faith-based organizations, shopping malls, energy/
electrical sector entities, sports leagues and venues, and K-12 
schools. These engagements were intended to provide an overview of 
evolving threats, such as active-shooter awareness, an understanding of 
available tools and resources, and best practices designed to enhance 
information sharing, physical security, and resilience. These efforts 
often led to customers requesting security/vulnerability assessments 
from the PSAs. PSAs also encourage businesses to ``Connect, Plan, 
Train, and Report.'' Applying these 4 steps in advance of an incident 
or attack can help better prepare businesses and their employees to 
proactively think about the role they play in the safety and security 
of their businesses and communities.
    As an example, the Metcalf Electrical Substation, in San Jose, 
California, was subject to a breach by unknown actors in April 2013. 
The assailants were able to access the substation and caused 
significant damage to five transformers and fiber optic cables, which 
in turn affected telecommunications in Santa Clara County. As a result 
of this incident and others, the Department of Energy and DHS, in 
coordination with other Federal agencies and regulatory commissions, 
conducted an outreach program. The outreach was conducted in 10 U.S. 
cities and 2 Canadian cities and addressed proactive security measures, 
threat detection and assessment technologies, and the creation of an 
incident response plan. Following the completion of the Electrical 
Substation Outreach, PSAs provided briefings for the 10 most critical 
electrical substations and their stakeholders, and conducted IST 
security surveys. The data from the security surveys was used to 
analyze common protective and resilience measures, summarized in a 
report published April 2015.
    An additional example followed the mass shooting at the Emanuel AME 
church in Charleston, SC on June 17, 2015. Our local PSA offered around 
20 security briefings and conducted active-shooter briefings for 
companies, schools, and churches. All briefings were well-received and 
some recipients requested further training. On February 17, the PSA 
also supported holding a DHS Interfaith Town Hall in Charleston, South 
Carolina where we brought public and private-sector partners together 
and discussed protective security resources for faith-based and non-
profit community stakeholders.
3. Incident Response
    In response to natural or man-made incidents, PSAs deploy to State 
and local Emergency Operations Centers and, when appropriate, Federal 
Emergency Management Agency (FEMA) Regional Response Coordination 
Centers. PSAs provide situational awareness and facilitate information 
sharing to support the response, recovery, and rapid reconstitution 
efforts of critical infrastructure. During major incidents and when 
designated by the Assistant Secretary of the Office of Infrastructure 
Protection, PSAs serve as Infrastructure Liaisons at Joint Field 
Offices or Unified Coordination Groups.
    In 2015 and 2016, the National Preparedness System went through a 
``refresh'' effort to update the National Preparedness Goal, the 5 
mission area Frameworks and the Federal Interagency Operational Plans 
for Prevention, Protection, Response, and Recovery. These foundational 
documents further define the role of the PSAs in ensuring that the 
connection between infrastructure stakeholders and partners across the 
Nation are able to support and engage in National preparedness efforts.
4. Special Events
    PSAs provide support to officials responsible for planning and 
leading special events. This includes providing expert knowledge of 
local critical infrastructure; participating in planning committees and 
exercises; conducting security surveys and assessments of event venues 
and supporting infrastructure; and coordinating the development and 
delivery of geospatial products. Examples of special events supported 
by the PSAs include:
  <bullet> Presidential Inauguration, State of the Union, Papal Visit 
        and Republican and Democratic National Conventions;
  <bullet> Major sporting events such as the Super Bowl (The Houston 
        PSA is the Deputy Federal Coordinator for Super Bowl 51), World 
        Series, Stanley Cup, and Indianapolis 500;
  <bullet> Annual United Nations General Assembly; and
  <bullet> New Year's Celebration at Times Square in New York City.
5. Risk Mitigation Training
    To reduce risk to the Nation's critical infrastructure, NPPD 
develops and delivers a diverse curriculum of training to build Nation-
wide counter-improvised explosive device (IED) core capabilities and 
enhance awareness of terrorist threats. Coordinated by PSAs, the 
courses educate SLTT participants such as municipal officials and 
emergency managers, State and local law enforcement and other emergency 
services, critical infrastructure owners and operators, and security 
staff on strategies to prevent, protect against, respond to, and 
mitigate bombing incidents.
    Annually, the PSAs provide active-shooter briefings to a diverse 
audience. These briefings provide an overview and characteristics of an 
active-shooter incident, personal response, and ``Active Shooter--How 
to Respond'' materials. PSAs also assist with the coordination of 
comprehensive Active-Shooter Workshops that provide training and 
detailed information to assist facilities in developing emergency 
action plans to respond to active-shooter threats.
                            vii. csa program
    NPPD modeled the CSA program after the PSA program, incorporating 
appropriate customization to focus on cybersecurity issues. CSAs 
promulgate best practices and conduct vulnerability assessments, 
connect stakeholders to information-sharing resources, serve as a 
liaison between critical infrastructure owners and operators and the 
National Cybersecurity and Communications Integration Center (NCCIC) 
for incident response and support to special events CSAs function as a 
regionally deployed source of subject-matter expertise and provide 
expert consultation on cybersecurity best practices to improve our 
stakeholders' cybersecurity risk management.
1. Conduct Assessments to Foster Risk Management Best Practices
    Each CSA promotes and assists stakeholders in their implementation 
of the Cybersecurity Framework, which was jointly developed by the 
Government and private sector. The prioritized, flexible, repeatable, 
and cost-effective approach of the Framework helps critical 
infrastructure owners and operators manage their cybersecurity risk. 
CSAs also provide critical infrastructure owners and operators with 
tools, guidance, and individualized assistance to help entities use the 
Framework in a manner that supports their specific risk management 
needs. CSAs ensure that critical infrastructure stakeholders receive 
alerts, warnings, and bulletins on cybersecurity vulnerabilities, 
mitigations, and best practices through the NCCIC. These alerts, 
warnings, and bulletins concern risks to general IT systems as well as 
specialized risks to industrial control systems--the types of systems 
used to control power plants, manufacturing assembly lines, and other 
physical devices.
    CSAs also help our customers improve their cybersecurity risk 
management through voluntary vulnerability assessments. CSAs offer two 
primary types of assessments to supplement an organization's existing 
activities. First, the Cyber Resilience Review (CRR) evaluates an 
organization's operational resilience and cybersecurity practices 
across 10 domains including risk management, incident management, and 
continuity. Second, the Cybersecurity Evaluation Tool (CSET) is a 
desktop software program that guides asset owners and operators through 
a step-by-step process to evaluate their industrial control system and 
information technology network security practices. Both the CRR and the 
CSET are now mapped to the Cybersecurity Framework and allow 
organizations to understand their relative maturity across the 
Framework's functions. CSAs also offer more specialized risk 
assessments, such as assessments focused on supply chain risk 
management.
    In addition, CSAs also link critical infrastructure owners and 
operators and technical penetration testing teams based in the NCCIC. 
For example, CSAs connect critical infrastructure partners with the 
National Cybersecurity and Assessment and Technical Services, which 
provides a variety of technical assessments to identify vulnerabilities 
in an organization's enterprise, including phishing tests, wireless 
application assessments, and internal penetration testing.
2. Information Sharing
    CSAs connect critical infrastructure entities with the NCCIC's 
information-sharing programs. Pursuant to the Cybersecurity Act of 2015 
(Pub. L. 114-113, Division N), DHS serves as the U.S. Government's 
primary portal for automated cyber threat indicator sharing. By 
participating in the Automated Indicator Sharing initiative, 
organizations receive machine-readable cyber threat indicators to 
immediately detect and block cybersecurity threats. CSAs are leveraging 
the relationships that they and the PSAs have built to encourage 
companies to sign up for Automated Indicator Sharing. Additionally, 
CSAs help stakeholders learn about and join the Cyber Information 
Sharing and Collaboration Program (CISCP), which provides a trusted 
forum where vetted partners share threat and incident information with 
the Government and other private-sector partners. CISCP also permits 
participating companies gain access to the NCCIC watch floor for 
operational collaboration.
3. Incident Response
    Cybersecurity is about risk management, and no organization can 
eliminate all risk. Organizations that implement best practices and 
share information will increase the cost for adversaries and stop many 
threats. But ultimately, there exists no perfect cyber defense, and 
persistent adversaries will at times find ways to infiltrate networks 
in both Government and the private sector. When an incident occurs, 
private sector and SLTT governments may work with CSAs to obtain 
incident response and coordination resources from the NCCIC as well as 
any additional information they need to respond effectively. CSAs 
provide valuable insight to help the NCCIC coordinate responses to 
incidents and to enhance senior leaders' situational awareness.
4. Special Events
    CSAs also provide support to officials responsible for planning and 
leading special events. This includes participating in planning 
committees and exercises and conducting security assessments of event 
venues and supporting infrastructure. Examples of special events 
supported by the CSAs include the Republican and Democratic National 
Conventions and major sporting events such as the Super Bowl and the 
Major League Baseball All-Star Game, where adversaries could 
potentially target the industrial control systems that enable the 
provision of lighting, crowd control, security measures, and other 
critical functions to the host venues.
                         viii. the way forward
    As with all of NPPD's programs, we are continuously assessing 
progress and looking for opportunities to enhance our capability to 
most effectively serve our customers. As a result of such a continuous 
improvement effort, NPPD is further integrating the PSAs and CSAs. For 
example, CSAs frequently leverage the PSA program to identify and 
initiate stakeholder engagement where a PSA has previously partnered. 
In fiscal year 2015, more than 20 percent of CSA evaluations were 
initiated as a result of direct referrals from PSAs. CSAs and PSAs also 
conduct joint physical and cyber assessments of critical infrastructure 
entities and coordinate analytical resources and assessment methods. 
PSAs and CSAs often exchange information regarding interaction with 
shared partners and stakeholder groups.
    In recognition of growing opportunities for joint cyber-physical 
stakeholder engagement, we asked Congress to authorize the 
establishment of a new operational component within DHS, the Cyber and 
Infrastructure Protection Agency. We submitted a plan that will better 
align the PSAs and CSAs and streamline and strengthen existing 
functions within the Department to ensure we are prepared for the 
growing cyber threat and the potential for physical consequences as a 
result of an attack. We urge Congress to take action so that DHS is 
best positioned to execute this vital mission.
1. Way Forward for the PSA Program
            i. Three-Year Strategic Plan
    IP is working with the Office of Cyber and Infrastructure Analysis 
(OCIA) to develop a 3-year Strategic Plan for PSA's Assessments, as 
required by Congress, to determine how we can enhance the value and 
impact of its assessment portfolio for its stakeholders over the next 3 
years. The strategic plan will:
    1. Clarify the strategic intent behind IP's conduct of assessments;
    2. Expand the value derived from assessments for IP's primary 
        stakeholders;
    3. Articulate how assessments can better leverage, and be better 
        leveraged by, related efforts from partners such as OCIA and 
        FEMA; and
    4. Optimize how assessments are prioritized and measured.
    Once completed, this project will guide how the PSA assessment 
portfolio supports stakeholders across the Nation, contributes to a 
National understanding of risk, and supports National preparedness 
planning, as well as grants decision making. The CSA program will 
identify improvements by drawing upon the analysis in this plan and its 
lessons learned.
            ii. Regionalization
    The owners and operators of critical infrastructure in the United 
States are not exclusively located in the Washington, DC area. In order 
to rebalance resources and meet our stakeholders where they operate, 
the PSA Program and other NPPD programs are regionally and field-based. 
These regional programs are so integral to successful delivery of 
products and assessments to owners and operators that NPPD has begun 
the process of shifting headquarters-based staff into the field. NPPD 
will be placing additional staff from IP in each region to supplement 
the current PSAs. PSAs provide direct support of mission benefactors, 
tailored and adapted to meet regional, State, and local needs, and this 
disciplined shift toward field-based and regionalized operations is 
designed to optimize the way that PSAs support partners across the 
Nation, both providing more locally-tailored support, and managing 
expanding security challenges. The CSAs will operate in a similar 
manner and will be tied into this regional construct.
2. Way Forward for the CSA Program
    NPPD is expanding the number of CSAs deployed across the Nation. 
The allocation of CSAs is based on a risk-informed set of criteria, 
including:
  <bullet> Public-Sector Partners.--The presence of public-sector 
        partners (e.g., SLTT governments) with strong cybersecurity 
        programs that would benefit from a closer relationship with 
        NPPD.
  <bullet> Private-Sector Partners.--High concentrations of companies 
        in particular critical infrastructure sectors, particularly 
        entities identified under Section 9(a) of Executive Order 13636 
        as especially critical.
  <bullet> PSA Activity.--Regions with existing PSAs that will provide 
        new CSAs with an existing network of critical infrastructure 
        contacts.
  <bullet> FEMA Models.--CSA expansion will also be informed by 
        available FEMA models, such as those utilized in the context of 
        the Urban Areas Security Initiative and Threat and Hazard 
        Identification and Risk Assessment.
                              ix. closing
    Protecting the Nation, its critical infrastructure, and each 
community is a shared responsibility. PSAs and CSAs provide an 
essential local point of connection between DHS and our critical 
infrastructure stakeholders. They are the primary ``bottom-up'' 
capability to help individual companies better manage their risks, and 
consequentially they create trust relationships that can inform the 
development of top-down programs to manage risks across entire sectors. 
This local point of connection allows the Department to more 
effectively accomplish its mission and helps our stakeholders manage 
their all-hazards risk.
    Thank you again for the opportunity to appear before you today. We 
look forward to your questions.

    Mr. Ratcliffe. Thank you, Dr. Ozment.
    I now would like to recognize Ms. Durkovich for 5 minutes 
for her opening statement.

STATEMENT OF CAITLIN DURKOVICH, ASSISTANT SECRETARY, OFFICE OF 
  INFRASTRUCTURE PROTECTION, NATIONAL PROTECTION AND PROGRAMS 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Durkovich. Chairman Ratcliffe, Ranking Member Richmond, 
and Members of the subcommittee, thank you for the opportunity 
to appear before you today to discuss the crucial role that 
Protective Security Advisors and Cybersecurity Advisors, or 
PSAs and CSAs, respectively, serve in supporting critical 
infrastructure owners and operators in their efforts to manage 
an increasingly complex and dynamic risk environment.
    NPPD's mission is derived from the recognition that 
critical infrastructure is essential to the Nation's security, 
economic prosperity, the resilience of our communities, and our 
way of life. However, the majority of our Nation's 
infrastructure is owned and operated by the private sector and 
by State and localities. As such, the Federal Government shares 
responsibility in helping them navigate a risk landscape that 
has become multi-dimensional, covering physical, cyber, and 
even space-based threats and hazards.
    To that end, we appreciate your support for establishing a 
cyber and infrastructure protection operational component 
within the Department and for authorizing the PSA and CSA 
Program.
    The Department's approach to critical infrastructure 
security and resilience is predicated on building trusted, 
value-added partnerships with owners and operators of critical 
infrastructure. We build partnerships at the National level 
with the 16 sectors to identify requirements and gaps, develop 
tools, build capacity, and promulgate best practices to manage 
threats and hazards specific to their sectors while recognizing 
the important dependencies and interdependencies that are 
created by their interception.
    But equally important we build partnerships at the 
regional, State, and local level beyond the Beltway, where 
owners and operators are living the daily reality of this 
dynamic risk environment. The PSAs and CSAs are responsible for 
developing and sustaining these trusted relationships and 
bringing resources to bear to help owners and operators put 
appropriate security and resilience measures in place. And in 
the event of a bad day, help mitigate the consequences so we 
can not only limit the loss of life but the economic impact and 
disruption to our communities.
    We fielded the first PSA cohort in 2004 with the goal of 
putting at least one PSA in every State. Today, it is a mature 
program with 102 regionally-based personnel, and we've done 
more than just putting a PSA in every State. Larger States and 
urban areas are home to several PSAs. In the President's fiscal 
year 2017 budget request, we have been asked for an additional 
17 PSAs.
    No week for a PSA is the same. I have had the opportunity 
to witness first-hand what they accomplish each day in our 
communities. It ranges from conducting the vulnerability 
assessments we are here today to discuss, to organizing 
security campaigns on evolving threats, such as violent 
extremism or substation attacks. It may include active-shooter 
training and counterimprovised explosive device workshops or 
planning for special events such as the upcoming political 
conventions.
    Equally important, as I expect you will hear today from 
Director Brown, they support State and local critical 
infrastructure protection activities and provide critical 
decision support information about disruptions to 
infrastructure and cascading impacts during an incident.
    Recent events demonstrate why critical infrastructure must 
be secure and able to rapidly recover from all hazards. 
Terrorist attacks and active-shooter incidents both here and 
abroad highlight the continuing interest that adversaries have 
shown in targeting critical infrastructure, the vulnerability 
of public gathering sites, and they underscore the persistence 
of those who wish to cause harm, whatever their motive.
    In addition, the last several months highlight the 
convergence of the cyber and physical domains. The disruption 
to the Ukrainian power grid is the first known example of a 
remote cyber attack that had physical consequences. We know 
that nation-States are looking to gain footholds into our 
infrastructure to use in times of conflict. To meet the threat 
head-on, CSAs and PSAs have already begun to coordinate their 
efforts, conducting joint physical and cyber assessments of 
critical infrastructure and aligning analytical resources and 
assessment methods.
    In fiscal year 2015, more than 20 percent of CSA 
evaluations were initiated as a result of direct referrals from 
the PSAs. The Office of Infrastructure Protection is working to 
develop a 3-year strategic plan for assessments as required by 
Congress, which we expect to be completed by the second quarter 
of fiscal year 2017. This plan will enable us to clarify the 
strategic intent behind IPs conduct of assessments, expand the 
value derived by our stakeholders, and will further guide how 
the assessments are prioritized and measured.
    In closing, protecting the Nation, our critical 
infrastructure, our communities, and our way of life is a 
shared responsibility. PSAs and CSAs provide the local point of 
connection between DHS programs and our critical infrastructure 
stakeholders. They are the primary bottom-up capability to help 
owners and operators better manage their risks and consequently 
are the basis for the trusted relationships that have resulted 
in a National critical infrastructure program that is a model 
around the world.
    Thank you, again, for the opportunity to appear before you 
today. I look forward to your questions and to working with you 
to ensure NPPD or cyber and infrastructure protection is 
appropriately organized and positioned to carry out this 
critical mission.
    Mr. Richmond. Mr. Chairman, I would ask unanimous consent 
that Mr. Payne be allowed to participate in today's hearing.
    Mr. Ratcliffe. Without objection.
    I would like to welcome the gentleman from New Jersey to 
our subcommittee today. Glad to have you.
    Thank you, Ms. Durkovich. The Chair now recognizes Mr. 
Brown for 5 minutes for his opening statement.

   STATEMENT OF MARCUS L. BROWN, HOMELAND SECURITY ADVISOR, 
 DIRECTOR OF THE OFFICE OF HOMELAND SECURITY, COMMONWEALTH OF 
                          PENNSYLVANIA

    Mr. Brown. Good morning, committee Members, Chairman, 
Ranking Member. I appreciate the opportunity to be here today 
to discuss our partnership with the Department of Homeland 
Security's Office of Infrastructure Protection.
    A significant aspect of our mission relates to prevention 
and protection of our citizens and our critical infrastructure 
in the face of terrorist threats.
    Many of the ways we maximize our efforts with prevention 
and protection activities is working with our three protective 
security advisers and our regional director.
    In a joint effort with the PSAs, we have developed programs 
that better prepare our citizens by identifying vulnerabilities 
and improving capabilities that address the threat of 
terrorism.
    We follow the National Infrastructure Protection Plan, and 
we have developed and implemented a State critical 
infrastructure plan as a component of the overarching Homeland 
Security program.
    Together, we have been able to establish a list of the most 
critical infrastructure in Pennsylvania by collecting, 
prioritizing, analyzing facilities and assets through 
meaningful outreach.
    Our three PSAs provide immense value in assisting local, 
State, and Federal officials and the private sector in 
protecting Pennsylvania's critical infrastructure.
    One of the ways the PSAs accomplish this is by conducting 
vulnerability assessments, surveys, active-shooter protection 
walkthroughs of facilities and assets. My staff has accompanied 
the PSAs in many of these facilities when they are conducting 
vulnerability assessments. From our observations, having the 
owners and operators of these facilities in a room with law 
enforcement, with emergency medical services, and with other 
public safety officials always provided one-of-a-kind 
opportunities for everyone involved to identify the 
complexities of a facility in terms of physical and 
cybersecurity.
    The main tools the PSA uses in their vulnerability surveys 
is called an Infrastructure Survey Tool, or an IST. The IST is 
used to capture information about a facility in order to 
identify the areas where the facility is most vulnerable. After 
that data is collected and analyzed, a report containing a 
comparative analysis known as the dashboard is provided to the 
owner of the facility in order to assist in reducing risk.
    While the interactive dashboard shows how weak or strong 
that facility is compared to like facilities around the 
country, the report also zeros in on vulnerabilities specific 
to that facility and provides options of consideration, meaning 
that these specific actions taken by a facility will reduce its 
vulnerability and, therefore, reduce its risk against man-made 
or natural disasters.
    Additionally, this information gives local, State, and 
Federal public safety officials a picture of what is most at 
risk in their area of operations.
    For example, with this information in hand, the PSAs can 
monitor critical infrastructure that may be vulnerable during a 
specific event such as the upcoming Democratic National 
Convention in Pennsylvania. The tool used for this purpose is 
called the Special Event or Domestic Incident Tracker tool. 
During the upcoming Democratic National Convention in 
Philadelphia, the PSAs will share the information in this tool 
with all of the members of our State Emergency Operation 
Center. Then the EOC will be able to provide me with 
situational awareness reports that I can then feed to public 
safety leadership and the Governor.
    From the perspective of my office and the citizens of 
Pennsylvania, the PSAs and the Cybersecurity Advisors bring 
their experience and expertise into play to assist in critical 
infrastructure protection efforts, and their value cannot be 
overstated.
    The tools that they use to assist the private-sector 
facilities are most beneficial to my office, especially during 
times when my staff has to report to our State EOC during an 
activation. We value their input and assistance when they are 
participants with us in our tabletop exercises and training 
events. What they offer our office is immeasurable to our 
mission of protecting the citizens of Pennsylvania.
    We have provided in an Appendix a list of the assessments, 
that have been done by our PSAs in advance of the Democratic 
National Convention. So once again, I would just like to thank 
the committee for having me here, and I'm more than willing to 
answer any questions.
    [The prepared statement of Mr. Brown follows:]
                 Prepared Statement of Marcus L. Brown
                             July 12, 2016
    Good morning committee Members. I am Marcus Brown, director of the 
Pennsylvania Office of Homeland Security. I appreciate the opportunity 
to be here today and discuss our partnership with the Department of 
Homeland Security's Office of Infrastructure Protection.
    A significant aspect of our mission relates to the prevention and 
protection of our citizens and our critical infrastructure in the face 
of terrorist threats. Many of the ways we maximize our efforts with 
prevention and protection activities is working with our three 
protective security advisors (PSAs) and their regional director.
    In a joint effort with the PSAs we have developed programs that 
better prepare our citizens by identifying vulnerabilities and 
improving capabilities that address the threat of terrorism. We follow 
the National Infrastructure Protection Plan (NIPP) and have developed 
and implemented a State critical infrastructure protection plan as a 
component of the overarching Homeland Security program. Together we 
have been able to establish a list of the most critical infrastructure 
in Pennsylvania by collecting, prioritizing, and analyzing facilities 
and assets through meaningful outreach.
    Our 3 PSAs provide immense value in assisting local, State, and 
Federal officials and the private sector in protecting Pennsylvania's 
critical infrastructure. One of the ways PSAs accomplish this is by 
conducting vulnerability assessments, surveys, and active-shooter 
protection walk-throughs of facilities or assets. My staff has 
accompanied the PSAs many times to facilities when they conducted 
vulnerability assessments or surveys. From our observations, having the 
owners and operators of the facilities in a room with law enforcement, 
emergency medical services, and other public safety officials always 
provided a one-of-a-kind opportunity for everyone involved to identify 
the complexities of a facility in terms of physical and cyber security.
    The main tool the PSAs use for their vulnerability surveys is 
called the Infrastructure Survey Tool (IST). The IST is used to capture 
information about a facility in order to identify the areas where that 
facility is most vulnerable. After that data is collected and analyzed 
a report containing a comparative analysis, known as a dashboard, is 
provided to the owner of the facility in order to assist in reducing 
risk. While the interactive dashboard shows how weak or strong that 
facility is compared to like-facilities around the country, the report 
also zeros in on vulnerabilities specific to that facility and provides 
``options for consideration,'' meaning the actions taken by a facility 
will reduce its vulnerability and therefore reduce its risk against 
man-made and natural hazards.
    Additionally, this information gives our local, State, and Federal 
public safety officials a picture of what is most at-risk in their area 
of operations. For example with this information in hand the PSAs can 
monitor critical infrastructure that may be vulnerable during a special 
event, such as the Democratic National Convention (DNC). The tool used 
for this purpose is called the Special Event and Domestic Incident 
Tracker (SEDIT) tool. During the upcoming Democratic National 
Convention in Philadelphia the PSAs will share the information in this 
tool with my Infrastructure Protection Specialists, who will be sitting 
in the State's Emergency Operations Center (EOC). They will provide me 
with situational awareness reports that I can share with Governor Wolf.
    From the perspective of my office and the citizens of Pennsylvania 
the PSAs and Cyber Security Advisor (CSA) bring their experience and 
expertise into play to assist in critical infrastructure protection 
efforts and their value cannot be overstated. The tools that they use 
to assist the private-sector facilities are most beneficial to our 
office especially during the times when my staff has to report to the 
State EOC during activation. We value their input and assistance when 
we host table-top exercises or training events. What they offer our 
office is immeasurable to our mission of protecting the citizens of 
Pennsylvania.
    I have provided an appendix that lists the assessments that have 
been completed by our PSAs and CSA in advance of the Democratic 
National Convention.
    Once again, I would like to thank the committee for inviting me 
here to speak on this matter. To the extent there are questions I will 
be happy to attempt to answer any inquiries.
                                APPENDIX
I. In preparation for the Democratic National Convention, the 
Infrastructure Survey Tool has been used on the following facilities in 
Philadelphia:
  <bullet> Wells Fargo Center (Location for the DNC)
  <bullet> PA Convention Center
  <bullet> National Constitution Center
  <bullet> Lincoln Financial Field
  <bullet> Citizens Bank Park
  <bullet> Hahnemann Hospital
  <bullet> Equinix Data Center
  <bullet> One Liberty Place high-rise
  <bullet> Multiple Exelon/PECO substations
II. Other facilities that have been assessed in the past and whose data 
will be used during the Democratic National Convention include:
  <bullet> Philadelphia Gas Works
  <bullet> Multiple assets of the Philadelphia Water Department
  <bullet> Penn Presbyterian Hospital
  <bullet> Transportation assets--Southeastern Pennsylvania 
        Transportation Authority
  <bullet> Amtrak
  <bullet> Delaware River Port Authority (Walt Whitman and Ben Franklin 
        Bridges)
  <bullet> Comcast Center
  <bullet> Philadelphia Museum of Art
  <bullet> PJM Interconnect
III. Cyber assessments conducted on Pennsylvania facilities that will 
have a role in supporting the Democratic National Convention
  <bullet> PA Convention Center
  <bullet> Samuel Baxter Water Treatment Plant (main water treatment 
        plant of the Philadelphia Water Department)
  <bullet> Comcast Center
  <bullet> Philadelphia Gas Works
  <bullet> PJM Interconnect
IV. Requests for cyber assessments currently in the planning process
  <bullet> Delaware River Port Authority
  <bullet> One Liberty Place
  <bullet> Philadelphia Museum of Art
  <bullet> National Constitution Center
V. Additional training conducted by DHS and Governor's Office of 
Homeland Security in advance of the Democratic National Convention
  <bullet> Active-Shooter Workshop (Public & Private Sectors)
    <bullet> 29 April 2016 (Independence Visitors Center--41 N. 6th 
            Street, Philadelphia, PA 19106)
  <bullet> Surveillance Detection Training (Public and Private 
        Sectors):
    <bullet> 10-12 May 2016 (National Park Service HQs--143 S. 3rd 
            Street, Philadelphia, PA 19106)
    <bullet> 07-09 June 2016 (National Park Service HQs--143 S. 3rd 
            Street, Philadelphia, PA 19106)
  <bullet> Protective Measures Course and Vehicle-Borne IED Search 
        Procedures (Public and Private Sectors):
    <bullet> 25 and May 2016 respectively (Delaware Valley Intelligence 
            Center, 2800 S. 20th Street, Philadelphia, PA 19145)

    Mr. Ratcliffe. Thank you, Mr. Brown.
    I now recognize myself for 5 minutes for questions.
    Dr. Ozment, I want to start with you. We talked about the 
fact that, as you said, the CSA program that hopefully, you'll 
be able to leverage and learn from some of the lessons of the 
PSA's 12-year history.
    One of the questions that I have for you is can you advise 
us on the developmental and training programs for the CSAs to 
ensure that the field-based personnel out there have a diverse 
cyber experience that includes computer engineering skills, 
that includes a well-versed knowledge of cyber incident 
response and a solid working knowledge of the NCCIC and its 
capabilities and services?
    Mr. Ozment. Thank you, Chairman. Let me, first, highlight 
what we are looking for in a Cybersecurity Advisor.
    Cybersecurity Advisors are the risk advisors in 
organizations. So if you look at a typical chief information 
security officer office, the chief cybersecurity office of a 
customer, they usually have a CISO, chief information security 
officer, a policy office, a risk management office, an 
operations office, and maybe an information-sharing office.
    The CSAs bring in that high-level risk management 
knowledge. So we do not expect them to put hands on a keyboard 
and be able to do a technical risk assessment. We want them to 
bring that strategic perspective. Risk management is really the 
chassis upon which we build cyber programs, and so it's really 
core.
    So right now, let me tell you, in fact, about our 6 CSAs, 
because I think we have a really impressive group of folks. We 
have one individual who is a former State CISO. We have a 
National lab expert on cybersecurity. We have a long-time Navy 
cyber individual who is also the CISO of a private-sector 
company. We are about to bring on to Houston in the next month 
a person who is an executive in an oil and natural gas company 
to be our Cybersecurity Advisor in Houston. So, and that's just 
an example of the great talent we've got in this program. So we 
are bringing in the right people.
    To your point, we then have to continue to train them. So 
one of the things that we do is we actually look to existing 
training programs such as--well actually, I won't mention 
certification programs by name, but there are existing private-
sector-led certification programs that you use to really ensure 
that your people have the best risk management knowledge, and 
so we use those certification programs plus bringing them in 
back to headquarters to train them on what's available from the 
headquarters organization and the NCCIC itself.
    Mr. Ratcliffe. Thank you, Dr. Ozment.
    Ms. Durkovich, let me turn to you. As I understand, the 
Protective Security Advisor Program has developed a new public 
outreach initiative, ``Homeland Security Starts With Hometown 
Security.'' You and I talked about that. I've got this handout 
that you gave me. This sounds like a great initiative. My 
question to you is, have you determined any benchmarks or 
metrics to determine the success of programs like these or 
other PSA outreach? Then depending on your answer, Mr. Currie, 
I would like to have you weigh in on your experience with 
respect to whether there are any best practices for determining 
or reporting measurable metrics in areas that are activity-
based?
    Ms. Durkovich. Thank you very much, Chairman, for that 
question. It is a great question. I want to begin by 
acknowledging that we are continuing to look at how we enhance 
and improve our metrics.
    As you know, most of what we do within the Office of 
Infrastructure Protection is voluntary. So owners and operators 
are not required to participate in our assessments, nor are 
they required to report back to us what options or 
considerations they accept. However, we have, over the course 
of the last several years, begun to do a better job in terms of 
tracking those options or considerations that are recommended, 
and we know, for instance, that at least 90 percent of owners 
and operators at least adopt one of our options for 
consideration.
    We are working to go through the Information Collection 
Request process, which will allow us to provide surveys and 
questionnaires, to our owners and operators, to more 
effectively understand how useful the value that campaigns such 
as the connect-plan-train-report initiative are bringing.
    Once we have that information collection request completed, 
again, we will be able to actually hand out surveys and get 
their direct input. We do this right now for the Office of 
Bombing Protection within IP, and many of the counter-
improvised explosive device training courses that we offer, and 
we know, for example, that our owners and operators rate most 
of our trainings 4.7 out of 5 stars. So that's an encouraging 
statistic.
    Some of the metrics is anecdotal or qualitative, I should 
say, and it is based on the participants that come to our 
workshops. We have recently rolled out an updated version of 
our active-shooter workshop that is focused on developing an 
emergency action plan for owners and operators in the event of 
an active-shooter incident. I will tell you, having 
participated in one in Philadelphia a month ago, the room is 
overflowing. I will--again, some of this is just based on the 
feedback that we get directly whether it is from homeland 
security advisers, from owners and operators, in terms of the 
value that we have brought in helping them understand the range 
of threats and hazards and the measures that are appropriate 
for their operating environment.
    Not every business, shopping mall, movie theater, can put 
mags in, can do the things that you have here when you enter 
into this building. So part of what we do is working with them 
over time to develop that plan and to ensure that the 
appropriate measures are in place.
    But it is an area that we recognize that we have to 
continue to work on, and it is why we are working diligently to 
complete the 3-year strategic assessment which will, again, 
give us a better foundation for the metrics that we collect.
    Mr. Currie. Yes, sir. So I agree with everything Ms. 
Durkovich said at the end. I would sort of make two points. No. 
1, and, you know, data sharing and data collection is not an 
exciting topic, but I think that that is the key first step, is 
that there are so many assessments that have already been done 
and so many tools out there and so much data that has been 
collected, first looking across all of this data to see what we 
first have.
    One of the problems we identified when we actually tried to 
look across all that information was that there may have been 
similar information collected in different assessments but just 
asked in a different way. So it wasn't consistently collected, 
and you could not compare it across sectors, across facilities 
and all that type of thing. That makes it really, really 
difficult to identify priorities across the country. But I also 
want to make the point that--I mean, this is really difficult, 
you are dealing with 16 individual unique sectors; each sector 
has to have unique tailored questions to it. But there is a way 
to collectively do this.
    I do want to make the other point, though that, there are 
certain programs where DHS is a little bit more involved in the 
actual assessment and follow-up, like the Regional Resiliency 
Assessment Program, where DHS goes out with local partners and 
other Federal agencies and assesses regional risk and 
resiliency. One of our past recommendations is they better 
follow up on that to see what mitigation actions were taken and 
how that actually decreased vulnerabilities. So you can 
quantitatively look at that issue, too.
    Mr. Ratcliffe. Thank you, Mr. Currie and Ms. Durkovich.
    My time has expired. The Chair now recognizes my friend 
from Louisiana, the Ranking Member, Mr. Richmond.
    Mr. Richmond. Thank you very much.
    This is to Director Brown, and it's also a follow-up of 
some things that you mentioned in your testimony.
    In your experience in Pennsylvania, and especially in light 
of the upcoming Democratic convention, how are critical 
infrastructure owners and operators taking advantage of the 
vulnerability assessments performed by PSAs and CSAs, and are 
they actually adopting the recommended countermeasures and 
security controls, No. 1?
    Then, No. 2, in your opinion, have these assessment 
programs been noticeably beneficial? If not, what would you 
suggest improving?
    Mr. Brown. First, I would like to take a step back from the 
DNC last year. We had the papal visit in Philadelphia, also. 
Again probably the largest a NSSC event that the country has 
ever seen. And, again, I sat on the Executive Steering 
Committee for that, and so, oversaw a great deal of the 
security planning for the event at all levels--local, State, 
and Federal. The PSAs played a very important role in what we 
were doing there. You know, they--and that was in several ways. 
No. 1, the assessments that they did, they had done a 
significant number of assessments in the Philadelphia area for 
that event, leading up to that event, and then again prior to 
the DNC. Those facilities, when we did table-top exercises, 
many of those facilities came into a component of the exercise. 
The fact that we had security assessments done and more 
importantly, actions taken as a result of those security 
assessments to make those facilities safer, I think, played a 
big role in the level of protection everybody expected at those 
locations and then how we felt about our preparation for the 
events.
    You know, in each one of those events also leading up to 
them, including the DNC, you know, our PSAs also assisted 
greatly in training preparation for those events. They had 
active-shooter training, they had vulnerability facility 
training, they had IED training, they had surveillance 
protection training. So it goes beyond just the assessments 
themselves. When they do the assessments, they see that there 
are certain vulnerabilities, and then their training comes in 
behind that to ensure that we're looking at those things and 
trying to solve some of those problems.
    So my thought is that, that they play an important role 
working with public safety to ensure that the facility and the 
location and the events that we are putting on, especially in 
the ones coming up here in Philadelphia for the DNC, I think we 
are in a much safer position now as a result of their work.
    Mr. Richmond. Thank you. I would direct this question to 
the panel, and I think that--I would be interested in the 
response.
    GAO reported that Coast Guard Protective Service Security 
Advisors and TSA field personnel, have reported observing 
Federal fatigue or a perceived weariness among critical 
infrastructure owners and operators that have repeatedly been 
approached by different Federal agencies and offices. What's 
being done to address this, both, within the Office of 
Infrastructure Protection and Cybersecurity and Communications, 
and externally in regards to other agencies and is it something 
you all notice and see?
    Ms. Durkovich. I'm happy to start with that question. Thank 
you. It is a great one.
    I do want to begin by mentioning that we have moved to a 
single assessment methodology within the Office of 
Infrastructure Protection, in part because of the work that the 
GAO has done in identifying some of the challenges behind 
having multiple assessments.
    So over the course of the last several years, we have, 
again, moved to a single assessment methodology. That 
assessment methodology is housed in something called the IP 
Gateway, which really serves as the chassis that underpins our 
entire suite of assessment tools, our integrated situational 
awareness, and our integrated planning tools.
    The IP Gateway now is used not only by DHS but by many of 
our Federal partners across the departments and agencies, and 
equally important, it is used by every State and often in urban 
areas to conduct these assessments.
    But I think that your question raises why our efforts to 
continue to move toward operationalization, and to enhance our 
efforts out in the field in the regions is so important.
    Part the reason that we have established an IP senior 
leader in every region is to ensure that we are coordinating, 
more closely than ever before, with our Federal partners, with 
our State partners not only in the conduct of assessments to 
ensure that we are not duplicating efforts, but equally 
important that we are coordinated in support of special events 
and incident response.
    We have seen the dividends already play out in the regions. 
I think that we, again, are doing a much better job in limiting 
duplication.
    So as we continue to move in, you know, move to getting 
additional resources out there, I think that we will continue 
to see the benefits from this.
    Mr. Richmond. Anyone else wanted to comment?
    Mr. Ozment. I'll just chime in and highlight that this is 
one of the strengths of having the PSA Program and the CSA 
Program closely coupled. The CSAs cybersecurity advisers 
coordinate with the PSAs, Protective Security Advisors to make 
sure that their activities are in line, and really look to the 
PSAs to be the core relationship manager in a given region.
    Mr. Brown. If I could just make one final comment. You 
know, I think the security assessments that are done play an 
important role. But when we couple them, our office has--a huge 
part of what we do is put on table-top exercises. So, when we 
can couple that assessment with an actual exercise, we all of a 
sudden now--the facility is now testing what they got in their 
assessment in an exercise to ensure that the implementation of 
it, that the surrounding public safety officials are all on-
board with what the assessment is saying and then how best to 
protect the facility.
    So I really think the coordination of both of those things 
has played an important role in Pennsylvania, especially for 
some of the large events that we've had.
    Mr. Richmond. Thank you, Mr. Chairman.
    I yield back.
    Mr. Donovan [presiding]. The gentleman yields back. I don't 
want you to think that your testimony caused the Chairman to 
lose his hair, to get a little bit older. He had another 
commitment, and he's asked me to assume his role.
    The Chair is going to recognize other Members of the 
subcommittee for 5 minutes of questions they may wish to ask 
the witnesses. In accordance with the committee's rules and 
practice, I plan to recognize Members would were present at the 
start of the hearing by seniority on the subcommittee. Those 
coming in later will be recognized in the order of arrival. We 
alternate Republican and Democrat. Since I'm the only 
Republican left, I will ask you questions for 5 minutes.
    Mr. Currie, you have testified before this committee 
before; I thank you for coming again. You had many suggestions 
during your testimony on how DHS can gain the trust of the 
private sector, the private owners, and how your suggestions 
can decrease Federal fatigue that these people are 
experiencing. Why haven't we done anything about it? You had 
great suggestions. I thought your testimony was wonderful. Why 
haven't we done it?
    Mr. Currie. Well, I think we have done a better job in 
recent years, no doubt. I think there's two keys to this, and I 
mean--and the folks talk about it. I mean, one is local 
relationships. There has to be local relationships in these 
areas, and that's really important. It's also really difficult 
to measure how good that is, but it's key.
    One of our key points, and, again, not the most exciting 
topic, but data sharing and data consistency across so many 
different assessments is critical. If a PSA has reviewed 
information on assessments that have already been done of a 
facility, they go in not just informed for their own jobs, but 
they go in and it lends credibility with the owner and 
operator.
    If there's consistency across questions, especially in the 
same area, they also don't have to ask the same question a 
different way that the person may have been asked 3 months ago 
by the EPA, for example. So I think both things are absolutely 
critical.
    Mr. Donovan. Do you think that--you're seeing results, 
increase, a change? I mean, the program has been going on for 
12 years now.
    Mr. Currie. Sir, to be fair. So we issued our report in 
2014, and DHS has done a lot since that time. She mentioned the 
IP Gateway, which is basically, you know, a web-based tool 
where people don't have to hand out paper assessments and read 
them. Everyone can go in and have access to certain 
information. We think that's good progress. But what we don't 
know, because our work is a little bit dated is, you know, we 
surveyed owners and operators at the time. We would have to go 
back and actually talk to them to get their perspectives, and 
we haven't done that. So that may be a better question for Mr. 
Brown.
    Mr. Donovan. Mr. Brown? It's tough when another witness 
passes the ball.
    Mr. Brown. You know, I would say one thing about the number 
of different assessments that are done. You know the agencies 
that are doing those assessments have very, very high expertise 
in that certain area, so they are assessing a location or a 
facility where that type of assessment is probably very 
important, whether it's the Coast Guard, whether it's 
environment. You know, they are assessing a certain business or 
facility where that part is critical.
    So, you know, the concern for us always is the last thing 
we would like to see is a watered-down assessment that sort-of 
fits everybody. So I think there's sort-of a balance in, you 
know, what's been reported here compared to exactly what's 
going to work out in the field.
    You know, if it's a maritime facility, we would like to see 
specialists in the maritime arena be the ones doing the 
assessment.
    So I would caution there should be some balance as we move 
forward on this to try and make a single assessment that fits 
everybody or ensuring that we have a comprehensive assessments 
for each individual sector, because when we have had exercises 
where multiple assessments have been done, you know, we do get 
some specific input from each of those assessments that helps 
us sort of move forward in the security plan.
    Mr. Currie. Sir, I would absolutely agree with that, too. 
Then we're not suggesting that there be one single assessment 
to apply to all 16 different sectors. I think--you know, I 
absolutely agree. I think what we noticed in our work is that 
there was a lot of information collected across a lot of 
different assessments and sectors that was the same, but 
different. It was collected differently. It could have been 
used differently if it was collected consistently and analyzed 
across sectors.
    Of course, there has to be subject-matter expertise. That's 
why the Coast Guard, for example, does port security 
inspections instead of NPPD, for example.
    Mr. Donovan. Just for all of you, is this well-spent money?
    I know, Ms. Durkovich, you said that it's a voluntary 
program, people have to, because their private sector, have to 
volunteer to participate. We're spending a lot of taxpayer 
dollars on this. Do you feel, each of you, that this is a 
worthwhile effort, and we're achieving the goal that we set out 
to achieve when the program began?
    Ms. Durkovich. Thank you, sir, and I'm happy to start with 
that question. My answer is unequivocally, yes. As I alluded to 
in my opening remarks, we are living in a very dynamic and 
complex risk environment. At the end of the day, our reliance 
on critical infrastructure is really what, you know, drives our 
way of life and helping owners, and operators navigate this 
environment and manage the risk is really the essence behind 
our program.
    So our ability to do these assessments, to share 
information with them, to make recommendations on how they can 
improve their security. The reality is you cannot operate in 
this day and age without having some sort of security plan and 
some plan for how you are going to bounce back in the event of 
an incident.
    So that is the value that we bring to them, a no-cost 
assessment that helps them understand where they compare to 
others in their sector or subsector, and the return on 
investment that they will get if they make certain enhancements 
in security and resilience. So I will tell you, absolutely, it 
is taxpayer money well spent. We have saved lives. We have 
limited disruptions to critical infrastructure.
    I do want to just speak briefly to the different types of 
assessments. We have this, you know, this reality in the Office 
of Infrastructure Protection where we actually have the 
authority to regulate high-risk chemical facilities. There are 
about 3,400 facilities that we have deemed high-risk because of 
quantities, threshold quantities, that they have of chemicals 
of interest. So we have a special program and chemical security 
inspectors who are responsible for helping that facility 
develop a Sites Security Plan and ensure that those chemicals 
are well-protected.
    Our chemical inspectors work closely with our PSAs to 
ensure that we're not duplicating efforts. Then in addition to 
a CSI showing up on-site that you don't have a PSA then 
knocking on the door and saying, hey, do you want an 
assessment?
    We have learned, though--and this is where the work we are 
doing in the field, to better serve their activity is so 
important--that even though you may be a high-risk chemical 
facility, you still have the need for some of our other 
voluntary services, whether it be active-shooter training, many 
of, again, the kind of voluntary, the voluntary programs that 
we do participating in exercises at the State and local level, 
ensuring that we are accounting for you in NSSCs and the such.
    So I think that the earlier comments about the need for 
specialized assessments is true as well. Thank you.
    Mr. Donovan. Thank you very much. My time has expired.
    The Chair now recognizes the gentlewoman from California, 
Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. Thank you, all, for 
the incredible difficulty of the work that you do.
    I believe that both Mr. Langevin and I have been working on 
this both from the Armed Services Committee and from the 
Homeland Security Committee. He has ranked for a while with 
respect to cybersecurity on the Armed Services, and I ranked 
earlier on that, and of course, we have been very involved here 
on this issue on homeland.
    It's at times just overwhelming, as you know, trying to 
figure out how we safeguard what we need to safeguard. So I 
have only one question. Because we have really, and I believed 
in this, sort-of kept a hands-off method in ensuring with our 
third parties, those who own our very critical infrastructure, 
and 90 percent of which really sits in these third parties' 
hands, we've really attempted to stay short of regulations and 
playing on red tape and in an effort to keep costs down so that 
they might be able to better use those funds, that they would 
otherwise spend to enhance the security of these structures.
    We have had both small businesses who have been--who are 
contractors to some of these larger infrastructure pieces very 
engaged. We've had, of course, many larger companies engaged. 
But we've also had a set that have declined to even tell us 
what they are doing or what they might have, asked us to come 
in and take a look from an expert standpoint and maybe help 
them.
    What can we do to engage those who are still outside of 
what we are doing? That would be my only question.
    Mr. Ozment. Thank you, Representative Sanchez.
    I think that's really a fundamental question for us all, 
and I really appreciate your putting your finger on it. The key 
question here is in a world where we work voluntarily with 
companies, how do we get them to engage?
    I'll tell you, on the cyber side, and I think the same is 
true on the all-hazards side, having a local regionally-
deployed presence is critical, because ultimately, companies 
work--or small and medium businesses, or State and local 
governments, they work with the Federal Government when they 
have a trust in the Federal Government. We build that trust 
through having people who are living where they live, working 
where they work, and really providing value to them, making it 
real that the Federal Government has services to improve your 
company's security, your local government security. We do have 
those services.
    So having these cybersecurity advisers on the cyber side 
living and working with our customers has been incredibly 
important. As you know, I mentioned earlier right now we only 
have 6, and we are really looking for the Congress' support to 
increase the number of field-deployed cybersecurity advisers in 
the 2017 budget.
    Ms. Durkovich. I would agree with my colleague, but I would 
like to add one thing, and I think it is an important component 
of the assessments that we do. But when we work with owners and 
operators to evaluate their security posture, one of our claims 
is you are kind-of only secure--you are only as resilient as 
your weakest link. We encourage them to look across their 
entire supply chain, to have conversations with their 
suppliers, to recognize where their key dependencies are, 
whether it is power, whether it is water, whether it is 
communications, and to, at a minimum, have conversations with 
those key dependencies, with those key third-party providers 
about what their security plans are.
    But, equally important, and I think we are seeing this more 
in the cyber realm than we are in the physical realm, but is 
ensuring that as you develop relationships and contracts, with 
those third-party providers, with those in your supply chain, 
that you are making security, that you are making resilient a 
key part of that agreement between your organizations, that in 
some ways, we are pushing the need for security into that 
supply chain.
    Mr. Ozment. Congresswoman, I apologize. Can I add one 
additional point? My apologies.
    I think one other key aspect of this is actually the 
legislative protections that you, the Congress, has given us 
for protecting the information our customers share with us.
    I'd highlight two in particular--protected critical 
infrastructure information, which means that when a company 
shares vulnerabilities or their risk profile with us, 
statutorily we protect that information. We cannot give it to a 
regulator. It cannot be accessed through a Freedom of 
Information Act or other State Sunshine Act Laws and it cannot 
be disclosed in civil litigation. That protection is critical. 
We treat information we receive under that protection 
extraordinarily carefully.
    Then obviously the Cybersecurity Information Sharing Act of 
2015 also gave us additional statutory protections for 
cybersecurity indicator information and those protects are also 
extremely important.
    Mr. Brown. If I could just weigh in, you know, from the 
field what we found out is that the more of assessments and the 
training is done, the more you have other facilities wanting 
the training. So when you have several hospitals in a city or a 
locale that have done the assessment, the next thing you 
realize is you start getting calls from the third hospital 
saying, hey, I understand these assessments were done, we would 
like that to have happen.
    Now the same thing is happening with the minor league 
baseball stadiums in the State of Pennsylvania. You know we've 
done the Philly stadium now, several of their minor league 
stadiums are asking for an assessment done, followed by a 
table-top exercise. It is sort of a snowballing effect. The 
more we are doing these types of things, I think the more the 
industry is asking for them.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Donovan. The Chair now recognizes the gentleman from 
New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chair. Also I thank the Ranking 
Member for allowing me to sit in today on a very important 
topic. In my work as Ranking Member on my subcommittee, that 
deals with resilience and communications, this is something 
that I've been very interested in and have advocated the 
administration on. In 2013 the National Infrastructure 
Protection Plan focuses not only on the security of the 
Nation's critical infrastructure, but also its resilience, 
which is something that I've dealt with a great deal.
    What training and technical assistance is DHS providing 
through the PSA and CSA programs to increase resiliency of our 
critical infrastructure?
    Ms. Durkovich. I am happy to start with that question, 
Congressman Payne, and thank you very much. Over the course of 
the evolution, of our program, we have moved from a security 
focus to a security and resilience focus because of our 
recognition of the importance to work with owners and 
operators, to be able to return to normal operations in the 
event of an incident.
    Resiliency has become a very key part of the vulnerability 
assessments that we do. Of the 1,400 questions that are part of 
the infrastructure survey tool, that Director Brown alluded to, 
a number of them cover resilience-related measures.
    Again, that ranges everything from do you have a business 
continuity plan in place? Do you have route diversity when it 
comes to your communications? Do you understand who is 
providing your electricity, your water in the event of a power 
outage? Do you have a generator? Do you have enough fuel to 
fuel that generator for at least 72 hours, if not longer?
    So again, those types of questions are considered in the 
IST and we give an owner and operator the ability to see where 
they stand from a resiliency index compared to others. If for 
example they didn't have a business continuity plan but they 
developed one, how that score would improve.
    Equally important, a cornerstone of the office of 
infrastructure protection has become our regional resilience 
assessment program. This is where we look at a key industry, a 
key critical infrastructure asset. In New Jersey, for example, 
one of our first regional resilience assessment programs 
projects was focused on exit 14 and the concentration of 
petrochemical plants, that you find at that exit, and their 
dependency on water, on electricity, on communications, the 
importance of the port in the area. We both evaluated what were 
the threats and hazards that could disrupt or cause some sort 
of incident at that port.
    But equally important, how do we work very closely, not 
only with the owners and operators, but the State and the local 
authorities to improve the resilience of all of those 
underlying systems and assets? It is a Regional Resilience 
Assessment Program that continues to see value. It has been the 
basis for a number of different exercises. The State of New 
Jersey actually created an app based on that RRAP, it is the 
foundation.
    Recently we looked at a category 1 hurricane coming up the 
southern tip of New Jersey and really the relationships that 
exist in that region were because of this RRAP that we did in 
2009. So resiliency has become a key piece of what we do in the 
Office of Infrastructure Protection.
    Mr. Payne. Good old exit 14. I live 4 minutes from there. 
You know that area has been called the 2 most dangerous miles 
in the country based on the airport and the seaport, the 
chemical and the infrastructure, so these issues are very 
important to me.
    How has DHS incorporated the concept of resilience into 
their vulnerability assessments?
    Ms. Durkovich. Again, it is both through some of the 
questions that I alluded to, but looking at really at an 
organization's, or an industry's, or a particular region's, 
kind of operational capability, and what is a minimal time of 
disruption that that particular organization, that particular 
community can sustain? That's really kind-of what drives our 
concept of resiliency.
    Mr. Payne. Thank you.
    Mr. Ozment. I would just note, sir, that our cybersecurity 
most strategic risk assessments are in fact resiliency 
assessments.
    Mr. Payne. OK. Thank you. I appreciate your indulgence and 
yield back the balance of my time.
    Mr. Donovan. The gentleman yields back.
    I would just like to recognize that I live 10 minutes from 
that exit, so keep up the good work.
    The Chair now recognizes Mr. Langevin from Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank the 
Chair and the Ranking Member for holding this hearing. I want 
to thank our witnesses for your testimony here today, and the 
work you're doing to protect the country.
    For Secretary Ozment and Durkovich--so I appreciate the 
desire to incorporate cybersecurity in your risk assessments, 
particularly as more and more systems are connected to the 
internet.
    So as a Member of the Armed Services Committee I recognize 
that today's conflict and really all future ones for that 
matter are going to contain some type of a cyber component to 
it going forward. It seems prudent to extend that mindset to 
critical infrastructure.
    So with that in mind, Secretary Ozment and Secretary 
Durkovich, can you talk about the training required for PSAs to 
provide these assessments, while Chairman Ratcliffe asked about 
CSA training, it seems that since they are outnumbered by 20 to 
1, at the moment, I imagine PSAs are required to do the 
baseline assessments and basically it would seem that much of 
the expertise is different from the physical security that 
traditionally has been at the domain of PSAs?
    Ms. Durkovich. Thank you very much for that question. As 
you alluded to, we see the Protective Security Advisors as 
force multipliers in this effort to secure critical 
infrastructure from cyber threats. As I alluded to in my 
opening statement, over 20 percent of the referrals to the CSAs 
actually come from the Protective Security Advisors, this is 
because we have these long-standing relationships that we have 
developed with owners and operators. In addition to being 
worried about natural hazards and terrorist threats, they are 
also dealing with, again, the range of cyber actors.
    So at a minimum what our PSAs do is connect them with the 
other NPPD, cybersecurity security expertise, that may be the 
NCCIC, that may by the Cybersecurity Advisors, but we also are 
bringing tools and capabilities. We have a number self 
assessments that are available to owners and operators on the 
cyber side of the House and, as well, can articulate kind of 
that basic cyber hygiene.
    So, to ensure that our PSAs at least know enough to be 
dangerous on the cyber front. This is something that in my role 
I've had do as well. Right, it is hard for me to go out and 
talk about this dynamic risk environment and not include cyber 
in that conversation.
    Mr. Langevin. So I just want to ask to clarify, so are they 
just doing referrals to CSA, or to other entities, or do they 
actually have training in that area on the site?
    Ms. Durkovich. So they are largely doing referrals. They do 
do kind-of general awareness about the threat. They can talk 
about kind-of basic cyber hygiene, the importance of 
multifactor authentication of segmenting systems. But, to 
answer your question, we have sent all of them down to Hoover 
and the Secret Service cybersecurity campus there to get a 
basic level of training. There are some Protected Security 
Advisors who have spent time at Idaho National Labs, with our 
industrial control system team, getting kind-of a higher level 
of training. We have only a few, but this is while Andy works 
to build up his work force, that are actually certified to 
conduct our cyber infrastructure survey tools. So it's a mix 
of----
    Mr. Langevin. So where do you see the work force going on 
the CSA side? Because it seems to be that you'd almost want the 
two to be co-assessing or collocating in conducting these 
assessments.
    Mr. Ozment. Sir, I think of this as a sort-of three-tiered 
system. We have the PSAs who can do--advertise our cyber 
programs, connect people with our other cyber resources and do 
basic--for example, as part of their basic infrastructure 
survey tool they do have strategic cyber questions there. They 
can give high-level advice on cyber hygiene.
    When we have a problem that demands more cyber knowledge 
than that, and a lot of our customers are demanding more cyber 
knowledge than that, we go to the CSAs, and the CSAs provide--
are cybersecurity specialists but they are not hands-on 
technical operators, they are cybersecurity executives, if you 
will.
    So then at the next and final tier when a customer needs 
more technical specialized assistance we draw then upon our 
different technical groups within the NCCIC, whether it be the 
industrial control systems team, or an instant response team, 
or a hacking team if you will.
    So we start with that broad base of PSAs who, as you note, 
there are far more of them and they have these relationships. 
When we are in a region the CSA and the PSA have to be very 
tightly coupled and they are very tightly coupled so that the 
CSA can draw upon that PSA's knowledge and relationships.
    Mr. Langevin. So where do we see the CSA work force going? 
Is that--are you working to increase that, so you have more of 
balance with the PSAs?
    Mr. Ozment. Yes, sir. We do very much need that CSA work 
force. The demand is just huge. So we will absolutely increase 
it. I don't know that we'll reach as large as PSA work force. I 
think some of that is we have to see how the demand evolves, 
but we are very much asking for an increase to 24 CSAs in the 
field in the fiscal year 2017 budget.
    Mr. Langevin. Thank you. I hope we are going to concentrate 
on that more.
    Thank you, Mr. Chairman I yield back.
    Mr. Donovan. The gentleman yields back. I thank the 
witnesses for their valuable testimony and the Members for 
their questions. The Members of the committee may have some 
additional questions for the witnesses. I would ask that you 
respond to those in writing.
    Pursuant to committee rule 7(e) the hearing record will be 
held open for 10 days. Without objection the subcommittee now 
stands adjourned.
    [Whereupon, at 11:17 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

       Questions From Chairman John Ratcliffe for Chris P. Currie
    Question 1. Given the focus of some DHS assessments on threats to 
specific regions, are there any U.S. cities or sectors that are 
examples of best practices in collaborating with and among DHS offices 
and components and other Federal partners in participating in 
assessments and taking actions to address vulnerabilities identified?
    Answer. DHS has taken steps in response to a past GAO 
recommendation that will help officials identify U.S. cities or sectors 
that have demonstrated best practices in collaborating with and among 
DHS offices and components and other Federal partners. Specifically, 
DHS uses follow-up surveys at facilities that have undergone 
vulnerability assessments and security surveys, including those that 
participate in Regional Resiliency Assessment Program (RRAP) projects, 
and has initiated a broader data-gathering effort with its RRAP 
critical infrastructure stakeholders to explore changes in diverse 
topics such as partnering and State actions based on RRAP participation 
in response to a recommendation we made to DHS in 2013.\1\ In August 
2015, the Office of Infrastructure Protection (IP) provided 
documentation to address this recommendation, including screen shots of 
an IP-developed SharePoint capability for tracking RRAP findings. This 
Tracker Tool contains questions about the status of RRAP principle 
findings, any action taken by RRAP participants, whether the action was 
taken due to the RRAP, and identification of the point of contact who 
can confirm this linkage. The data fields in the Tracker Tool will 
allow IP to identify the RRAPs and associated regions that were 
successful at bringing about resiliency improvements and the types of 
improvements that are more common across RRAPs.
---------------------------------------------------------------------------
    \1\ GAO, Critical Infrastructure Protection: DHS Could Strengthen 
the Management of the Regional Resiliency Assessment Program, GAO-13-
616 (Washington, DC: July 30, 2013).
---------------------------------------------------------------------------
    Question 2a. According to the GAO testimony, DHS established a 
policy in October 2014 to conduct quarterly reviews of programs related 
to critical infrastructure to better understand the barriers critical 
infrastructure owners and operators face in improving the security of 
their assets. What trends has DHS identified in declinations using its 
tracking system since October 2013?
    Has DHS identified barriers that critical infrastructure owners and 
operators face in making improvements?
    Question 2b. If so, what are those barriers?
    Answer. According to DHS's 2013 National Infrastructure Protection 
Plan, our Nation's well-being relies upon secure and resilient critical 
infrastructure. To achieve this, the National Plan calls for critical 
infrastructure partners to collectively identify priorities, measure 
progress, and adapt based on feedback and the changing environment, 
among other things. Therefore, it is imperative that DHS conduct 
regular reviews of its programs. In 2012, we reported that DHS could be 
missing an opportunity to measure performance associated with planned 
and in-process enhancements, and could better understand why certain 
improvements to securing critical infrastructure were, or were not 
made, following assessments.\2\ We reported that this information could 
help DHS to better understand what barriers owners and operators face 
in making improvements to the security of their assets. DHS began 
tracking additional information in response to our recommendations. 
Table 1 provides a snapshot of common reasons why facilities refused or 
were not selected to participate in an assessment from October 2013 
through September 2014--the last date for which DHS provided GAO data 
on this issue--which could prevent owners and operators of critical 
infrastructure from identifying and making needed improvements.
---------------------------------------------------------------------------
    \2\ GAO, Critical Infrastructure Protection: DHS Could Better 
Manage Security Surveys and Vulnerability Assessments, GAO-12-378 
(Washington, DC: May 31, 2012).

 TABLE 1.--COMMON REASONS WHY FACILITIES REFUSED OR WERE NOT SELECTED TO
  PARTICIPATE IN A DEPARTMENT OF HOMELAND SECURITY VOLUNTARY ASSESSMENT
                FROM OCTOBER 2013 THROUGH SEPTEMBER 2014
------------------------------------------------------------------------
                                                               Facility
                                                                Count
------------------------------------------------------------------------
Stakeholder believes the threat risk is low................           20
Facility is confident in its security posture..............           43
Facility point of contact requires coordination with                 172
 corporate office..........................................
Defense Industrial Base site--no data collection allowed...           47
Regulated facility--no data collection allowed.............           18
Nuclear site--no data collection allowed...................            5
Facility does not want to share its information with the              34
 Government................................................
Facility lacks a budget for implementing potential                    24
 recommended security improvements.........................
Facility point of contact lacks time to commit to an                  29
 assessment................................................
Facility not selected by Protective Security Advisor (PSA)           577
 for assessment due to resource constraints................
Facility not selected by PSA for assessment due to regional           94
 priorities................................................
PSA performed a security assessment at the facility                  188
 recently..................................................
Facility received a different vulnerability assessment                55
 recently..................................................
Facility not interested in assessment at this time but               349
 would consider future assessment..........................
Other......................................................          249
------------------------------------------------------------------------
Source: DHS data.

    Table 2 provides a snapshot of additional information DHS gathered 
from participants in its voluntary vulnerability surveys from October 
2013 through September 2014, the last date for which we received an 
update from DHS.

TABLE 2.--DEPARTMENT OF HOMELAND SECURITY VOLUNTARY ASSESSMENT FOLLOW-UP
     SURVEY RESPONSES, OCTOBER 2013 THROUGH SEPTEMBER 2014 NUMBER OF
                               FACILITIES
------------------------------------------------------------------------
                                                                My
                                                           Organization
                                                           Is Likely To
                                            Information    Integrate The
                                             Provided       Information
                                            Through The     Provided By
          Number of Facilities            Assessment Was  The Assessment
                                           Beneficial To     Into Its
                                                My            Future
                                           Organization     Security Or
                                                            Resilience
                                                           Enhancements
------------------------------------------------------------------------
Strongly Disagree.......................              54              38
Disagree................................               5               5
Neither Agree or Disagree...............              22              37
Agree...................................             287             399
Strongly Agree..........................             473             357
Not Applicable..........................              11              16
------------------------------------------------------------------------
Source: DHS data.

    In addition, 851 facility owners and operators responded to the 
question (checking all applicable responses), What are your 
organization's primary challenges with respect to implementing security 
or resilience enhancements?:
  <bullet> Lack of budget (651 responses)
  <bullet> Lack of project management resources (181 responses)
  <bullet> Differing strategic priorities (239 responses)
  <bullet> Plans to move or significantly change the facility (23 
        responses)
  <bullet> Local ordinances (28 responses)
  <bullet> Other (90 responses).

    According to a 2014 IP quarterly performance review document we 
reviewed, IP has plans that could address some of these barriers, 
including plans to update IP's web architecture to capture, report, and 
prioritize the technical assistance, training, and education needs of 
IP and its partners within the critical infrastructure community by the 
end of fiscal year 2020.
    Question 3a. One of the recommendations from your agency's work in 
2014 and 2015 stressed the need for DHS to develop an approach to 
ensure that vulnerability data gathered on critical infrastructure is 
consistently collected and maintained across DHS to identify gaps and 
prevent duplication of efforts.
    Do you have any recommendations on how to best standardize this 
data?
    Question 3b. Are there any ``best-in-class'' examples that can be 
leveraged to accelerate the achievement of the recommendation?
    Answer. According to the National Infrastructure Protection Plan 
managing risk, among other things, entails efficient information 
exchange through defined data standards and requirements, including an 
information-sharing environment that has common data requirements and 
information flow and exchange across entities. However, we reported 
that the lack of consistent, standardized data on the names and 
addresses of assets already assessed by DHS's offices and components 
inhibited the Department's ability to identify whether a given asset 
had been previously assessed by one office or component. Without 
consistent, standardized data, DHS was not positioned to readily 
identify potential duplication or overlap among assessments already 
conducted. Within DHS, the Office of Infrastructure Protection (IP) has 
begun, in response to GAO recommendations, some notable efforts to 
address data quality. These efforts include, among other things, a two-
phased automated quality assurance process that confirms that certain 
data elements have appropriate data, to include but not limited to: 
Ensuring phone numbers are 10 digits, geocoordinates and zip codes 
correlate to the associated county and State, and the assignment of 
unique identifiers. Accurately capturing this basic information in a 
standardized manner is an important first step in addressing gaps and 
to prevent duplication of effort. In addition, IP officials told us the 
office is planning pilot projects with a limited number of Sector-
Specific Agencies to identify critical infrastructure data elements 
that each agency may have a need for, after which appropriate policies 
for sharing those data elements can be established. With regard to 
``best-in-class'' examples that could be leveraged, in a January 2016 
report,\3\ we reported on leading practices for well-constructed data 
definitions derived from standards developed by the International 
Organization for Standardization (ISO).\4\ While not ``best-in-class'', 
these practices would be helpful for DHS to review in its efforts to 
identify ``best-in-class'' examples it could leverage as it 
standardizes its data.
---------------------------------------------------------------------------
    \3\ GAO, DATA Act: Data Standards Established, but More Complete 
and Timely Guidance Is Needed to Ensure Effective Implementation, GAO-
16-261 (Washington, DC: Jan. 29, 2016).
    \4\ The ISO is an independent, nongovernmental membership 
organization and the world's largest developer of voluntary 
international standards. It has published more than 20,500 
international standards covering a wide range of industries including 
technology, agriculture, and health care. For access to the ISO leading 
practices for the formulation of data definitions, published July 15, 
2004, see: http://standards.iso.org/ittf/PubliclyAvailableStandards/
c035346_ISO_IEC_11179-4_2004(E).zip.  ISO: This material is reproduced 
from ISO/IEC 11179-4:2004(E) with permission of the American National 
Standards Institute (ANSI) on behalf of the International Organization 
for Standardization. All rights reserved.
---------------------------------------------------------------------------
         Questions From Chairman John Ratcliffe for Andy Ozment
    Question 1. Given the focus of some DHS assessments on threats to 
specific regions, are there any U.S. cities or sectors that are 
examples of best practices in collaborating with and among DHS offices 
and components and other Federal partners in participating in 
assessments and taking actions to address vulnerabilities identified?
    Answer. There are many examples of best practices in collaboration 
at all levels. A few illustrative examples include the State of New 
Jersey, Salt Lake City, and the Energy Sector.
    State Partnerships--New Jersey.--The State of New Jersey's Office 
of Homeland Security and Preparedness (OHSP) has been a strong partner 
on a variety of infrastructure assessment activities. In 2009, the 
State participated in one of the first Regional Resiliency Assessment 
Program (RRAP) projects. The 2009 RRAP examined vulnerabilities and 
dependencies of a cluster of critical lifeline infrastructure located 
near Exit 14 of the New Jersey Turnpike in Newark. As part of the 
project, the State was provided with detailed modeling of 
interconnected water systems in northern New Jersey. Using the water 
model, New Jersey took steps to develop combined analytical products 
for the electrical and water systems to look at regional 
interdependencies between electricity and water, thereby strengthening 
the resilience of the Energy and Water Sectors. It also utilized the 
model to support information-sharing and exercise activities with the 
Water Sector. New Jersey is currently increasing security systems at 
two major water treatment plants. As a direct result of the RRAP 
project, the North District Water Supply Commission initiated a project 
to improve the resilience of the northern New Jersey water system 
infrastructure.
    Within this RRAP, DHS conducted its first 7 Cyber Resilience 
Reviews (CRR) ever, focusing on critical information technology 
services that underpinned these lifeline-sector partner's operations. 
The results of these cyber evaluations provided cybersecurity-focused 
options for improvement to each participating organization.
    Since 2009, the State has requested 3 additional RRAP projects. The 
first, in 2014, focused on complex infrastructure supporting the 
production and transportation of petroleum fuel. The findings were used 
to drive the New Jersey 2015 Hurricane Season Rehearsal Tabletop 
Exercise. Using the RRAP-provided information as its basis, the 
exercise explored improvements for information sharing between the 
State and the energy sector. In addition, the project delivered to the 
State and the Federal Emergency Management Agency's (FEMA) Region II 
office extensive geographic information system (GIS) products depicting 
petroleum and related infrastructure. The results support emergency 
response and recovery operations and planning.
    The second additional RRAP project, in 2015, is a collaborative 
effort with State partners from Delaware and Pennsylvania, and is 
focused on the resilience of ports along the Delaware River, 
specifically landside terminal operations and inter-modal distribution 
networks for these ports and marine terminals. The Resiliency 
Assessment report for the Delaware River project is with stakeholders 
for review at this time. Preliminary findings were presented to 
stakeholders in May 2016.
    The final additional RRAP project, started in 2016, is focused on 
the 6 largest wastewater treatment plants, the disruption of which 
could have cascading impacts across the State and into New York and 
Pennsylvania. With each of the RRAP projects, the State will receive 
Resilience Enhancement Options--actions they can take to improve 
resilience.
    Following the RRAP-related cyber evaluations in 2009, DHS began a 
continuing set of collaborative engagements with the State Chief 
Information Security Officer (CISO) and the State's infrastructure 
planners and preparedness coordinators. In 2011 and 2012, DHS provided 
a review of the State-wide strategic cybersecurity plan. DHS began 
participating in public-private partnership meetings and provided 
advice to the State on cybersecurity. The State requested information 
on DHS's Cyber Security Advisor (CSA) program. By 2014, the State hired 
its first State-employed CSA.
    City Partnerships--Salt Lake City, Utah.--Salt Lake City, Utah, is 
another consistently strong and active partner. The city received two 
RRAP projects in 2013 and 2015. The 2013 RRAP project analyzed the Salt 
Lake City area's health systems' critical infrastructure dependencies 
and interdependencies, specifically how they would be impacted by a 
major earthquake. The findings were used to inform emergency response 
plans, and prompted more detailed analysis of the region's health 
system dependencies. The 2015 project will provide Salt Lake City with 
an improved understanding of the various interconnected water and 
wastewater systems, and identify critical nodes and vulnerabilities.
    Sector Partnerships--Energy Sector.--DHS conducts regular 
engagements with all Sector-Specific Agencies (SSAs) which provide an 
opportunity to discuss on-going efforts and share best practices. Many 
of the findings resulting from the different types of assessments are 
incorporated as part of best practices and reference resources that are 
disseminated though multiple outreach mechanisms. The RRAP in 
particular, given its collaborative approach to assessment of specific 
critical infrastructure within a designated geographic area and a 
regional analysis of the surrounding infrastructure, lends itself to 
capitalizing on sector partnerships. The RRAP team participates in SSA 
coordination calls to inform them of upcoming projects, and includes 
the SSAs in its annual RRAP kickoff where they have the opportunity to 
provide input. SSAs are relied upon by the RRAP team to provide insight 
into the operations and vulnerabilities of infrastructure, as well as 
to connect the RRAP project teams to relevant private industry and 
Government contacts who can assist in the assessment and analysis.
    The Department of Energy (DOE) has been a close partner, providing 
insights into the industry, key contacts, and access to useful DOE 
resources. DOE and the Transportation Security Administration were both 
involved in the 2012 regional pipelines RRAP project. The Department of 
the Interior has been supporting the on-going 2016 Gulf of Mexico 
project with oil production information and GIS data.
    Through these RRAP projects, DHS is helping the Oil and Natural Gas 
(ONG) sector better understand operational dependencies and to improve 
coordination with Government emergency management officials. Federal, 
State, and local emergency management officials play an important role 
in responding to incidents affecting the ONG sector.
    An additional example can be found in the joint DHS and DOE study 
on the impacts of electromagnetic pulse (EMP) and Geomagnetic 
Disturbance Events (GMD) on the electric grid. This study will analyze 
the hazard environments, impacts, and consequences of different sources 
of EMP and GMD. Events of concern and potential means of mitigation 
will be better understood.
    Federal Partnerships--Cybersecurity.--The role of cyber emergency 
preparedness, threat and asset response, risk management and best 
practice promotion, and information sharing in supporting resilient 
infrastructure operations cannot be understated. Cyber Security 
Advisors (CSAs) began working with the Coast Guard through 
participation in Area Maritime Security Committees (AMSC) starting in 
2010, acting in many situations as an architect for AMSC cyber working 
groups and subcommittees. In 2011, DHS assisted the Coast Guard's 
Pittsburgh Marine Safety Unit, via its AMSC. The CSA on the AMSC cyber 
subcommittee helped to draft a 2-year strategic charter, laying out 
objectives for private-sector partners to develop and test cyber 
incident notifications, response coordination, and lesson-learned 
collections. Since 2011, CSAs have worked with nearly 12 AMSCs.
    NPPD has helped to amplify the cyber emergency coordination efforts 
of the Federal Emergency Management Agency (FEMA). In 2015 and 2016, 
NPPD coordinated with FEMA Regional Interagency Steering Committees and 
engaged FEMA partners through cyber preparedness workshops and 
cybersecurity symposiums. Most recently, NPPD supported FEMA Region III 
with a 2-day, cyber preparedness symposium and DHS personnel moderated 
and sat for multiple panels alongside Federal, State, and private-
sector cybersecurity officials.
    As far back as 2009, NPPD began supporting the U.S. Secret Service 
(USSS) Critical Systems Protection efforts related to National Special 
Security Events. This coordination added a focus on cyber preparedness, 
joint IT operations coordination, and asset response coordination 
(i.e., ensuring the availability of technical mitigation resources for 
cyber attacks and incidents). In addition, NPPD assisted in the 
inauguration of several USSS Electronic Crimes Task Forces, to 
demonstrated not only a unity of effort in Federal preparedness and 
response but to bridge cyber crime and infrastructure resilience 
issues, specific to cyber planning, coordination, and best practice 
adoption.
    Question 2a. According to the GAO testimony, DHS established a 
policy in October 2014 to conduct quarterly reviews of programs related 
to critical infrastructure to better understand the barriers critical 
infrastructure owners and operators face in improving the security of 
their assets. What trends has DHS identified in declinations using its 
tracking system since October 2013?
    Has DHS identified barriers that critical infrastructure owners and 
operators face in making improvements?
    Question 2b. If so, what are those barriers?
    Answer. The quarterly program review process collects a broad range 
of information from across the Office of Infrastructure Protection 
(IP), and is a mechanism for improving data driven decision making. The 
assessment portfolio is one area of information collected.
    In fiscal year 2015, approximately 88% of facilities where IP 
conducted an Infrastructure Survey Tool (IST) assessment reported they 
were likely to integrate, or have integrated, some of the protective 
measures detailed in the assessment report. This is up from 86% in 
fiscal year 2014 and 85% in fiscal year 2013. Four thousand four 
hundred sixteen ISTs have been conducted since fiscal year 2010. The 
most common improvements include enhancements to electronic security 
systems, security force, and security management. This kind of action 
is one important indicator of the impact that our assessments have on 
the security and resilience of infrastructure, but does not provide a 
perfect measure of the overall state of preparedness.
    When stakeholders are interested in accepting IP's recommendations, 
the barriers that preclude them from making those changes include:
  <bullet> Cost-prohibitive capital investments;
  <bullet> Lack of project management resources;
  <bullet> Differing strategic priorities;
  <bullet> Plans to move or significantly change the facility;
  <bullet> Local ordinances.
    When partners decline IP services and capabilities, the most common 
reasons cited include:
  <bullet> Facility isn't interested in assessment at the initial time 
        of contact but indicated they would consider future survey;
  <bullet> The facility has had a recent security assessment, either 
        performed by the PSA or through another vulnerability 
        assessment;
  <bullet> Point of Contact (POC) requires coordination with corporate;
  <bullet> POC lacks time to commit to assessment;
  <bullet> Facility is confident in its security posture;
  <bullet> Facility does not want to share its information with the 
        Government;
  <bullet> The facility does not allow data collection because it's a 
        regulated facility, nuclear facility, or defense industrial 
        base facility;
  <bullet> Facility lacks a budget for implementing potential 
        recommended security improvements; or
  <bullet> Stakeholder believes the threat risk is low.
    To formalize its response to these trends, NPPD is working to 
develop a 3-year Strategic Plan for Assessments conducted by IP to 
determine how it can enhance the value of its assessment portfolio for 
stakeholders, to include addressing physical and cyber convergence in 
assessments. The 3-year strategic plan will:
  <bullet> Articulate the strategic intent of IP's assessments;
  <bullet> Define specific goals to guide prioritization, maturation, 
        management, and use of IP's assessments;
  <bullet> Clarify opportunities for collaboration between IP 
        assessments and OCIA analyses;
  <bullet> Articulate mechanisms to assist the Federal Emergency 
        Management Agency (FEMA) and other agencies in risk assessments 
        supporting grant allocation decisions; and
  <bullet> Provide a plan to develop and use performance metrics for 
        program management and reporting processes.
    This plan will guide how PSA-led assessments support stakeholders, 
contribute to a National understanding of risk, and support National 
preparedness planning. The CSA program will identify improvements by 
drawing upon this plan and its lessons learned.
    Question 3. According to President Policy Directive 41 (PPD-41) 
Section V, ``The Department of Homeland Security, acting through the 
National Cybersecurity and Communications Integration Center, shall be 
the Federal lead agency for asset response activities,'' as defined by 
the PPD. Do CSAs have any other cyber-related responsibilities that are 
not included in PPD-41 that are carried out by the NCCIC?
    Answer. Presidential Policy Directive 41 (PPD-41) sets forth 
principles governing the Federal Government's response to any cyber 
incident and, for significant incidents, establishes lead Federal 
agencies and an architecture for coordinating the broader Federal 
Government response. The Department of Homeland Security, through our 
experts at the National Cybersecurity and Communications Integration 
Center (NCCIC), act as the Federal lead agency for asset response. 
Asset response includes helping a victim find the bad actor on its 
system, repair its system, patching the vulnerability, reducing the 
risks of future incidents, and preventing the incident from spreading 
to others.
    Cyber Security Advisors (CSAs) do not themselves typically engage 
in asset response activities, especially asset response activities 
beyond those related to coordinating with relevant entities and 
providing advice on how to best use Federal resources. While CSAs may 
support the NCCIC role in cyber incident response by serving as field-
based support elements, CSAs focus most of their resources on cyber 
preparedness and protective activities. CSAs engage private-sector 
companies and State, local, Tribal, and territorial (SLTT) governments 
prior to an incident to help them develop and assess their cyber 
incident response plan. In an incident, the primary role of a CSA is to 
connect the victim or potential targets with the resources of the 
NCCIC.
    Question 4a. Dr. Ozment, can you advise us on the developmental and 
training plans for the CSAs to ensure that field-based personnel have a 
diverse cyber experience with computer engineering skills and are well-
versed in cyber incident response activities with a solid working 
knowledge of the NCCIC and its capabilities, services and personnel?
    Answer. Cyber Security Advisors (CSAs) are hired based on subject-
matter expertise in Information Technology (IT) Security, Operations, 
and Management--to include proficiency with IT security program and 
project management, evaluation and assessment, technical communications 
and presentation, and system and network administration skills. Each 
CSA has unique training needs identified as they onboard and progress 
through their career. This includes an orientation and regular 
information on National Cybersecurity and Communications Integration 
Center (NCCIC) services available to customers.
    Cybersecurity skills underlying CSA activities are identified, 
mapped to, and managed against workforce education initiatives and 
opportunities for cybersecurity awareness, training, and education. 
Additionally, a robust training and certification program is available 
to CSAs. This includes training in Information Security, Ethical 
Hacking and Penetration Testing, Networking, Industrial Control Systems 
Cybersecurity, and Risk Management.
    Question 4b. How are you ensuring the CSAs are fully integrated 
with both the NCCIC and US-CERT? Are there plans to rotate the CSAs 
through the NCCIC and US-CERT to ensure they have the technical and 
incident response expertise?
    Answer. Cyber Security Advisors (CSAs) are critical, field-based 
personnel with a sound understanding of the National Cybersecurity and 
Communications Integration Center (NCCIC). CSAs are a local resource 
for private-sector companies and SLTT partners. As such, CSAs often 
become the first element of NCCIC customer management: Coordinating 
incident response requests, facilitating requests for information, such 
as best practices and technical evaluations, routing requests for 
operational partnership, or access to technical threat analysis and 
vulnerability mitigation products. As the CSA program adds additional 
personnel, we will explore the possibility of rotations back to 
headquarters, to include rotations the NCCIC.
    However, the CSAs are not hired for the skillset of technical 
incident response, nor should they be. There are many different 
skillsets in cybersecurity. The CSA skillset is intended to match more 
closely the skillset of a Chief Information Security Officer (CISO) or 
a CISO's policy, compliance, and metrics team. A CSA should be able to 
help a company develop a security program, identify gaps, provide 
strategic advice, and connect that company with services available from 
the Federal Government, particularly the NCCIC.
    Question 4c. How will you ensure that CSAs and their cyber outreach 
and engagement activities are fully integrated into the rest of CS&C's 
cyber efforts before, during, and after cyber incidents?
    Answer. CSAs are not focused on cyber incident response: Their 
primary role is on prevention and preparedness.
    There have been very few instances, due to the small number of 
Cyber Security Advisors (CSAs), where a CSA had a prior engagement with 
a private-sector company or State, local, Tribal, and territorial 
(SLTT) partner, and that same partner experienced a cyber incident. In 
these few cases, CSAs were generally the first point of notification by 
the victim. CSAs determined the situational information surrounding the 
event and the victim's basic needs for assistance.
    Under these limited instances, after an incident, CSAs also 
provided direct process improvement guidance on the cyber incident 
process and worked to identify cyber preparedness and best practice 
efforts for consideration by the victim's cyber program planning, 
operations procedures, and resource allocations.
    Question 5. Has DHS identified any best practices in assessing and 
addressing vulnerabilities from threats and hazards that our Nation's 
critical infrastructure owners and operators face, and if so, has DHS 
shared these practices with other critical infrastructure partners to 
help them be more prepared?
    Answer. The National Protection and Programs Directorate (NPPD) is 
a clearing house for best practices and lessons learned, which are 
continuously gathered through Protective Security Advisor (PSA) and 
Cyber Security Advisor (CSA) engagements and then shared with critical 
infrastructure partners.
    PSA-led and CSA-led assessments produce a dashboard and/or a report 
that assist stakeholders in identifying key considerations for 
enhancing the security and resilience. The dashboards provide a 
comparative analysis an entity's security and resilience, including a 
high, low, and median score comparison. The reports contain a written 
analysis of the assessments key findings. This includes documenting 
vulnerabilities and identifying corresponding options for owner and 
operators. These options are, in effect, best practices that have been 
observed and compiled since 2009. Reports also document ``commendable'' 
items when an entity has already implemented best practices.
    As a result of PSA and CSA support to special events and domestic 
incidents, we collect after-action reports and lessons learned. In 
addition, DHS is drafting an ``Effective Practice'' document that will 
identify documented best protective measure practices.
    NPPD works with critical infrastructure partners to assess areas of 
concern and potential vulnerability gaps. These findings inform the 
development of best practices for consideration by owners and 
operators. A sampling includes:
    Suspicious Activity Videos.--(https://www.dhs.gov/gallery/
infrastructure-protection) provide information on identifying and 
reporting suspicious activity and threats in different environments and 
scenarios, including:
  <bullet> Check It! (Bag search procedures for public venues);
  <bullet> What's in Store: Ordinary People/Extraordinary Events 
        (Retail);
  <bullet> No Reservations: Suspicious Behavior in Hotels (Lodging); 
        and
  <bullet> Options for Consideration (Active Shooter).
    On-line Training Courses.--Self-paced courses (offered through the 
Federal Emergency Management Agency's (FEMA) Emergency Management 
Institute (EMI) https://training.fema.gov/emi.aspx) designed for both 
people who have emergency management responsibilities and for the 
general public. All are offered free-of-charge. DHS has partnered to 
produce courses in active shooter, surveillance awareness, and more. 
Each course, listed below, takes approximately 45 minutes to complete.
  <bullet> IS-906 Workplace Security Awareness;
  <bullet> IS-907 Active Shooter: What You Can Do;
  <bullet> IS-912 Retail Security Awareness--Understanding the Hidden 
        Hazards;
  <bullet> IS-914 Surveillance Awareness: What You Can Do;
  <bullet> IS-915 Protecting Critical Infrastructure Against Insider 
        Threats; and
  <bullet> IS-916 Critical Infrastructure Security: Theft and 
        Diversion--What You Can Do.
    For those involved in the security of industrial control systems, 
the National Cybersecurity and Communications Integration Center offers 
several cybersecurity courses. These courses can be accessed at: 
https://ics-cert.us-cert.gov/Training-Available-Through-ICS-CERT.
    Through our Federal Virtual Training Environment (FedVTE) we offer 
more than 800 hours of on-line, on-demand training on cybersecurity 
topics such as ethical hacking and surveillance, risk management, and 
malware analysis. Course proficiency ranges from beginner to advanced 
levels, and several of the courses align with Information Technology 
certifications such as Network+, Security+, and Certified Information 
Systems Security Professional. FedVTE has been available to Federal, 
State, local, Tribal, and territorial Government employees. 
Additionally, we've teamed up with the non-profit organization Hire Our 
Heroes to provide U.S. veterans with free access to FedVTE.
    Hands-on Training.--In addition to on-line training courses, EMI 
provides two Integrated Emergency Management Courses (IEMC) that 
provide exercised-based training events to local and county 
communities, based upon the community's Threat and Hazard 
Identification and Risk Assessment (THIRA) and Emergency Operations 
Plan. IEMCs are a combination of classroom lectures, discussions, 
small-group planning sessions, and functional exercises which expose 
participants to new ideas, and increase their awareness of the 
necessary coordination among other agencies and organizations. For the 
exercises, each participant is assigned a role similar to their real-
life position in an emergency operations center (EOC).
  <bullet> E0912.--Preparing Communities for a Complex Coordinated 
        Attack IEMC: Community-Specific; and
  <bullet> E0930.--IEMC: Community-Specific.
    NPPD provides hands-on training to private-sector critical 
infrastructure partners. For example, the National Cybersecurity and 
Communications Integration Center provides intermediate and advanced 
training classes on cybersecurity for industrial control systems 
through regional classroom training on a quarterly basis. Notably, 
these offerings include an advanced training offered at our facility in 
Idaho Falls. This 1-week course includes a two-team activity that lasts 
for half a day. The red team attacks and the blue team defends a small 
critical infrastructure facility we built.
    Protective Measures Guides: FOUO guides that assist owners and 
operators in planning and managing security at their facilities. Guides 
exist for:
  <bullet> Sports Leagues (2008--being updated);
  <bullet> Lodging (2010);
  <bullet> Outdoor Venues (2011); and
  <bullet> Commercial Real Estate (2013).
    Evacuation Planning Guides for Stadiums and Major Events.--Assists 
stadium owners and operators with preparing evacuation plans and 
helping to determine when and how to evacuate, shelter-in-place, or 
relocate stadium spectators and participants.
    Patron Screening Best Practices Guide.--Provides suggestions and 
best practices for developing and implementing patron screening 
procedures at public assembly venues.
    Sports Venue Bag Search Procedures Guide.--Provides suggestions for 
developing and implementing bag search procedures at sporting event 
venues hosting major sporting events. The purpose for establishing bag 
search procedures is to control items that are hand-carried into the 
sports venue. The bag search procedures should be a part of the venue's 
overall security plan and should be tested and evaluated as outlined in 
the security plan. The actual implementation of bag search procedures 
and level of search detail will depend upon the threat to the venue as 
determined by the venue's security manager.
    Sports Venue Credentialing Guide.--Provides suggestions for 
developing and implementing credentialing procedures at sporting event 
venues that host professional sporting events. The purpose for 
establishing a credentialing program is to control and restrict access 
to a sports venue, and to provide venue management with information on 
those who have access. Credentialing can also be used to control and 
restrict vehicle movement within a venue.
    Additionally, IP offers information and resources founded in best 
practices to support critical infrastructure partners in the 
identification and assessment of vulnerabilities and the adoption of 
mitigating measures through the IP Digital Library, which is offered 
through the IP Gateway. Through the IP Digital Library, Federal, State, 
and local critical infrastructure partners can access sector-specific 
materials relating to various industry best practices; Information-
sharing resources, practices, and protocols; applicable Standards; 
sector-specific resilience reports; and other research and analytic 
materials relating to critical infrastructure protection and 
resilience. The Digital Library also features the Infrastructure 
Protection Report Series (IPRS) which highlight common vulnerabilities 
and potential indicators for specific subsets of critical 
infrastructure systems, clusters, and assets.
    On the cyber side, DHS participated in the development of the 
National Institute for Standards and Technology's (NIST) Cybersecurity 
Framework, a key resource for best practices. The Critical 
Infrastructure Cyber Community Voluntary (C3VP) was created to help 
improve the resiliency of critical infrastructure's cybersecurity 
systems by promoting the use of the Framework. Reference materials and 
assessment tools targeted to stakeholder groups can be found on-line: 
https://www.us-cert.gov/ccubedvp. Additionally, DHS shares information 
among public and private-sector partners to build awareness of 
vulnerabilities, incidents, and mitigations. Cyber and industrial 
control systems users can subscribe to information products, feeds, and 
services at no cost. For example, the Cyber Resilience Review 
Implementation Guide series is publicly available at the US-CERT 
website to help organizations systematically address gaps in management 
that often lead to vulnerabilities. The ICS-CERT website contains 
alerts, advisories, and other products for critical infrastructure 
owners and operators. These resources can be found at: https://www.us-
cert.gov and https://ics-cert.us-cert.gov/.
    In fiscal year 2016, IP initiated a ``Connect, Plan, Train, and 
Report'' campaign that is rooted in best practices to assist public and 
private stakeholders proactively think about the role they play in the 
safety and security their environment. In support of this effort, we 
consolidated a number of key tools and resources for small and medium 
venues as well as public-sector partners, on www.dhs.gov/hometown-
security. PSAs are actively engaged in this messaging campaign, and we 
have developed a simple information card they can hand out to 
stakeholders. We have also been able to share this messaging through 
the Secretary's and other DHS senior leadership engagements.
    Question 6. Dr. Ozment, how do the CSAs currently leverage, or plan 
to leverage, the existing field relationships that already exist 
between the private sector and Secret Service or the FBI?
    Answer. Cyber Security Advisors (CSAs) regularly engage with a 
number of Federal field offices, including: The Federal Bureau of 
Investigation, U.S. Secret Service, Homeland Security Investigations, 
U.S. Coast Guard, Federal Emergency Management Agency (FEMA), and other 
partners in the field. In the case of FEMA, as noted in the 
Department's response to Congressman Ratcliffe's QFR No. 1, CSAs work 
with several FEMA Regions to help jurisdictions prepare for potential 
physical consequences during and after a cyber incident. In addition, 
CSAs leverage their relationships to assist with introductions to 
owners and operators of critical infrastructure. However, each of these 
agencies have relationships with the private sector that differ from 
those created by a CSA. CSA engagements with private-sector companies 
are voluntary, not law enforcement or regulatory. CSAs focus on cyber 
preparedness, best practice promulgations, and incident planning. While 
CSAs leverage those existing mechanisms, for instance to prepare 
cybersecurity practitioners to work with cyber threat and incident 
response partners, the CSA mission has a focus not currently replicated 
within the Federal Government.
    Question 7. Can you walk us through a day in the life of a CSA? At 
this stage in the program's evolution, I think it will be helpful for 
us to understand how much of their time is focused on making new 
connections, following-up on existing relationships, conducting 
assessments, etc.
    Answer. Upon initial assignment to a region, new Cyber Security 
Advisors (CSAs) spend significant time forming relationships with 
existing Federal, State, and infrastructure sector partners, and 
building holistic approaches to cyber infrastructure protection and 
resilience. CSAs look for opportunities to augment what are typically 
general cyber threat, incident response, and crisis management 
activities, with a full spectrum of cyber preparedness, risk 
mitigation, and incident planning activities--covering cyber asset 
identification, protection, detection, response, and recovery 
practices. As CSAs build competence with partner and individual 
engagement activities, CSAs lead cybersecurity evaluation activities; 
deliver cyber process improvement and best practice adoption 
activities; deliver cyber preparedness and planning workshops and 
presentations; attend meetings to advise cybersecurity leaders in 
State, local, Tribal, and territorial (SLTT) agencies and private-
sector companies; augment cybersecurity awareness, education, and 
exercise programs; support cyber threat and vulnerability-focused 
outreach initiatives; work to enhance operational capabilities and 
capacity within cyber communities-of-interest; advising on SLTT cyber 
policy and resource activities; and supporting other Federal agency and 
Sector-Specific Agency cyber engagements.
    Question 8. When a cyber incident occurs on an entity that 
previously engaged with a CSA, what are the roles and responsibilities 
of that CSA during and after an incident? How is that CSAs previous 
relationship leveraged during and after an incident?
    Answer. Cyber Security Advisors (CSAs) are not focused on cyber 
incident response: Their primary role is on prevention and 
preparedness.
    There have been very few instances, due to the small number of 
CSAs, where a CSA had a prior engagement with a private-sector company 
or State, local, Tribal, and territorial (SLTT) partner, and that same 
partner experienced a cyber incident. In these few cases, CSAs were 
generally the first point of notification by the victim. CSAs 
determined the situational information surrounding the event and the 
victim's basic needs for assistance.
    Under these limited instances, after an incident, CSAs also 
provided direct process improvement guidance on the cyber incident 
process and worked to identify cyber preparedness and best practice 
efforts for consideration by the victim's cyber program planning, 
operations procedures, and resource allocations.
    Preparedness Data--Cyber Security: In the Threat and Hazard 
Identification and Risk Assessment (THIRA) process, States, 
territories, urban areas, and Tribes identify their threats and hazards 
of greatest concern and set capability targets that define success in 
each core capability. States and territories then complete a State 
Preparedness Report (SPR) to assess their current capabilities relative 
to their THIRA targets.
    In the 2015 THIRA, 80 percent of States and territories included a 
cyber attack as a threat or hazard of primary concern, the highest 
percentage of all threats and hazards. In the SPR, States and 
territories identified cybersecurity as their lowest-rated capability; 
Only 13 percent of State and territory responses were identified as 
proficient (4 or 5 rating on 5-point scale). States and territories 
have identified cybersecurity as their lowest-rated capability for 5 
consecutive years.
    Question 9. What are the specific metrics by which the 
effectiveness of the CSA program and the assessment tools used by a CSA 
are (or will be) measured?
    Answer. Due to the small number of Cyber Security Advisors (CSAs) 
at this time (less than 5), program effectiveness is currently measured 
against limited factors. These include qualitative factors such as how 
partners engaged in CSA outreach, working groups, and assessments. CSAs 
report on levels of community planning toward best practices and 
produce yearly analysis of partner cyber readiness, to include factors 
based upon capability, capacity, and maturity. Measures and metrics for 
cyber assessment effectiveness are based upon the direct solicitation 
and receipt of feedback from evaluation.
    Questions From Ranking Member Cedric L. Richmond for Andy Ozment
    Question 1. DHS has issued a Notice of Suspension and Modification 
of Certain Submission Requirements for Chemical Facilities of Interest 
and Covered Chemical Facilities Under Agency Regulations (81 FR 47001) 
to inform the public that the requirement to submit vulnerability 
assessments and other applications would be suspended until October 1, 
2016 to allow the Infrastructure Security Compliance Division (ISCD) an 
opportunity to transition to ``CSAT 2.0''--an updated risk-tiering tool 
that will make much-needed improvements to the existing risk assessment 
methodology. The Notice provides that, once implemented, facilities 
will be individually notified to re-submit applications using CSAT 2.0. 
Notification will be phased. Which facilities will be notified first, 
and how will facilities be staggered (i.e., by Tier? Location? Date of 
original submission?)
    When does ISCD expect to complete these notifications?
    Answer. The Department intends to notify a broad cross-section of 
the regulated community during the initial batch notification in order 
to allow us to more quickly assess the actual impacts of the updated 
tiering methodology and CSAT Top-Screen application on all portions of 
the regulated community. The initial notification batch will include 
both tiered and untiered facilities, across the country. Subsequent 
notification batches are expected to include a cross-section of the 
regulated community although batch composition may be adjusted, as 
lessons are learned, during the review of the initial Top-Screen 
submissions. The Department currently envisions notifying batches 
consisting of between 500 to 1,000 facilities every 2 weeks, with all 
chemical facilities of interest anticipated to have received 
notification by the end of fiscal year 2018.
    Question 2. The planned roll-out of CSAT 2.0 will necessarily 
involve a high volume of facilities re-submitting applications within a 
very short time frame. Does ISCD have systems, processes, and personnel 
in place to review these resubmissions expeditiously and in a way that 
does not result in administrative backlog (as seen in past years)?
    Answer. DHS is implementing a phased approach for reaching out to 
the facilities. The phased approach decision was made in part to reduce 
the likelihood of an administrative backlog, and was based on existing 
Infrastructure Security Compliance Division resource levels and 
information technology capabilities. Additionally, as DHS receives and 
reviews Top-Screens and issues high-risk determinations, DHS will 
evaluate the length of time for each step and make adjustments, as 
needed, to help prevent an administrative backlog.
    Question 3. On page 47002, the Notice explains that chemical 
facilities of interest, including facilities previously determined not 
to be high-risk, will be among the facilities notified of the 
requirement to re-submit applications using CSAT 2.0. Another section 
provides that un-tiered facilities will not be notified or subject to 
the re-submission requirement. Please provide more clarity on which 
facilities will be notified, particularly with regard to facilities 
that may have been found not to present a high level of risk in the 
past but should be reconsidered against the updated tiering 
methodology.
    Answer. All chemical facilities of interest, including facilities 
previously determined not to be high-risk, will be required to submit a 
Top-Screen using the revised CSAT 2.0 Top-Screen application unless 
they fall into 1 of the 4 categories of facilities enumerated in 
Section IV of the Department's Federal Register Notice. 81 FR 47002. 
The 4 categories enumerated in Section IV are as follows:
  <bullet> Agricultural Production Facilities, as defined in 73 FR 
        1640, or any facility subject to a similar extension issued by 
        the Department for submitting a Top-Screen;
  <bullet> Chemical facilities of interest whose only reportable 
        chemical of interest is present in a gasoline mixture;
  <bullet> Facilities that are statutorily excluded from CFATS which 
        include: (A) Facilities regulated under the Maritime 
        Transportation Security Act of 2002 (Pub. L. 107-295; 116 Stat. 
        2064); (B) public water systems, as that term is defined in 
        section 1401 of the Safe Drinking Water Act (42 U.S.C.  300f); 
        (C) Treatment Works, as that term is defined in section 212 of 
        the Federal Water Pollution Control Act (33 U.S.C.  1292); (D) 
        facilities owned or operated by the Department of Defense or 
        the Department of Energy; or (E) facilities subject to 
        regulation by the Nuclear Regulatory Commission, or by a State 
        that has entered into an agreement with the Nuclear Regulatory 
        Commission under section 274(b) of the Atomic Energy Act of 
        1954 (42 U.S.C.  2021(b)) to protect against unauthorized 
        access of any material, activity, or structure licensed by the 
        Nuclear Regulatory Commission); and
  <bullet> Untiered facilities that previously submitted a Top-Screen 
        with no Chemicals of Interest (COI) selected (i.e., facilities 
        that have informed the Department they no longer possess a 
        reportable amount of any COI), so long as the facility has not 
        come into possession of a reportable amount of COI since 
        submitting their previous Top-Screen.
    Question 4. Months before the July 20, 2016 notice in the Federal 
Register, ISCD circulated a statement about the suspension to ``the 
regulated population and industry associations to ensure maximum 
dissemination.'' Why was the committee not included in this 
correspondence? How will ISCD ensure that the committee is kept 
apprised of the status and progress of the CSAT 2.0 transition?
    Answer. In this case, the Department notified the committee 
separately of the forthcoming suspension rather than include committee 
Members or staff on the communication to the regulated population and 
industry associations. The Department provided this notice to the 
committee, via e-mail to multiple committee staff members, on June 21, 
2016, 1 day after telephonically informing the Chemical and Oil and 
Natural Gas Sector Coordinating Councils (SCCs) of the forthcoming 
suspension, and prior to providing written notification to the SCCs. In 
the future, the Department will ensure that it informs the committee 
via phone or e-mail of any major programmatic activities, such as the 
decision to temporarily suspend Top-Screen submission requirements, 
and, as always, the Department is able to provide briefings to the 
committee on any aspect of CFATS, including the CSAT 2.0 transition, 
upon request.
      Questions From Chairman John Ratcliffe for Caitlin Durkovich
    Question 1. Ms. Durkovich, we are all aware that the majority of 
the programs provided by the Office of Infrastructure Protection to 
owners and operators of critical infrastructure are voluntary in 
nature. Because of this it is incumbent on DHS to promote and market 
the value of its services. As I mentioned in my statement, the DHS 
website for critical infrastructure vulnerability assessments has 
conflicting and outdated programs.
    While a few minor corrections can remediate a website, those errors 
lead to a larger question of how NPPD is communicating the value-added 
proposition to critical infrastructure owners and operators. Can you 
please discuss how NPPD currently communicates the value of these 
voluntary programs to the private sector?
    Answer. Through the National Protection and Programs Directorate's 
(NPPD) strategic engagement efforts, we take a proactive approach to 
ensure that the full range of available tools, capabilities, and 
resources are well understood by our customers, including the Federal 
Government; State, local, Tribal, and territorial governments; and 
private-sector entities. Our customer engagements include outreach by 
our field-based Protective Security Advisors and Cyber Security 
Advisors. At the National level, NPPD collaborates through the National 
Infrastructure Protection Plan (NIPP) Council, consisting of public and 
private-sector entities to identify requirements and build capabilities 
for mitigating risks. Examples include assessments, intelligence 
products, and information-sharing platforms.
    In addition, NPPD works with organizations across the country to 
disseminate targeted information on voluntary programs available to 
critical infrastructure owners and operators. Recent examples include 
keynotes and panel participation at events such as the National Sports 
Safety and Security Conference, Retail Industry Leaders Association 
Forum, National Homeland Security Conference, Corporate Security 
Symposiums, the National Conference on Building Resilience through 
Public-Private Partnerships, and the Domestic Security Alliance Council 
conference.
    NPPD also hosts forums with our many partners utilizing the 
Critical Infrastructure Partnership Advisory Council (CIPAC) where 
stakeholders provide direct feedback. This translates into actionable 
capabilities available at the regional, State, and local levels to 
include assessments, exercises, and workshops. These include the 
Active-Shooter Preparedness Program, the Homeland Security Information 
Network-Critical Infrastructure portals, the Private-Sector Clearance 
Program, and education and training resources.
    These capabilities are actively represented by the Protective 
Security Advisors (PSAs) and Cyber Security Advisors (CSAs) who work 
directly with critical infrastructure owners and operators every day. 
In fiscal year 2015, PSAs conducted 2,131 Enhanced Critical 
Infrastructure Protection visits. These visits provide critical 
infrastructure owners and operators with information on their facility, 
explain how their facility fits into its critical infrastructure 
sector, and provide an overview of resources available to enhance the 
facility's security and resilience. Similar information is delivered 
during PSA speaking engagements, panels, webinars, and meetings.
    In fiscal year 2015, the 5 CSAs conducted 468 cybersecurity 
engagements. On-average 90 were conducted by each CSA within their 
assigned region and 13 were performed by a CSA outside of their 
assigned region. These engagements encompass all evaluations, cyber 
protective visits, workshops, resource briefings, and speaking 
engagements. Engagements focus on assessment, planning, and promotion 
of cyber preparedness, risk mitigation, and asset response 
coordination.
    Question 2. In responding to an incident, what are the roles and 
responsibilities of a PSA and how do they engage with the lead agency 
as the situation is developing and post-incident?
    Answer. As part of the National Planning Frameworks and Federal 
Interagency Operational Plans, the Protective Security Advisors (PSAs) 
support response, recovery, and reconstitution efforts during 
incidents. During an incident, the PSAs deploy to the Joint Field 
Offices; National and Regional Response Coordination Centers (RRCC); 
and regional, State, and county Emergency Operations Centers (EOCs) as 
necessary to support Federal and State emergency response officials, to 
include the Federal Coordinating Officer and the Unified Command Group. 
They serve as Infrastructure Liaisons by providing expert knowledge of 
the impacted infrastructure; maintaining communications and information 
sharing with owners and operators of critical infrastructure; and 
prioritizing and coordinating response, recovery, and reconstitution 
efforts. Specific to Emergency Support Functions (ESFs), PSAs provide 
direct support to lead agencies by leveraging established relationships 
with owners and operators of critical infrastructure. For example, 
under ESF-12, a PSA would support the Department of Energy with 
reestablishment of damaged energy systems and components. PSAs often 
assist with connecting owners and operators with appropriate agencies.
    Question 3. What are the specific metrics by which the 
effectiveness of the PSA program and the various assessment tools are 
measured?
    Answer. Quarterly and end-of-year performance measures are 
submitted under the Government Performance and Results Act (GPRA). One 
of these measures includes the percentage of critical infrastructure 
facilities that are likely to enhance their security and resilience by 
integrating Infrastructure Protection (IP) vulnerability assessments or 
survey information. Providing facilities with vulnerability information 
allows them to understand and reduce their risk. In fiscal year 2016 
Q3, 90% of facilities reported they were likely to integrate, or have 
integrated, some of the protective measures detailed in their 
assessment report.
    For fiscal year 2016, IP has delivered 507 Infrastructure Survey 
Tool (IST) dashboards to owners and operators. The IST provides 
Protective and Resilience Measures Indices for facility owners and 
operators and identifies physical security, security management, 
protective measures, information sharing, dependencies, and 
capabilities related to preparedness, mitigation, response, resilience, 
and recovery. Performance is measured against a delivery of 600 IST 
surveys by September 30, 2016.
    The Regional Resiliency Assessment Program (RRAP) is measured by 
primary stakeholders that have implemented, planned to implement, or 
are in the process of implementing at least one security or resilience 
enhancement related to RRAP Key Findings within 3 years following the 
publication of the final RRAP report. This metric stands at 50%.
    The PSAs support National Special Security Events (NSSE) and 
Special Events Assessment Rating (SEAR) Level 1 & 2 events with on-site 
critical infrastructure expertise, products, and analysis. Performance 
is measured by supporting 100% of the NSSEs and SEAR 1& 2 level events 
in fiscal year 2016. Some of the events include Super Bowl 50, and the 
Republican National Convention and Democratic National Convention. This 
metric stands at 100%.
    PSAs support Federal, State, local, Tribal, and territorial 
partners, and owners and operators of critical infrastructure during 
man-made or natural incident response. In fiscal year 2016, PSAs have 
responded to 201 incidents.
    Question 4. Since 2004, DHS has maintained infrastructure 
protection field operations throughout the Protective Security Advisory 
(PSA) program. PSAs are trained critical infrastructure protection and 
vulnerability subject-matter experts. Given the complexity of critical 
infrastructure protection and the largely private ownership, what 
barriers, if any, impede DHS's ability to partner with facility owners 
and operators through the PSA program?
    Answer. The most common barriers are:
  <bullet> The point of contact (POC) requires coordination with their 
        corporate office,
  <bullet> POC lacks the amount of time to commit to an assessment,
  <bullet> Facility is already confident in its security posture,
  <bullet> Facility does not allow data collection as it is a regulated 
        facility (nuclear or defense industrial base),
  <bullet> Facility lacks a budget for implementing potential security 
        improvements,
  <bullet> Facility does not want to share its information with the 
        Government.
    In addition to these concerns, DHS is working to address the 
logistical challenge of placing sufficient staff in the field to meet 
the needs of our diverse and disparate stakeholders. The PSA program 
has been successful in large part because it provides trained staff 
across the Nation, reaching outside of Washington, DC, to form trusted 
relationships. In fiscal year 2016, DHS began a disciplined shift to 
build on this model and emphasize regional activities. Support for this 
regionalization initiative is one of the most important ways to improve 
DHS's ability to partner with facility owners and operators.
    Since its inception, the PSA program has focused on supporting 
partners in hardening and securing existing infrastructure. As the 
program has matured, the partner needs have evolved, and the PSA 
program is adapting to support a broad range of risk management and 
resilience activities across infrastructure sectors, stakeholder 
groups, threats, and hazards.
    Question 5. Dr. Ozment, how is the CSA program engaging with the 
critical infrastructure community in light of the fact that most 
critical infrastructure is privately owned and operated?
    Answer. Engagements with critical infrastructure owners and 
operators are voluntary-based. Our Cyber Security Advisors (CSAs) focus 
on building trusted relationships with owners and operators, 
demonstrating the value we bring through risk assessments and 
connecting customers to our services, sharing best practices, and 
sharing the current threat landscape. One way we reach this community 
is through existing fora, such as InfraGard, Electronic Crime Task 
Forces, Cyber Working Groups, Area Maritime Security Committee 
Meetings, and industry conferences. Additionally, our CSAs leverage 
existing relationships within the Department, including those that have 
been developed by Protective Security Advisors and the National 
Cybersecurity and Communications Integration Center (NCCIC).
    CSAs work with State cybersecurity leaders, including Homeland 
Security Advisors, Chief Information Security Officers, and cyber 
infrastructure protection and emergency management planners, to engage 
critical infrastructure owners and operators through State-led cyber 
working groups, information-sharing and analysis centers, fusion 
centers, and law enforcement outreach groups.
    Question 6. GAO reported that DHS has conducted thousands of 
assessments of critical infrastructure in the last few years using at 
least 10 different tools. These tools do not all cover the same 
vulnerabilities, they vary in detail and complexity, and some overlap. 
GAO made recommendations that DHS should address the overlap to avoid 
potentially unnecessary duplication and gaps. According to the GAO, DHS 
established a working group to address the overlapping assessments and 
potential duplication and gaps. What is the status of fulfilling GAO 
recommendation?
    Answer. The Department of Homeland Security (DHS) concurred with 
GAO's recommendations and has moved forward to harmonize critical 
infrastructure security vulnerability assessments across Federal 
departments and agencies. Over the past couple of years, the National 
Protection and Programs Directorate's (NPPD's) Office of Infrastructure 
Protection has worked with the Transportation Security Administration 
(TSA), the Federal Protective Service (FPS), the United States Coast 
Guard (USCG), the Office of Cybersecurity and Communications (CS&C), 
and other DHS agencies to collaboratively identify a core set of 
questions and anticipated response options from the single assessment 
methodology.
    The Cross-Agency Vulnerability Assessment Working Group, consisting 
of members from Federal departments and agencies with relevant 
vulnerability assessments, was charged to:
  <bullet> Identify key critical infrastructure security-related 
        assessment tools and methods used or offered by Federal 
        departments and agencies;
  <bullet> Analyze the key critical infrastructure security-related 
        assessment tools and methods to understand areas each 
        assessment captures;
  <bullet> Develop and disseminate guidance for areas that should be 
        included in vulnerability assessments of critical 
        infrastructure to enable a more coordinated and integrated 
        approach.
    To support the working group, NPPD established a portal for 
departments and agencies to upload documentation to include 
vulnerability assessment questionnaires, methodology, user guides, fact 
sheets, and other technical documentation.
    NPPD completed an analysis of tools and methodologies across 
approximately 5,000 assessments, the findings of which identified that 
core questions in 6 Key Security Areas have the greatest impact on 
infrastructure security, while covering the range of security areas 
envisioned by GAO. Consequently, NPPD has provided these core questions 
to Federal partners and has recommended inclusion of the questions in 
the next update or modification to respective Assessment questions and/
or tools. With respect to DHS assessment tools, these core questions 
have been and will be continue to be integrated into all assessment 
tools when appropriate and used across the Department to further enable 
cross component and agency comparison of assessed assets and risk.
    In addition, NPPD/IP has implemented a single assessment 
methodology that enables the IP mission partners to assess 
vulnerabilities and risk using the IP Gateway suite of assessment tools 
and integrated situational awareness and analytic planning and response 
tools. More than 80 State and Federal Department and agency partners 
currently use the IP Gateway to support their critical infrastructure 
protection needs. NPPD is currently working with additional partners to 
become IP Gateway partners.
    Question 7. Given the number of assessments, how prepared are the 
Nation's most at-risk critical infrastructure to threats from 
international and domestic terrorists and other high-risk 
vulnerabilities and hazards?
    Answer. NPPD's work has demonstrated that the Nation's most at-risk 
critical infrastructure is well-prepared--but faces new and continually 
evolving challenges. In addition to facing increasingly dynamic 
international and domestic terrorist threats and a wide range of 
hazards, the demands placed on infrastructure systems are expanding, 
while the American communities that infrastructure serves and supports 
have increasingly diverse needs. This environment of change emphasizes 
the importance of investing in the tools and resources that DHS 
provides for making security decisions about critical infrastructure. 
Further compounding these challenges is the underinvestment in critical 
infrastructure and the reality that the demand on infrastructure in the 
United States is increasing while investment capital is flagging.
    The 2016 National Preparedness Report identified the Infrastructure 
Systems core capability within the National planning system as 1 of 6 
capabilities that remain National areas for improvement. Likewise, 
based on State Preparedness Report (SPR) data, States and territories 
reported some of the lowest proficiency in the Protection mission area, 
which is relevant to critical infrastructure. However, notwithstanding 
the remaining gaps in reported proficiency, we are seeing improvement 
over time. For example, based on a review of SPR ``proficiency delta 
data,'' 71% of core capabilities in the Prevention mission area, 64% in 
Protection, and 86% in Mitigation were reported as improving in 
proficiency from 2012-2015. In 2016, the first edition of the 
Protection Federal Interagency Operational Plan was completed, paving 
the way for an improved interagency model for coordinating 
infrastructure security and resilience concerns.
    In the area of National preparedness, there are evident areas for 
growth, and areas where the IP assessment programs can increase their 
support for that growth. The DHS assessment programs are vital tools 
for continuing to improve our understanding of risks to infrastructure, 
providing resources for managing those risks, and encouraging owners 
and operators to take action. IP assessments contribute to the 
preparedness of the Nation's infrastructure through a model of 
continued engagement and evaluation. Because our critical 
infrastructure is heavily networked, both large and small 
infrastructure enterprises can be central to security and resilience, 
and IP's suite of assessment capabilities is tailored to meet the 
varied needs of our stakeholders.
    Corresponding to this networked nature of our critical 
infrastructure, DHS measures the success of its assessment program both 
in terms of completing assessments, and in terms of our stakeholders 
taking action based on the indices and information developed through 
our assessments. In terms of completing assessments, since fiscal year 
2010, 4,416 Infrastructure Survey Tool (IST) assessments have been 
conducted. In fiscal year 2015, approximately 88% of facilities where 
DHS conducted an Infrastructure Survey Tool (IST) assessment reported 
they were likely to integrate, or have integrated, some of the 
protective measures detailed in the assessment report. This is up from 
86% in fiscal year 2014 and 85% in fiscal year 2013. The most common 
improvements include enhancements to electronic security systems, 
security force, and security management. This kind of action is one 
important indicator of the impact that our assessments have on the 
security and resilience of infrastructure, but does not provide a 
perfect measure of the overall state of preparedness of the Nation's 
infrastructure.
    Furthermore, the security and resilience of our Nation's critical 
infrastructure relies on robust sector coordination structures 
developed under the National Infrastructure Protection Plan, meaning 
that measuring impact of the IP assessment program on the security and 
resilience of the Nation's critical infrastructure is tied to measuring 
the success of these coordination structures. In 2016, all of the 
Sector-Specific Plans under the NIPP were updated, improving our 
ability to work within and across infrastructure sectors to set 
priorities and manage risk. NPPD provides support to owners and 
operators across the 16 critical infrastructure sectors that have grown 
due to the increasingly complex and dispersed nature of the threat, 
including soft targets and cyber dependence.
    Measuring the success of IP assessment programs must be a 
continuous and evolving process to capture the increasingly complex and 
dispersed nature of threats, as well as other high-risk vulnerabilities 
and hazards to at-risk infrastructure. Accordingly, at the direction of 
Congress, NPPD is currently undertaking a 3-year strategic plan for 
IP's assessments that will strengthen our ability to leverage the data 
we have collected during assessments to characterize our National 
understanding of risks, support National preparedness planning, and 
support our partners. This plan will allow us to better understand how 
DHS assessment programs inform our National picture of risk, as well as 
how data from assessment programs can both improve our prioritization 
efforts and better support National preparedness planning, particularly 
as it relates to our most at-risk critical infrastructure and physical/
cyber convergence in assessments.
    In a continually evolving environment, we strive to respond to 
threats, high-risk vulnerabilities and hazards to our Nation's most at-
risk critical infrastructure through the use of DHS assessment programs 
and continued coordination with both large and small infrastructure 
enterprises. The DHS assessment programs are one tool that we use that 
can provide great value for owners and operators to take action. DHS 
assessment programs, as well as the 3-year strategic plan for 
assessments are integral mechanisms for understanding the increasingly 
complex and dispersed nature of threats, improving our prioritization 
efforts, and better supporting National preparedness planning.
    Question 8. How are the PSAs engaging with their counterparts from 
Sector-Specific Agencies such as the Department of Energy or 
Environmental Protection Agency, in ensuring our Nation's critical 
infrastructure is protected?
    Dr. Ozment, the same question regarding the CSAs?
    Answer. Protective Security Advisors (PSAs) and Cyber Security 
Advisors (CSAs) engage with Sector-Specific Agencies (SSAs) during 
assessments, incident response efforts, and threat-directed outreach.
    The National Protection and Programs Directorate (NPPD) serves as 
the SSA for 6 of the 16 critical infrastructure Sectors and coordinates 
with the other 10 sectors. Through this voluntary partnership framework 
consisting of a Government Coordinating Council and a Sector 
Coordinating Council an effective mechanism has been established for 
collecting data, sharing information, and advancing collective actions 
for National critical infrastructure security and resilience. NPPD 
employs sector liaisons who are responsible for serving as conduits 
between the Department and external SSAs.
    Training.--The Office of Infrastructure Protection (IP) in 
collaboration with the Environmental Protection Agency (EPA) and Water 
Sector partners developed an on-line training course, ``Risk Management 
for the Water Sector.'' The course is designed to provide water and 
wastewater facility owners and operators with general knowledge of risk 
management. In addition, the course introduces EPA's Vulnerability 
Self-Assessment Tool (VSAT).
    Threat-Directed Outreach.--During outreach to State, local, Tribal, 
and territorial (SLTT) Government and private-sector partners, PSAs 
coordinate activities with appropriate Federal agencies and SSAs. For 
example, in response to a coordinated attack on an electric substation 
in Metcalf, CA, on April 18, 2013, the Department of Energy (DOE) and 
the Department of Homeland Security (DHS), in coordination with the 
Federal Bureau of Investigation, the Federal Energy Regulatory 
Commission's Office of Energy Infrastructure Security, the Electricity 
Sector Information Sharing and Analysis Center partners, and industry 
experts conducted a series of briefings Nation-wide for owners, 
operators, and local law enforcement. These briefings provided a threat 
overview, and information on available tools, resources, and best 
practices. Additional targeted PSA-led efforts were conducted in 
partnership with service providers such as Exelon/PECO and ConEdison.
    Assessments.--One of the major strengths of the Regional Resiliency 
Assessment Program (RRAP) is the collaboration that brings together 
Federal, State, local, Tribal, and territorial governments, and the 
private sector to work with DHS. Collaboration at the regional level is 
led by the PSAs assigned to execute the project, with support from 
CSAs. Interagency coordination occurs between headquarters offices as 
well. The RRAP team provides project briefings to the SSAs and their 
Government Coordinating Councils (GCCs) and Sector Coordinating 
Councils (SCCs). SSAs are relied upon to provide insight into the 
operations and vulnerabilities of infrastructure, as well as to connect 
the RRAP project teams, which include PSAs and CSAs, to relevant 
industry and Government contacts who can assist in the assessment and 
analysis. Some examples of SSA and interagency involvement include:
  <bullet> DOE has assisted DHS on numerous oil and natural gas RRAP 
        projects. Current collaboration includes a resilience project 
        for the electric power grid in the Northeast in support of 
        recommended actions from the 2015 Quadrennial Energy Review.
  <bullet> U.S. Coast Guard (USCG) is a strong SSA partner. The USCG is 
        included in port- or maritime transportation-related RRAP 
        projects. Examples include the 2013 Columbia River Basin 
        project and the 2016 Gulf of Mexico project, in support of the 
        USCG-led Gulf of Mexico Area Maritime Security Committee.
  <bullet> U.S. Army Corps of Engineers regularly participates in dam-
        related projects. They are currently involved in a 2015 project 
        in Louisville, Kentucky, and a 2016 project in Branson, 
        Missouri.
  <bullet> Department of Transportation regularly participates in 
        transportation disruption-focused projects, including the 2013 
        Cajon Pass (California) and 2014 Alaska projects.
  <bullet> U.S. Department of Agriculture has been involved in the 
        agriculture-focused projects in Texas, California, Alabama, New 
        Mexico, examining issues such as biosecurity of the cattle 
        industry and the milk supply chain.
    In addition to the SSAs, the RRAP team also works with other 
Federal agencies, including the Federal Emergency Management Agency 
(FEMA), the National Oceanic and Atmospheric Administration (NOAA), 
U.S. Geological Survey (USGS), and other Emergency Support Function 
(ESF) and Recovery Support Function (RSF) leads. FEMA contributes 
hazard information and insight into regional disaster planning and 
capabilities. In turn, RRAP analyses improve planning factors related 
to infrastructure dependencies and hazard impacts. NOAA and USGS 
provide very specific, useful hazard information and models (e.g., 
earthquakes, tsunamis, overland flooding/storm surge) that the RRAP 
uses to inform analyses of infrastructure impacts. The many ESF and RSF 
agencies provide insight into their response and recovery roles, 
capabilities, and plans.
    Incident Response.--PSAs engage the agencies designated as 
Emergency Support Function (ESF) and Recovery Support Function (RSF) 
leads, which include SSAs.
    Under the Recovery Support Functions for infrastructure systems, 
the U.S. Army Corps of Engineers is the National Coordinating Agency 
for the Federal Government's efforts to support recovery goals related 
to the public engineering of the Nation's infrastructure systems. NPPD 
is a Primary Agency in this effort, along with a number of other SSAs 
who serve as Primary Agencies or Supporting Organizations. In this 
role, PSAs may deploy to Joint Field Offices (JFO) or Regional Field 
Offices (RFO) to assist with infrastructure recovery operations.
    Cyber Security Advisors.--CSAs engage with SSAs to raise awareness 
and improve readiness. For example, CSAs work with SSAs to identify 
sector-based, critical cyber services. CSAs then focus voluntary 
cybersecurity evaluations at these services. Additionally, the CSAs 
assisted DOE with developing the Electricity Subsector--Cybersecurity 
Capability Maturity Model (ES-C2M2) assessment, which is derived from 
the Cyber Resilience Review. ES-C2M2 is a sector-specific maturity 
model that guides electricity companies in implementing best practices. 
In the field, CSAs have coordinated with the Environmental Protection 
Agency on water engagements, the Coast Guard on maritime engagements, 
the Transportation Security Administration on mass transit engagements, 
and Treasury on financial service engagements.
    Question 9. The National Critical Infrastructure Prioritization 
Program (NCIPP) identifies a list of Nationally-significant critical 
infrastructure each year that is used to, among other things, 
prioritize voluntary vulnerability assessments that will be conducted 
by PSAs. According to GAO's testimony, as of August 2014, DHS officials 
reported that they are exploring options to streamline the process and 
limit the delay of dissemination of the NCIPP list among those who have 
a need-to-know.
    What is the status of efforts to streamline the NCIPP process and 
limit to delays in disseminating this list?
    Answer. The Department (DHS) has streamlined the NCIPP process in a 
number of ways:
  <bullet> DHS has eliminated the requirement of States and sectors to 
        re-nominate the same infrastructure every year by automatically 
        approving infrastructure already on the Level 1 and Level 2 
        List. This has significantly decreased the time and manpower 
        requirements on partners.
  <bullet> The consequence criteria threshold used for the Level 1 and 
        Level 2 List has remained largely stable for more than 5 years. 
        This stability has allowed partners to better understand how 
        the criteria may be applied to various infrastructure and focus 
        their efforts on those assets, systems, and clusters whose 
        consequences are most likely to reach the established criteria.
  <bullet> DHS has increased the assistance and outreach provided to 
        State and local partners prior to and during the data call 
        including on specific nominations and guidance on approaches 
        nominators might take to maximize the probability of approval.
  <bullet> The system used to make nominations for the Level 1 and 
        Level 2 List is available to States and sectors year round 
        enabling partners to work on nomination justifications at their 
        own pace.
    DHS continues to work with State and Territorial Homeland Security 
Advisors, through the PSAs, to make delivery of the completed list as 
efficient as possible. This includes the increased use of electronic 
dissemination of the lists through State and Local Fusion Centers. The 
overall stability of the List has also decreased the time required to 
finalize and prepare the list for dissemination. The average 
dissemination time has been reduced by approximately 2 months.
    As of August 2014, GAO closed out all recommendations associated 
with GAO 13-296 Critical Infrastructure Protection: DHS List of 
Priority Assets Needs to Be Validated and Reported to Congress.
    Question 10. Background material provided to the committee in 
preparation for this hearing regarding the PSAs notes that in 2015, the 
PSAs conducted 949 ``Cyber Enhancement'' engagements. Can you please go 
into more detail on what those engagements entail and how do they 
overlap with or differ from engagement by CSAs?
    Answer. The evolving risk landscape associated with cybersecurity 
highlights the increasingly close connection between cyber and physical 
systems, including the potential for physical impacts associated with 
the exploitation of cyber vulnerabilities. For this reason, Protective 
Security Advisors (PSAs) conduct cyber enhancement events that include 
the Office of Cybersecurity and Communications. These cybersecurity and 
resiliency meetings, cyber-related assessments, special event support, 
and engagements with stakeholders provide opportunities for addressing 
cyber and physical risks in a holistic and coordinated fashion. As 
reflected in State Preparedness Reports, cybersecurity continues to be 
one of the top concerns at the State and local level. PSAs are trained 
to communicate the Department's cybersecurity services available to 
stakeholders. In many cases, PSAs and Cyber Security Advisors (CSAs) 
work together on identifying stakeholder needs.
        Questions From Chairman John Ratcliffe for Marcus Brown
    Question 1. Given the focus of some assessments on threats to 
specific regions, are there any U.S. cities or sector that are examples 
of best practices in collaborating with and among DHS offices and 
components and other Federal partners in participating in assessments 
and taking actions to address vulnerabilities identified?
    Answer. There has been extremely good collaboration among Federal 
agencies (including various DHS elements) in conducting assessments and 
assisting owners and operators of critical infrastructure, and a good 
example would be the Greater Philadelphia area. DHS entities such as 
NPPD, FEMA, Coast Guard, Customs and Border Protection, the U.S. Secret 
Service, etc. have worked together with the Federal Bureau of 
Investigation, National Park Service, Health and Human Services, 
Environmental Protection Agency, Department of Energy, etc. to conduct/
participate in assessments of all types. There have been cyber and 
physical vulnerabilities identified and protective measures implemented 
in many sectors, including: Commercial Facilities; Energy; Water/
Wastewater; Health Care; etc. These protective measures have included: 
Access control (barriers, CCTV, electronic access control systems, 
fencing, etc.), security and emergency planning, security management 
practices, resilience of lifeline dependencies, cybersecurity, and a 
host of others.
    Question 2a. According to the GAO testimony, DHS established a 
policy in October 2014 to conduct quarterly reviews of programs related 
to critical infrastructure to better understand the barriers critical 
infrastructure owners and operators face in improving the security of 
their assets. What trends has DHS identified in declinations using its 
tracking system since October 2013?
    Has DHS identified barriers that critical infrastructure owners and 
operators face in making improvements?
    Question 2b. If so, what are those barriers?
    Answer. We believe that many of the barriers that owners and 
operators face in making improvements to critical infrastructure are a 
result of trade-offs that have to be made in a fiscally-constrained 
environment. Owners and operators in the State have benefitted from the 
voluntary surveys that DHS conducts on critical infrastructure using 
the Infrastructure Survey Tool (IST), a web-based vulnerability survey 
conducted by DHS's Protective Security Advisors (PSAs) to identify and 
document the overall security and resilience of a facility. Based on 
information from our local PSA, the resulting survey information is 
provided to owners and operators through the interactive Dashboards. 
The Dashboards highlight areas of potential concern and feature options 
to view the impact of potential enhancements to protection and 
resilience measures. The written report, developed from the IST data, 
contains a description of the facility and its vulnerabilities as well 
as recommendations to mitigate identified vulnerabilities. The PSAs 
follow-up with the facility approximately 1 year after the Dashboard is 
provided to better understand the value of the survey and potential 
enhancements that were made as a result of the survey. Feedback is 
quantified and analysis conducted on the responses to determine if 
security and resilience enhancements are being implemented, and if 
there are impediments to incorporating recommended enhancements. Based 
on the feedback we have received from the PSA, approximately 90% of 
facilities are likely to integrate, or have integrated, some of the 
protective measures detailed in the assessment report. The most common 
improvements include enhancements to electronic security systems, 
security force, and security management. The PSA indicated that 
barriers for making changes include cost-prohibitive capital 
investments, lack of project management resources, differing strategic 
priorities, plans to move or significantly change the facility, and 
local ordinances.

                                 <all>
</pre></body></html>
